 U.S. DEPARTMENT OF JUSTICE

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2011 

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 12-03

            December 2011

 
              U.S. DEPARTMENT OF JUSTICE

             ANNUAL FINANCIAL STATEMENTS 

                    FISCAL YEAR 2011


              OFFICE OF THE INSPECTOR GENERAL 

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2011, and September 30, 2010. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the
Department’s audit in accordance with U.S. generally accepted government
auditing standards. The audit resulted in an unqualified opinion on the
FY 2011 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with
U.S. generally accepted accounting principles. For FY 2010, the Department
also received an unqualified opinion on its financial statements (OIG Report
No. 11-03).

      KPMG LLP also issued Reports on Internal Control over Financial
Reporting and on Compliance and Other Matters. For FY 2011, the auditors
did not identify any significant deficiencies in the Independent Auditors’
Report on Internal Control over Financial Reporting. Nevertheless, it is
important to note that the Department still does not have a unified financial
management system to readily support ongoing accounting operation and
preparation of financial statements. As discussed in past years, we believe
the most important challenge facing the Department in its financial
management is to successfully implement an integrated financial
management system to replace the disparate and, in some cases, antiquated
financial systems used by Department components.

      In the FY 2011 Independent Auditors’ Report on Compliance and Other
Matters, the auditors identified no instances of non-compliance with
applicable laws and regulations and the Federal Financial Management
Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the Department’s financial statements,




                                    -i-
conclusions about the effectiveness of internal control, conclusions on
whether the Department’s financial management systems substantially
complied with the Federal Financial Management Improvement Act of 1996,
or conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 10, 2011, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with
U.S. generally accepted government auditing standards.




                                   - ii -
                  U.S. DEPARTMENT OF JUSTICE 

                 ANNUAL FINANCIAL STATEMENTS

                        FISCAL YEAR 2011 


                          TABLE OF CONTENTS

                                                                             PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS......................................... 3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ............................................... 33


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 35


  REPORT ON COMPLIANCE AND OTHER MATTERS................................ 39


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS................................................... 42


  CONSOLIDATED STATEMENTS OF NET COST ..................................... 43


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 44


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 46


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY ............................ 48


  NOTES TO THE FINANCIAL STATEMENTS .......................................... 49


CONSOLIDATING AND COMBINING FINANCIAL STATEMENTS .................. 94


REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION


  CONSOLIDATED STEWARDSHIP INVESTMENTS.................................111

This page intentionally left blank.

Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank.





                -2-
                         Management’s Discussion and Analysis
                                     (Unaudited)

Established July 1, 1870 (28 U.S.C. § 501 and 503), the Department of Justice (DOJ or the Department) is
headed by the Attorney General of the United States. The Department was created to control federal law
enforcement and all criminal prosecutions and civil suits in which the United States has an interest. The
structure of the Department has changed over the years, with the addition of a Deputy Attorney General,
Associate Attorney General, Assistant Attorneys General, and the formation of Divisions and components;
however, unchanged is the commitment and response to securing equal justice for all, enhancing respect for
the rule of law, and making America a safer and more secure Nation.

                                                  Mission 

The mission of the Department of Justice, as reflected in its Strategic Plan for fiscal years (FY) 2007-2012, is
as follows:

        To enforce the law and defend the interests of the United States according to the law, to
        ensure public safety against threats foreign and domestic, to provide federal leadership in
        preventing and controlling crime, to seek just punishment for those guilty of unlawful
        behavior, and to ensure fair and impartial administration of justice for all Americans.

In carrying out the Department’s mission, we are guided by the following core values:

   Equal Justice Under the Law. Upholding the laws of the United States is the solemn responsibility
   entrusted to us by the American people. We enforce these laws fairly and uniformly to ensure that all
   Americans receive equal protection and justice under the law.

   Honesty and Integrity. We adhere to the highest standards of ethical behavior.

   Commitment to Excellence. We seek to provide the highest levels of service to the American people.
   We are effective and responsible stewards of the taxpayers’ dollars.

   Respect for the Worth and Dignity of Each Human Being. We treat each other and those we serve
   with fairness, dignity, and compassion. We value differences in people and ideas. We are committed to
   the well-being of our employees and to providing opportunities for individual growth and development.



                                   Strategic Goals and Objectives 

From our mission and core values stem the Department’s strategic and annual planning processes. The
Department embraces the concepts of performance-based management. At the heart of these concepts is the
understanding that improved performance is realized through greater focus on mission, agreement on goals
and objectives, and timely reporting of results. In the Department, strategic planning is the first step in an
iterative planning and implementation cycle. This cycle, which is the center of the Department’s efforts to
implement performance-based management, involves setting long-term goals and objectives, translating these
goals and objectives into budgets and program plans, implementing programs, monitoring performance, and




                                                   -3-
evaluating results. In this cycle, the Department’s Strategic Plan provides the overarching framework for
component and function-specific plans as well as annual performance plans, budgets, and reports.
The Strategic Plan is available electronically on the Department’s website at: http://www.justice.gov.

The table below provides an overview of the Department’s strategic goals and objectives.

Strategic Goal                                 Strategic Objectives 
                                               1.1 Prevent, disrupt, and defeat terrorist operations before they occur
I     Prevent Terrorism and Promote the
      Nation’s Security
                                               1.2 Strengthen partnerships to prevent, deter, and respond to terrorist
                                               incidents

                                               1.3 Prosecute those who have committed, or intend to commit, terrorist
                                               acts in the United States

                                               1.4 Combat espionage against the United States
                                               2.1 Strengthen partnerships for safer communities, and enhance the
II    Prevent Crime, Enforce Federal Laws,
                                               Nation’s capacity to prevent, solve, and control crime
      and Represent the Rights and Interests
      of the American People
                                               2.2 Reduce the threat, incidence, and prevalence of violent crime

                                               2.3 Prevent, suppress, and intervene in crimes against children

                                               2.4 Reduce the threat, trafficking, use, and related violence of illegal
                                               drugs

                                               2.5 Combat public and corporate corruption, fraud, economic crime,
                                               and cybercrime

                                               2.6 Uphold the civil and Constitutional rights of all Americans

                                               2.7 Vigorously enforce and represent the interests of the United States
                                               in all matters over which the Department has jurisdiction

                                               2.8 Protect the integrity and ensure the effective operation of the
                                               Nation’s bankruptcy system
                                               3.1 Protect judges, witnesses, and other participants in federal
III   Ensure the Fair and Efficient
                                               proceedings, and ensure the appearance of criminal defendants for
      Administration of Justice
                                               judicial proceedings or confinement

                                               3.2 Ensure the apprehension of fugitives from justice

                                               3.3 Provide for the safe, secure, and humane confinement of detained
                                               persons awaiting trial and/or sentencing and those in the custody of the
                                               Federal Prison System

                                               3.4 Provide services and programs to facilitate inmates’ successful
                                               reintegration into society, consistent with community expectations and
                                               standards

                                               3.5 Adjudicate all immigration cases promptly and impartially in
                                               accordance with due process

                                               3.6 Promote and strengthen innovative strategies in the administration
                                               of state and local justice systems

                                               3.7 Uphold the rights and improve services to America’s crime victims




                                                         -4-
                                     Organizational Structure 

Led by the Attorney General, the Department is comprised of more than forty separate component
organizations. These include the U.S. Attorneys (USAs) who prosecute offenders and represent the United
States government in court; the major investigative agencies – the Federal Bureau of Investigation (FBI), the
Drug Enforcement Administration (DEA), and the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), which deter and investigate crimes and arrest criminal suspects; the U.S. Marshals Service (USMS),
which protects the federal judiciary, apprehends fugitives, and detains persons in federal custody; the Bureau
of Prisons (BOP), which confines convicted offenders; and the National Security Division (NSD), which
brings together national security, counterterrorism, counterintelligence, and foreign intelligence surveillance
operations under a single authority.

The Department’s litigating divisions represent the rights and interests of the American people and enforce
federal criminal and civil laws. The litigating divisions are comprised of the Antitrust (ATR), Civil (CIV),
Civil Rights (CRT), Criminal (CRM), Environment and Natural Resources (ENRD), and Tax (TAX)
Divisions. The Office of Justice Programs (OJP), the Office on Violence Against Women (OVW), and the
Office of Community Oriented Policing Services (COPS) provide leadership and assistance to state, local, and
tribal governments. Other major Departmental components include the U.S. Trustees (UST), the Office of the
Federal Detention Trustee (OFDT), the Justice Management Division (JMD), the Executive Office for
Immigration Review (EOIR), the Community Relations Service (CRS), the National Drug Intelligence Center
(NDIC), the Office of the Inspector General (OIG), and several offices that advise the Attorney General on
policy, law, legislation, tribal justice matters, external affairs, and oversight. Headquartered in Washington,
D.C., the Department conducts its work in offices located throughout the country and overseas.




                                                   -5-
                                                            U.S. DEPARTMENT OF JUSTICE




                                                                           Attorney General


                                                                                   Deputy
                                                                              Attorney General



                                     ASSOCIATE
SOLICITOR
                                     ATTORNEY
GENERAL                               GENERAL


                                                                                          OFFICE OF
 OFFICE OF                                                                  OFFICE OF
                                                                                           PUBLIC
    THE                                                                    LEGAL POL CY
                                                                                           AFFAIRS
 SOLICITOR
 GENERAL



                                                                             OFFICE OF    OFFICE OF
                            COMMUNITY                                       LEG SLATIVE    LEGAL
 OFFICE OF                                         CIV L                                                 FEDERAL                         NATIONAL         OFFICE OF
                             ORIENTED                            CIVIL        AFFAIRS     COUNSEL                        CRIMINAL
  JUSTICE                                        RIGHTS                                                 BUREAU OF                        SECURITY       PROFESSIONAL
                             POLICING                          DIVISION                                                  DIVISION
 PROGRAMS                                        DIVISION                                             INVESTIGAT ON                      DIVISION       RESPONSIBILITY
                             SERVICES


                                                                             OFFICE OF
  EXECUTIVE                                                  ENV RONMENT       INTER-     OFFICE OF
                              OFFICE OF                                                     TRIBAL         DRUG                          OFFICE OF       OFFICE OF THE
 OFFICE FOR                                  ANTITRUST       AND NATURAL   GOVERNMENTAL                                 BUREAU OF
                            INFORMATION                                                    JUSTICE     ENFORCEMENT                     THE INSPECTOR       PARDON
UNITED STATES                                 DIVISION        RESOURCES      AND PUBLIC                                  PRISONS
                               POLICY                                                                 ADMINISTRATION                      GENERAL         ATTORNEY
  TRUSTEES                                                     DIVISION       LIAISON



                             FOREIGN                                                                    EXECUTIVE         UNITED
  OFFICE OF                                                  COMMUNITY                                                                    JUSTICE       UNITED STATES
                              CLA MS               TAX                                                 OFFICE FOR        STATES
   D SPUTE                                                   RELATIONS                                                                  MANAGEMENT         PAROLE
                            SETTLEMENT           DIV SION                                             UNITED STATES     MARSHALS
 RESOLUTION                                                   SERVICE                                                                     DIVISION       COMMISSION
                            COMMISSION                                                                 ATTORNEYS         SERV CE



                OFFICE ON                                                                                              U.S. NATIONAL     EXECUTIVE
                VIOLENCE                                                                                  UNITED                                        NATIONAL DRUG
                                                                                                                          CENTRAL        OFFICE FOR
                 AGAINST                                                                                  STATES                                         INTELLIGENCE
                                                                                                                          BUREAU        IMMIGRATION
                 WOMEN                                                                                  ATTORNEYS                                           CENTER
                                                                                                                         INTERPOL         REVIEW



                                                                                                       BUREAU OF       OFFICE OF THE   PROFESSIONAL     EXECUTIVE OFFICE
                                                                                                        ALCOHOL,         FEDERAL       RESPONSIBILITY
                                                                                                                                                         FOR ORGANIZED
                                                                                                        TOBACCO,                                           CR ME DRUG
                                                                                                                        DETENTION        ADVISORY        ENFORCEMENT
                                                                                                       F REARMS, &       TRUSTEE          OFFICE
                                                                                                       EXPLOSIVES                                         TASK FORCES




                                                                                -6-
                                         Financial Structure 

The Department’s financial reporting structure is comprised of nine principal components and various Offices, 

Boards, and Divisions (OBDs). 


Components: 

   Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF) 

   Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)

   Bureau of Prisons (BOP) 

   Drug Enforcement Administration (DEA) 

   Federal Bureau of Investigation (FBI) 

   Federal Prison Industries, Inc. (FPI) 

   Office of Justice Programs (OJP)

   Offices, Boards and Divisions * (OBDs) 

   U.S. Marshals Service (USMS) 


OBDs*:

   Offices                                                     Boards
   Office of the Attorney General                              Foreign Claims Settlement Commission
   Office of the Deputy Attorney General                       U.S. Parole Commission
   Office of the Associate Attorney General
   Community Relations Service                                 Divisions
   Executive Office for Immigration Review                     Antitrust Division
   Executive Office for U.S. Attorneys                         Civil Division
   Executive Office for U.S. Trustees                          Civil Rights Division
   Executive Office for Organized Crime Drug                   Criminal Division
      Enforcement Task Force                                   Environment and Natural Resources Division
   National Drug Intelligence Center                           Justice Management Division
   Office of Community Oriented Policing Services              National Security Division
   Office of Dispute Resolution                                Tax Division
   Office of Information Policy
   Office of Intergovernmental and Public Liaison
   Office of Legal Counsel
   Office of Legal Policy
   Office of Legislative Affairs
   Office of Professional Responsibility
   Office of Public Affairs
   Office of the Federal Detention Trustee
   Office of the Inspector General
   Office of the Pardon Attorney
   Office of the Solicitor General
   Office of Tribal Justice
   Office on Violence Against Women
   Professional Responsibility Advisory Office
   U.S. Attorneys
   U.S. National Central Bureau - INTERPOL
                                                FY 2011 Resource Information 

The following pages provide summary-level resource and performance information regarding the
Department’s operations for FY 2011. The charts on this page reflect employees on board as of
September 24, 2011.


                                           FY 2011 DOJ Employees On Board by Component
                                                        116,105 Employees

                         0.02% (19)                                                                                         AFF/SADF

                         0.58% (668)                                                                                        OJP

                               4.33% (5,022)                                                                                ATF
        Employees




                                4.88% (5,673)                                                                               USMS
                                       8.36% (9,711)                                                                        DEA

                                                             19.22% (22,316)                                                OBDs

                                                                                   30.46% (35,369)                          FBI
                                                                                        32.15% (37,327)                     BOP (including FPI)

         0.00%                   10.00%             20.00%                30.00%               40.00%                50.00%




                                            FY 2011 DOJ Employees On Board by Category
                                          Attorneys, Correctional Officers, Agents, and Other*


        100%


           75%                                                                                                              Other, 54%


           50%
                                                                Correctional                  Agents, 22%
                                                                Officers, 15%
                                       Attorneys, 9%
           25%


                    0%
                                                                   Employees




  *“Other” includes pay class categories such as general administrative, clerical, analyst, information technology specialist, security specialist, and
  legal services.
                                 Table 1. Sources of DOJ Resources
                                           (Dollars in Thousands)

                                                                
                     Source                                FY 2011        FY 2010        % Change 
Earned Revenue:                                             $3,331,777     $3,275,846          1.7%
Budgetary Financing Sources:
  Appropriations Received                                   27,479,834     28,342,153          -3.0%
  Appropriations Transferred-In/Out                            400,839        510,516         -21.5%
  Nonexchange Revenues                                       2,004,395      2,367,453         -15.3%
  Donations and Forfeitures of Cash and Cash
   Equivalents                                               1,580,584      1,502,466          5.2%
  Transfers-In/Out Without Reimbursement                       113,735         75,097         51.5%
  Other Adjustments                                          (132,256)      (153,751)         14.0%
Other Financing Sources:
  Donations and Forfeitures of Property                       157,607          71,204        121.3%
  Transfers-In/Out Without Reimbursement                       44,556          (1,889)      2458.7%
  Imputed Financing from Costs Absorbed by
Others                                                        998,485         902,877         10.6%
  Other Financing Sources                                      (4,613)             0

                             Total DOJ Resources           $35,974,943    $36,891,972          -2.5%


                             Table 2. How DOJ Resources Were Spent
                                           (Dollars in Thousands)


                                                                                
                 Strategic Goal (SG)                         FY 2011       FY 2010       % Change 
         Prevent Terrorism and Promote the Nation’s
    I
         Security
                                            Gross Cost       $5,726,094     $5,545,532
                                Less: Earned Revenue            484,009        506,463
                                               Net Cost       5,242,085      5,039,069        4.0%
         Prevent Crime, Enforce Federal Laws, and
   II    Represent the Rights and Interests of the
         American People
                                            Gross Cost       17,227,131     16,665,443
                                Less: Earned Revenue          1,547,697      1,488,093
                                               Net Cost      15,679,434     15,177,350        3.3%
         Ensure the Fair and Efficient Administration of
   III
         Justice
                                            Gross Cost       13,013,658     12,550,173
                                Less: Earned Revenue          1,300,071      1,281,290
                                               Net Cost      11,713,587     11,268,883        3.9%

                                   Total Gross Cost          35,966,883     34,761,148
                        Less: Total Earned Revenue            3,331,777      3,275,846
                        Total Net Cost of Operations        $32,635,106    $31,485,302        3.7%
            Comparison of Net Costs by Strategic Goal - FY 2011 and 2010
                                     (Dollars in Millions)

                                   $15,679        $15,177

$15,000

                                                              $11,714
                                                                         $11,269



$10,000
                                                                                   FY 2011
                                                                                   FY 2010
            $5,242        $5,039

 $5,000




       $0
            SG I                     SG II                     SG III




                     FY 2011 Percentage of Net Costs by Strategic Goal

                                                 48%

50%                                                                     36%




                        16%
25%




  0%

                                     SG I    SG II   SG III




                                             - 10 -
                                  Analysis of Financial Statements 

The Department’s financial statements, which are provided in Section III of this document, received an
unqualified audit opinion for the fiscal years ended September 30, 2011 and 2010. These statements were
prepared from the accounting records of the Department in conformity with the accounting principles
generally accepted in the United States and Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements. These principles are the standards promulgated by the Federal Accounting
Standards Advisory Board (FASAB).

The following information highlights the Department’s financial position and results of operations in FY 2011.
The complete set of financial statements, related notes, and the opinion of the Department’s auditors are
provided in Section III of this document.

Assets: The Department’s Consolidated Balance Sheet as of September 30, 2011, shows $42.8 billion in
total assets, an increase of $2.7 billion over the previous year’s total assets of $40.1 billion. Fund Balance
with U.S. Treasury (FBWT) was $23.4 billion, which represented 55 percent of total assets. This increase is
predominantly due to large investments activity (deposits) related to the Madoff, Barclays and Adelphia cases
that occurred in FY 2011.

Liabilities: Total Department liabilities were $13.3 billion as of September 30, 2011, an increase of
$2.7 billion from the previous year’s total liabilities of $10.6 billion. This increase is primarily due to the
offsetting liability related to the large deposits of the seized cash from the Madoff, Barclays, and Adelpia cases
that occurred in FY 2011.

Net Cost of Operations: The Consolidated Statement of Net Cost presents the Department’s gross and net
cost by strategic goal. The net cost of the Department’s operations totaled $32.6 billion for the year ended
September 30, 2011, an increase of $1.1 billion (3.7 percent) from the previous year’s net cost of operations of
$31.5 billion. This increase is partially due to an increase in third party and equitable sharing payments related
to large cases.

Brief descriptions of some of the major costs for each Strategic Goal are as follows:

              Strategic 
                                                  Description of Major Costs 
                Goal 
                   I        Includes resources dedicated to counterterrorism initiatives for ATF, CRM,
                            DEA, FBI, NSD, USAs, and USMS

                  II        Includes resources for the AFF, ATF, BOP, COPS, CRS, DEA, FBI, Foreign
                            Claims Settlement Commission (FCSC), Organized Crime Drug Enforcement
                            Task Force (OCDETF), Office of Dispute Resolution (ODR), OJP, Office of
                            Legal Counsel, Office of the Pardon Attorney (OPA), Office of the Solicitor
                            General (OSG), OVW, USAs, USMS, U.S. National Central Bureau
                            (INTERPOL), UST, ATR, CIV, CRT, CRM, ENRD, and TAX

                  III       Includes resources for BOP, EOIR, Fees and Expenses of Witnesses, FPI,
                            OJP, Justice Prisoner Alien Transportation System, USMS, U.S. Parole
                            Commission, and services to America’s crime victims




                                                   - 11 -
Management and administrative costs, including the costs for the Department’s leadership offices, JMD,
Wireless Management Office, and others, are allocated to each strategic goal based on full-time equivalent
(FTE) employment.1

Budgetary Resources: The Department’s FY 2011 Combined Statement of Budgetary Resources shows
$42.4 billion in total budgetary resources, a decrease of $403 million from the previous year’s total budgetary
resources of $42.8 billion. This decrease is primarily related to the change in the Temporarily not Available
Pursuant to Public Law amount.

Net Outlays: The Department’s FY 2011 Combined Statement of Budgetary Resources shows $30.9 billion
in net outlays, an increase of $1 billion from the previous year’s total net outlays of $29.9 billion.


                                                  Data Reliability and Validity 

The Department views data reliability and validity as critically important in the planning and assessment of its
performance. As such, the Department makes every effort to ensure completeness and improve reliability of
its performance information by performing “data scrubs” (routine examination of current and historical data
sets, as well as looking toward the future for trends) to ensure the data we rely on to make day-to-day
management decisions are as accurate and reliable as possible and targets are ambitious enough given the
resources provided. In an effort to communicate our data limitations and commitment to providing accurate
data, this document includes a discussion of data validation, verification, and any identified data limitations for
each performance measure presented. The Department ensures each reporting component providing data for
this report meets the following criteria:

           At a minimum, performance data are considered reliable if transactions and other data that
           support reported performance measures are properly recorded, processed, and summarized to
           permit the preparation of performance information in accordance with criteria stated by
           management. Performance data need not be perfect to be reliable, particularly if the cost and
           effort to secure the best performance data possible will exceed the value of any data so
           obtained.




1
  FTE employment means the total number of regular straight-time hours (i.e., not including overtime or holiday hours) worked by employees, divided by the
number of compensable hours applicable to each fiscal year. Annual leave, sick leave, compensatory ime off, and other approved leave categories are
considered "hours worked" for purposes of defining FTE employment.




                                                                            - 12 -
                              Analysis of Performance Information 

According to the Government Performance and Results Act (GPRA) of 1993 and as amended in the GPRA
Modernization Act of 2010, an agency’s Strategic Plan must be updated every four years and cover a period of
not less than four years forward from the fiscal year in which it is submitted. The Department will publish a
new FY 2012-2016 Strategic Plan in FY 2012.

The Department’s FY 2007-2012 Strategic Plan, which contains three goals, is used for this report. The
Department’s Plan includes 20 key performance measures addressing its highest priorities toward achieving
these long-term outcome goals. The measures are included in the Department’s annual Budget and
Performance Summary and reported on in this document. The Department’s full Performance Report for these
measures, including an update on our progress toward meeting the FY 2012 long-term outcome goals, is
included in Section II of this document. The Department strives to present the highest-level outcome-oriented
measures available and fully report the accomplishments achieved during the reporting period. However, data
for the 20 key measures are compiled less than 30 days after the end of the fiscal year and, occasionally, data
for the entire year are not available at the time of publication.

During FY 2011, Departmental leadership continued to display a clear commitment to performance
management through the reliance on formal quarterly status reviews. Additionally, Departmental components
have worked to improve the quality and timeliness of financial and performance information that inform
quarterly status reporting and operating plans.

For this report, 96 percent of the performance measures have actual data for FY 2011. In some cases,
indicators are reported on a calendar year basis while others have a one-year lag time and thus are not included
in this report. The Department achieved 80 percent of its key indicators in FY 2011, which is higher than last
year’s overall success of 77 percent. The Department continues to emphasize long-term and annual
performance measure development, placement of key performance indicators on cascading employee work
plans, and Department-wide quarterly status reporting.

The Department will continue to examine its performance management system overall and implement
improvements, where necessary. Additional improvement areas include continuing to improve the quality and
utility of performance information, developing the capacity to use performance information through the use of
technology and reliable data systems, and continuing to work with OMB and other federal agencies to develop
mechanisms to target and measure efficiency of law enforcement and regulatory programs.

In addition to monitoring its annual progress, the Department continues to monitor progress made toward
achieving its FY 2012 long-term outcome goals for each of the 20 key performance measures. As of the close
of FY 2011, the Department’s long-term key measures are on-track for full achievement against its
FY 2012 long-term outcome goals (targets). One full year of performance remains until the Department
reports against planned progress, and a number of mechanisms are in place to ensure that the current progress
is maintained, including quarterly status reporting and performance-informed budget submissions that request
the resources necessary for the Department to reach its goals.

Beginning in FY 2012, the Department will implement its new Strategic Plan for FY 2012-2016. Similar to
our existing Plan, the new Plan will include specific long-term outcome goals that reflect the Department’s
highest priorities. The Department’s strategic planning process included a full-scale review of the existing 20
long-term outcome measures. That review revealed that certain goals have been accomplished; some were too
output oriented to warrant inclusion on the long-term outcome measure list and some no longer reflected the
mission of the reporting components. For the FY 2012-2016 Strategic Plan, the Department will unveil its
current list of long-term outcome measures, which will fully align with current priorities and goals. Just as in
the past, the Department’s annual Budget and Performance Summary will target long-term outcome goals and
reported each year in this report.




                                                 - 13 -
To prepare for the introduction of the FY 2012-2016 key outcome measures, following the FY 2011 report, the
Department will be discontinuing the following measures:

   1.  Catastrophic acts of terrorism
   2.  Number of organized criminal enterprises dismantled
   3.  Number of children depicted in child pornography identified by the FBI
   4.  Number of high-impact Internet fraud targets neutralized
   5.  Percent of assets/funds returned to creditors – Chapter 7; Chapter 13
   6.  Percent reduction in DNA backlog (casework only)
   7.  Percent of children recovered within 72 hours of an issuance of an AMBER alert
   8.  Number of participants in the Residential Substance Abuse Treatment (RSAT) Program
   9.  Graduation rate of program participants in the Drug Courts Program
   10. Per day jail costs
   11. Comparative recidivism for Federal Prison Industries (FPI) inmates versus non-FPI inmates
   12. Rate of serious assaults in federal prisons (per 5,000 inmates)
   13. Inspection results—Percent of federal facilities with American Correctional Association (ACA)
       accreditations
   14. Percent of Executive Office for Immigration Review (EOIR) priority cases completed within
       established timeframes
           a. Institutional Hearing Program
           b. Detained Cases – Immigration Court
           c. Detained Appeals




                                                    - 14 -
The chart below and the table that follows summarize the Department’s achievement of its FY 2011 key
performance measures.


                                    Achievement of FY 2011 Key Performance Measures



                                          80%
       100%


        75%


        50%
                                                                          16%
                                                                                                         4%
        25%


         0%


                                     Target Achieved      Target Not Achieved      Data Not Yet Available



Note: For FY 2011, the Department of Justice had 20 key performance measures. Some measures had more than one annual target;
therefore, for purposes of illustrating the Department’s achievement rate in the chart above, a universe of 25 key performance measures
instead of 20 was used.




                                                            - 15 -
                                                                                                          Target 
                                                       FY 2011                   FY 2011 
    [ ] Designates the                                                                                  Achieved/ 
                                                        Target                    Actual 
    reporting entity                                                                                   Not Achieved 
    Strategic Goal I:  Prevent Terrorism and Promote the Nation’s Security 
1   Catastrophic acts of terrorism                        Zero                      Zero                    Achieved
    [FBI]

    Strategic Goal II:  Prevent Crime, Enforce Federal Laws, and Represent the 
    Rights and Interests of the American People 
2   Number of organized criminal                            37                        39                    Achieved
    enterprises dismantled [FBI]
3   Number of children depicted in                         140                       240                    Achieved
    child pornography identified by
    the FBI [FBI]
    Percentage of firearms                                 N/A                       N/A                       N/A
    investigations resulting in a
    referral for criminal prosecution
    [ATF] (Discontinued) 1
    1
     ATF is discontinuing this measure and will be replaced with a new outcome measure linked to ATF strategic plan’s
    goals and objectives.
4   Consolidated Priority
    Organizations Target (CPOT)-
    linked drug trafficking
    organizations [DEA, FBI
    (Consolidated data - OCDETF)]
        Dismantled                                         157                       195                    Achieved
        Disrupted                                          318                       408                    Achieved
5   Number of high-impact Internet                          10                        11                    Achieved
    fraud targets neutralized [FBI]
6   Number of criminal enterprises                         250                       340                    Achieved
    engaging in white-collar crimes
    dismantled [FBI]
7   Percent of cases favorably
    resolved: [ENRD, ATR, CRM,
    USA, TAX, CIV, CRT
    (Consolidated data -
    JMD/Budget Staff)]
       Criminal Cases                                     90%                       93%                     Achieved
        Civil Cases                                       80%                       85%                     Achieved
    Percent of assets/funds returned
    to creditors: [USTP]
                    2
    (Discontinued)
        Chapter 7                                          N/A                       N/A                       N/A
        Chapter 13                                         N/A                       N/A                       N/A
    2
     USTP is discontinuing this measure. New measures have been developed that better reflect the mission, outcomes
    and impacts of the USTP.
    Number of homicides per site                           N/A                       N/A                       N/A
    (funded under the Weed and
    Seed program) [OJP]
    (Discontinued)3
    3
     This measure will be replaced with a new outcome measure which collects and analyzes the number of homicides,
    robberies, aggravated assaults, burglaries, weapons offenses, and drug arrests on the Weed and Seed site, and
    calculates and tracks the average change in proportion to the overall crime rate of the jurisdiction. The existing measure
    only reports on homicides because data on the other offenses are harder to collect.
8   Percent reduction in DNA                              25%                       33%                     Achieved
    backlog (casework only) [OJP]
9   Percent of children recovered                         76%                       90%                     Achieved
    within 72 hours of an issuance of
    an AMBER alert [OJP]




                                                                         - 16 -
                                                                                                         Target 
                                                         FY 2011                   FY 2011 
     [ ] Designates the                                                                                Achieved/ 
                                                          Target                    Actual 
     reporting entity                                                                                 Not Achieved 
     Strategic Goal III:  Ensure the Fair and Efficient Administration of Justice 
10   Number of participants in the                         28,000                        TBD4                 TBD
     Residential Substance Abuse
     Treatment (RSAT) Program
     [OJP]
     4
         Data are collected on a calendar-year basis and reported with a one-year lag.

11   Graduation rate of program                              73%                         43%            Not Achieved5
     participants in the Drug Courts
     Program (adult drug court
     participants only) [OJP]
     5
      In FY 2011, OJP established a new graduation rate target based on both historical grantee reporting and extensive
     research into a national average drug court graduation rate.

12   Ensure judicial proceedings are                         Zero                        Zero              Achieved
     not interrupted due to
     inadequate security [USMS]
13   Number and percent of primary
     felony fugitives apprehended or
     cleared [USMS]
         Number                                            34,000                    34,629               Achieved
         Percent                                            56%                       52%               Not Achieved6
     6
      While the target number was met for this measure, the percentage target of 56% was not met due to a larger than
     expected increase in the number of wanted primary federal felony fugitives.

14   Per day jail costs [OFDT]                             $74.02                    $72.88               Achieved
15   Percent of system-wide                                 38%                       39%               Not Achieved7
     crowding in federal prisons
     [BOP]
     7
      BOP was not able to achieve the target due to greater than expected inmate growth and lack of funding to bring on-line
     the medium security beds at FCI Mendota.

16   Ensure zero escapes from                                Zero                        Zero              Achieved
     secure BOP facilities [BOP]
17   Comparative recidivism for
     Federal Prison Industries (FPI)
     inmates versus non-FPI inmates
     [FPI / BOP provides data]
     Percentage less likely to                               15%                         12%            Not Achieved8
     recidivate:
        3 years after release
     8
      The results of this ongoing research may differ from earlier findings due to changes in the program, improved research
     methods, changes in the composition of the inmate population, and changes in the quality and comprehensiveness of
     data. Comparing results from one year to the next is inherently speculative.
18   Rate of serious assaults In                        16/5,000                   10/5,000                Achieved
     federal prisons (per 5,000                      Assaults/Inmates
     Inmates) [BOP]
19   Inspection results—Percent of                           99%                     100%                  Achieved
     federal facilities with American
     Correctional Association (ACA)
     accreditations [BOP]
20   Percent of Executive Office for
     Immigration Review (EOIR)
     priority cases completed within
     established timeframes [EOIR]
         Institutional Hearing Program                       85%                         88%               Achieved
         Detained Cases –                                    85%                         88%               Achieved
         Immigration Court
         Detained Appeals                                    90%                         94%               Achieved




                                                                    - 17 -
                                    FY 2010 – 2011 Priority Goals 

The FY 2011 OMB Budget and Performance Plan guidance memorandum required federal agencies to identify a
limited number of Priority Goals that are considered priorities for both the Administration and the agency, have high
relevance to the public or reflect the achievement of key agency missions, and would produce significant results over a
12 to 24 month timeframe. The Priority Goals should also represent critical elements of a federal agency’s strategic
plan.

The following comprise the Department’s six Priority Goals for FY 2010–2011 and are linked to the larger DOJ policy
framework and strategic plan goals.

Priority Goal 1, National Security: Increase the percentage of total counterterrorism investigations
targeting top priority threats by 5 percent by the end of FY 2011

Terrorism remains a serious threat to the national security of the United States and the safety of all Americans.
The Department of Justice is the leader of the nation’s domestic counterterrorism efforts, and the Federal
Bureau of Investigation (FBI) has the lead role in investigating both international and domestic terrorism
within the United States and terrorism against U.S. persons and interests abroad. The FBI Counterterrorism
Division (CTD) includes both the Domestic Terrorism and International Terrorism programs. Accordingly,
this Priority Goal involves increasing the percentage of total counterterrorism investigations targeting both top
priority domestic and international terrorism threats. With more investigations targeting high priority terrorist
threats, the FBI is better positioned to detect, penetrate, and disrupt the most serious terrorist activity that
threatens our country.

    o	 Status: The Department did not achieve its FY 2011 goal of targeting 65.1 percent of all 

       counterterrorism investigations toward Top Priority threats, having achieved 62.7 percent.  The 

       Department’s inability to achieve the target for this measure is believed to stem from several causes: 

           	 Principally, the counterterrorism threats which comprise the FBI’s “top priority” have evolved
               since this measure was adopted at the end of FY 2009. New threats have emerged, requiring
               the diversion of resources away from the threats originally defined to be within the scope of
               this measure. Because of these emerging threats, the FBI’s performance on this measure
               appears unresponsive, when in actuality the FBI has allocated its investigative resources
               properly against the most significant counterterrorism threats.
           	 Additionally, data collection for this Priority Goal has led to improved accounting for
               investigative resources within the FBI’s Counterterrorism Division (CTD). The CTD now
               follows various strategies to better track its investigations against priority threats, including
               guidance it provides to FBI Field Offices on how to appropriately classify investigations, and
               a stronger internal review process which can identify new threats and aid FBI Field Offices in
               their response.
           	 The FBI anticipates that these actions will improve its response capability for terrorist threats
               facing the United States.

Priority Goal 2, White Collar Crime: Increase white collar crime caseload by 5 percent by FY 2012,
with emphasis on mortgage fraud, health care fraud, and official corruption, and with 90 percent of
cases favorably resolved

The Department will pursue criminal and civil litigation to protect the federal fisc and hold accountable
corrupt officials and those who commit fraud. The Department will also pursue criminal and civil litigation
to preserve the environment and our limited natural resources, and promote transparency in markets by
preserving competition and protecting consumers and investors.




                                                       - 18 -
    o	 Status: The Department surpassed its FY 2011 caseload target. In addition, the Department favorably
        resolved 92.6 percent of its white collar crime cases through the fourth quarter, surpassing its annual
        target.

Priority Goal 3, Violent Crime: Increase agents and prosecutors by 3 percent, in order to reduce
incidents of violent crime in high crime areas by FY 2012

The Violent Crime Priority Goal focuses on the aspects of the Department’s overall violent crime strategy that
involve tackling uniquely federal issues, such as prosecuting national and international gangs, and partnering
with state and local law enforcement to lend support in addressing the most significant local challenges. The
Department’s value is in providing the leadership necessary to bring different federal, state, and local partners
together to focus on multi-jurisdictional problems within a particular community.

    o	 Status: The Department surpassed its FY 2011 annual target of increasing the number of agents and
        prosecutors assigned to violent crime.

Priority Goal 4, Immigration: Increase immigration judges by 19 percent by the end of
FY 2011 so that as Department of Homeland Security (DHS) criminal alien enforcement activity
increases, not less than 85 percent of the immigration court detained cases are completed within 60 days

An increased number of immigration judges will help the DOJ Executive Office for Immigration Review keep
up with the workload created by increased enforcement against criminal aliens by the DHS, so that the
immigration courts can continue to complete at least 85 percent of detained cases within 60 days.

    o	 Status: The Department was unable to meet its targeted increase of immigration judges due to the
        Department-wide hiring freeze and the FY 2011 enacted funding level, which was $19 million less
        than the FY 2011 President’s Budget request; $11 million of that reduction would have funded 21
        additional immigration judges. The Department did, however, complete 88 percent of detained
        immigration court cases within 60 days, surpassing its target.

Priority Goal 5, Public Safety: Support 7,200 additional police officers by FY 2012 via Office of
Community Oriented Policing Services (COPS) Hiring Programs to promote community policing
strategies that are evidence-based

The Department’s COPS Office goal is to support 7,200 additional police officers by FY 2012 via COPS
Office Hiring Programs to promote community policing strategies that are evidence-based. This Priority Goal
also addresses efforts to enhance the ability of the officers funded (or redeployed veterans) to use community
policing strategies that are evidenced based.

    o	 Status: The Department supported 7,115 officers via COPS Office Hiring Programs through the
        fourth quarter of FY 2011, narrowly missing its target of 7,200 by barely more than one percent. The
        target of 7,200 was based in part on estimated cost of living adjustments (COLAs). The COLA costs
        in FY 2010 and FY 2011 were greater than anticipated, reducing available resources to support
        additional officers. The FY 2011 enacted funding level was less than anticipated. While significant
        progress toward this Priority Goal was made, the goal was not achieved by the end of FY 2011. The
        COPS Office anticipates achievement of this goal during FY 2012.




                                                  - 19 -
Priority Goal 6, Civil Rights: Increase the number of people favorably impacted by the resolution of
civil rights cases and matters:
 By the end of 2011 increase the criminal civil rights caseload by 18 percent with 80 percent of cases
    favorably resolved
 By the end of 2011 increase the non-criminal civil rights caseload by 28 percent, with 80 percent of
    cases favorably resolved
 By the end of 2011 increase the number of complaints finalized by mediation by 10 percent, with 75
    percent of mediation complaints successfully resolved

Some of our nation’s most critical and treasured laws are those that advance equal justice and secure equal
opportunity. It is the mission of the Civil Rights Division to make sure those laws continue to fulfill their
purpose – namely, to protect the rights of all individuals so that equal opportunity can be a reality for everyone
across the nation. We are focusing our efforts on matters with a broader impact, which will allow us to better
leverage our existing tools and use our laws to their fullest extent, while taking on more complex
investigations and cases that are more resource intensive. This will ultimately result in relief to more people
and expand the reach of the Division in its critical protection of the rights of all Americans.
    o	 Status: The Department met or surpassed all of its targets for this Priority Goal, with one exception –
       the FY 2011 goal to increase the criminal civil rights caseload by 18 percent. The impact of the
       Department-wide hiring freeze and reduced funding limited the Civil Rights Division’s ability to staff
       the criminal program fully. The Criminal Section of CRT was down between seven and nine attorney
       staff and was not able to fill those vacancies. The Criminal Section was therefore unable to continue
       breaking records in the number of criminal civil rights cases brought for a third straight year.




                                                       - 20 -
                    Analysis of Systems, Controls, and Legal Compliance 

Internal Control Program in the Department of Justice

The objective of the Department of Justice’s internal control program is to provide reasonable assurance that
operations are effective, efficient, and comply with applicable laws and regulations; financial reporting is
reliable; and assets are safeguarded against waste, loss, and unauthorized use. The Department identifies
issues of concern through a strong network of oversight councils and internal review teams. These include
the Department’s Senior Assessment Team, the Justice Management Division’s Internal Review and
Evaluation Office and Quality Control and Compliance Group, and Departmental component internal review
teams. The Department also considers reports by the Office of the Inspector General (OIG) in its evaluation
of internal control.

The Department’s internal control continues to improve through the corrective actions implemented by
senior management. The Department’s commitment to management excellence, accountability, and
compliance with applicable laws and regulations is evidenced in our continuing actions to establish effective
controls, make sound determinations on corrective actions, and verify and validate the results. This
commitment is further evidenced by the many control improvements and actions taken by Departmental
management in response to new legislation, OMB initiatives, and OIG recommendations. For example, in
FY 2011, the Department implemented a top-down approach to assess the risk of significant improper
payments across the Department’s mission-aligned programs as required by the Improper Payments
Elimination and Recovery Act of 2010 (IPERA or Act) and the OMB April 2011 implementing guidance,
Appendix C of OMB Circular A-123, Requirements for Effective Measurement and Remediation of Improper
Payments. The Department also expanded the scope of its payment recapture audits to contracts, grants, and
benefit and other payments as required by the Act and implementing guidance. The Department’s enhanced
improper payments internal control framework leverages and builds on existing controls within the
Department, such as the annual assessment of internal control for Appendix A of OMB Circular A-123,
Internal Control over Financial Reporting, and promotes consistency across the Department in implementing
the Act. Details on additional actions taken by Departmental management to implement the IPERA are
provided later in this section and in Appendix A.

Departmental management continued in FY 2011 to further strengthen and maximize the effectiveness of its
annual assessment of internal control over financial reporting. Examples of such actions include:

       refining the assessment framework,

       enhancing the oversight process to ensure prompt implementation of corrective actions,

       providing direct assistance to components with previously identified reportable conditions, and

       continuing to support and commit resources to Departmental component internal review programs.

Details on additional actions taken by Departmental management to build and sustain a strong internal control
program are provided later in this section.




                                                 - 21 -
                                        Management Assurances 

Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA or Integrity Act) provides the statutory basis for
management’s responsibility for and assessment of internal accounting and administrative controls. Such controls
include program, operational, and administrative areas, as well as accounting and financial management. The
Integrity Act requires federal agencies to establish controls that reasonably ensure obligations and costs are in
compliance with applicable law; funds, property, and other assets are safeguarded against waste, loss, unauthorized
use, or misappropriation; and revenues and expenditures are properly recorded and accounted for to maintain
accountability over the assets. The Integrity Act also requires agencies to annually assess and report on the internal
controls that protect the integrity of federal programs (FMFIA § 2) and whether financial management systems
conform to related requirements (FMFIA § 4).
Guidance for implementing the Integrity Act is provided through OMB Circular A-123, Management’s
Responsibility for Internal Control. In addition to requiring agencies to provide an assurance statement on the
effectiveness of programmatic internal controls and conformance with financial system requirements, the Circular
requires agencies to provide an assurance statement on the effectiveness of internal control over financial reporting.
FMFIA Assurance Statement
Department of Justice management is responsible for establishing and maintaining effective internal controls and
financial management systems that meet the objectives of the FMFIA. In accordance with OMB Circular A-123,
the Department conducted its annual assessment of the effectiveness of internal controls to support effective and
efficient programmatic operations, reliable financial reporting, and compliance with applicable laws and regulations
(FMFIA § 2). The Department also assessed whether its financial management systems conform to financial system
requirements (FMFIA § 4). Based on the results of the assessments, the Department can provide qualified
assurance that its internal controls and financial management systems meet the objectives of the FMFIA. The
assessment of systems did not identify any non-conformances required to be reported under FMFIA § 4; however,
the assessment of internal controls identified one programmatic material weakness required to be reported under
FMFIA § 2. This weakness involves the need to reduce the Federal Bureau of Prisons (BOP) crowding rate,
currently at 39 percent over the rated capacity. Details of the weakness are provided in the section Summary of
Material Weakness and Corrective Actions. Other than the exception noted, the internal controls were operating
effectively as of September 30, 2011, and the assessment found no other material weaknesses in the design or
operation of the controls.
In accordance with Appendix A of OMB Circular A-123, the Department conducted its assessment of the
effectiveness of internal control over financial reporting, which included the safeguarding of assets and compliance
with applicable laws and regulations. Based on the results of this assessment, the Department can provide
reasonable assurance that its internal control over financial reporting was operating effectively as of June 30, 2011,
and the assessment found no material weaknesses in the design or operation of the controls.
The Department of Justice is committed to maintaining strong program and financial management as we continue
our mission of fighting terrorism and protecting our communities from crime. We take our program and financial
accountability seriously and are dedicated to ensuring that funds received are expended responsibly and in a
transparent manner. We will continue to strengthen controls in areas where we are aware of concerns identified
through the Department’s internal review activities or by the Office of the Inspector General and Government
Accountability Office. We look forward in FY 2012 to building on our achievements as we continue the important
work of the Department.




Eric H. Holder, Jr.
Attorney General
November 10, 2011




                                                          - 22 -
Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to advance federal
financial management by ensuring that federal financial management systems provide accurate, reliable, and
timely financial management information to the government’s managers. Compliance with the FFMIA
provides the basis for the continuing use of reliable financial management information by program managers,
as well as by the President, Congress, and public. The FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management system requirements,
applicable federal accounting standards, and the application of the U.S. Government Standard General Ledger
at the transaction level. Guidance for implementing the FFMIA is provided through OMB Circular A-127,
Financial Management Systems.

FFMIA Compliance Determination

During FY 2011, the Department assessed its financial management systems for compliance with the FFMIA
and determined that, when taken as a whole, they substantially comply with the FFMIA. This determination
is based on the results of Federal Information Security Management Act of 2002 (FISMA) reviews and testing
performed for OMB Circular A-123, Appendix A. Consideration was also given to issues identified during the
Department’s financial statement audit. A summary of the Department’s compliance with the specific
requirements of the FFMIA is provided at the end of this sub-section.

Financial Management Systems Strategy, Goals, and Framework

The Department’s financial management systems strategy is to replace the three remaining major
non-integrated legacy accounting systems in use in the Department with the single, integrated financial
management system the Department is deploying – the Unified Financial Management System (UFMS).
UFMS delivers standard, core accounting processes, as well as the data needed for effective financial and
budget management. In FYs 2009 through 2011, the Department made measurable progress in implementing
UFMS. In FY 2009, the DEA successfully migrated to UFMS and, importantly, obtained an unqualified audit
opinion on its financial statements produced from UFMS that year and in every year since. As expected, the
DEA project was a large, complex, and difficult migration, but one that helped to lay the foundation for the
migration of the ATF, which occurred in the first quarter of FY 2011, and the migrations of the USMS and
FBI, which are underway and scheduled for completion in FYs 2013 and 2014, respectively. UFMS
implementation goals, such as the migrations of the USMS and FBI, leverage lessons learned from previous
migrations and are based on and aligned with operational risks and requirements unique to each component.

The Department’s UFMS implementation has already enabled components to improve financial and budget
management and realize increased efficiencies. Additional improvements and efficiencies are expected to be
realized as additional components fully migrate to UFMS. For example, UFMS has standardized and
integrated financial processes to more effectively support accounting operations, provide accurate and timely
financial information throughout the year, facilitate preparation of financial statements, and streamline audit
processes.




                                                  - 23 -
Summary of Financial Statement Audit and Management Assurances

The following two tables summarize the results of the Department’s financial statement audit and management
assurances regarding the effectiveness of internal control over programmatic operations and financial reporting
(FMFIA § 2), conformance with financial management system requirements (FMFIA § 4), and compliance
with the FFMIA.


                             Table 3. Summary of Financial Statement Audit

 Financial Statement Audit Opinion and Material Weaknesses

 Audit Opinion                 Unqualified

 Restatement                   No
                                    Beginning                                                       Ending 
    Material Weaknesses
                                     Balance        New            Resolved      Consolidated       Balance 

 None                                   0            0                0               0                0

 Total Material Weaknesses              0            0                0               0                0




                                                      - 24 -
                             Table 4. Summary of Management Assurances

Effectiveness of Internal Control over Programmatic Operations (FMFIA § 2)

Statement of Assurance         Qualified
                                Beginning                                                               Ending 
   Material Weaknesses
                                 Balance         New        Resolved      Consolidated    Reassessed    Balance 

Prison Crowding                     1             0            0               0              0           1

Total Material Weaknesses           1             0            0               0              0            1




Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)

Statement of Assurance         Unqualified
                                Beginning                                                               Ending 
   Material Weaknesses
                                 Balance         New        Resolved      Consolidated    Reassessed    Balance 

None                                0             0            0               0              0            0

Total Material Weaknesses           0             0            0               0              0            0




Conformance with Financial Management Systems Requirements (FMFIA § 4)

Statement of Assurance         Systems Conform
                                Beginning                                                               Ending 
    Non-conformances
                                 Balance         New        Resolved      Consolidated    Reassessed    Balance 

None                                0             0            0               0              0            0

Total Non-conformances              0             0            0               0              0            0




Compliance with Federal Financial Management Improvement Act (FFMIA)

Overall Substantial                          Agency                                        Auditor 
Compliance
                                                 Yes                                         Yes

                                 Compliance with Specific Requirements

Systems Requirements                                                    Yes

Accounting Standards                                                    Yes

USSGL at Transaction Level                                              Yes




                                                   - 25 -
                  Summary of Material Weakness and Corrective Actions 

A summary of the material weakness identified in the Department’s FY 2011 assessment of the effectiveness
of internal control over programmatic operations (FMFIA § 2) follows, along with details regarding corrective
actions. The associated Corrective Action Plan is provided in Section IV of this document.

           Programmatic Material Weakness and Corrective Actions – Prison Crowding 

As of September 30, 2011, the inmate population housed in BOP-operated institutions exceeded the
rated housing capacity by 39 percent. The BOP’s Long Range Capacity Plan relies on multiple approaches to
house the increasing federal inmate population, such as contracting with the private sector and state and local
facilities for certain groups of low-security inmates; expanding existing institutions where infrastructure
permits, programmatically appropriate, and cost effective to do so; and acquiring, constructing, and activating
new facilities as funding permits.

To address this material weakness, the BOP will continue implementing its Long Range Capacity Plan,
making enhancements and modifications to the plan, as needed, commensurate with funding received through
enacted budgets. For example, in FY 2011, the BOP modified its Plan because the enacted budget did not
include the funding needed to activate two newly constructed prisons, acquire a new facility, or contract for
the increased use of private sector and state and local facilities for low-security inmates, all three of which
would have increased housing capacity and decreased the prison over-crowding rate. The BOP’s formal
Corrective Action Plan includes utilizing contract facilities; expanding existing institutions; and acquiring,
constructing, and activating new institutions as funding permits. The BOP will continue to validate progress
on construction projects at new and existing facilities through on-site inspections or by reviewing monthly
construction progress reports.

This material weakness was first reported in 2006. Remediation of the weakness through increasing prison
capacity is primarily dependent on funding. Other correctional reforms and alternatives will require policy
and/or statutory changes. Other initiatives notwithstanding, if the acquisition, expansion, construction, and
activation plans detailed in the BOP’s Long Range Capacity Plan are funded as proposed, the over-crowding
rate for FY 2014 is projected to be 43 percent. Without the funding and the BOP’s other mitigating actions,
the projected over-crowding rate would be 50 percent.

The Department’s corrective action efforts are not limited to the BOP alone. The Department continues to
consider and implement an array of crime prevention, sentencing, and corrections management improvements
that focus on accountability and rehabilitation, while protecting public safety. The Department recognizes that
the BOP’s capacity management efforts must be teamed with targeted programs that are proven to reduce
recidivism and promote effective re-entry. The BOP will continue to work with the Department on these
programs.




                                                      - 26 -
                 Improper Payments Elimination and Recovery Act of 2010 

The Department recognizes the importance of maintaining adequate internal controls to ensure proper
payments and is committed to the continuous improvement of the overall disbursement management process.
A summary of actions taken by Departmental management in FY 2011 to implement the Improper Payments
Elimination and Recovery Act (IPERA) follow. Additional details, as well as the Department’s submission
of the required improper payments reporting, are provided in Appendix A of this document.

                                               Risk Assessment 

The IPERA and OMB April 2011 implementing guidance, OMB Circular A-123, Appendix C, Requirements
for Effective Measurement and Remediation of Improper Payments, require agencies to review all programs
and activities they administer to identify those that are susceptible to significant improper payments. The
IPERA defines significant improper payments as gross annual improper payments (i.e., the total amount of
overpayments plus underpayments) in a program exceeding (1) both 2.5 percent of program outlays and
$10 million of all program or activity payments made during the fiscal year reported or (2) $100 million,
regardless of the improper payment percentage of total program outlays.

In FY 2011, the Department updated its top-down approach for assessing the risk of significant improper
payments to allow the reporting of results by the Department’s five mission-aligned programs –
Law Enforcement; Litigation; Prison and Detention; State, Local, Tribal, and Other Assistance; and
Administrative, Technology, and Other.

In accordance with the IPERA and OMB implementing guidance, the Department assessed its programs and
activities for susceptibility to significant improper payments. Based on the results of the risk assessment for
the period ending September 30, 2011, the Department concluded there were no programs susceptible to
significant improper payments, i.e., improper payments exceeding the IPERA thresholds of both 2.5 percent of
program outlays and $10 million, or $100 million.

                                         Payment Recapture Audits 

The IPERA and OMB implementing guidance require agencies to conduct payment recapture audits (also
known as recovery audits) for each program and activity that expends $1 million or more annually – including
contracts, grants, and benefit payments – if conducting such audits would be cost-effective. Previously,
payment recapture audits were only required for agencies that entered into contracts with a total value in
excess of $500 million in a fiscal year, and for certain other programs that were not applicable to the
Department. The OMB implementing guidance also requires agencies to establish annual targets for their
payment recapture audit programs – based on the rate of recovery – to drive performance. Agencies have the
discretion to set their own payment recapture targets for review and approval by OMB, but agencies are to
strive to achieve annual recapture targets of at least 85 percent within three years (with the first reporting year
being FY 2011 and the third, FY 2013).

In FY 2011, the Department expanded the scope of its payment recapture audits to contracts, grants, and
benefit and other payments as required by the IPERA and OMB implementing guidance. The Department also
established annual payment recapture targets through FY 2014 to drive performance.

In accordance with the IPERA and OMB implementing guidance, the Department measured payment
recapture performance under the expanded scope of its payment recapture audits. Based on performance for
the period ending September 30, 2011, the Department achieved an overall improper payment recovery rate of




                                                   - 27 -
86 percent – 1 percent better than the OMB target rate of 85 percent that agencies are to strive to achieve by
FY 2013.

    Possible Effects of Existing, Currently Known Demands, Risks, Uncertainties, 
                            Events, Conditions, and Trends 

The Department’s leadership is committed to ensuring its programs and activities will continue to be focused
on meeting the dynamic demands of the changing legal, economic, and technological environments of the
future.

James Zadroga 9/11 Health and Compensation Act of 2010

    	 Potential increase in DOJ workload resulting from the James Zadroga 9/11 Health and Compensation
       Act of 2010. The Act provides compensation to any individual (or personal representative of a
       deceased individual) who suffered physical harm as a result of the terror-related aircraft crashes of
       September 11, 2001, or the debris removal efforts that took place in the immediate aftermath. The
       Department could see a high volume of claims in the near future, FY 2012-2013.

Immigration Enforcement

    	 As the Department of Homeland Security hires additional border patrol agents, the number of illegal
       immigrant and criminal smugglers detained for attempting to cross the border will undoubtedly
       increase. Increased apprehension will in turn require increased Department resources to account for
       the additional detainees. EOIR in particular would require additional immigration judges to keep pace
       with the increased caseload, area U.S. Attorneys’ offices could also see increased prosecution
       caseloads, and the Civil Division could see an increase in appeals of removal decisions.

Technology
    Advances in high-speed telecommunications, computers, and other technologies are creating new
      opportunities for criminals, new classes of crimes, and new challenges for law enforcement.
    Growing dependence on technology is creating an increasing vulnerability to illegal acts, especially
      white collar crime and terrorism.

Economy
    Amount of regulation and the pace of economic growth and globalization are changing the volume and
     nature of anti-competitive behavior.
    The interconnected nature of the world’s economy is increasing opportunities for criminal activity,
     including money laundering, white collar crime, and alien smuggling, as well as the complexity and
     scope of civil justice matters.

Government
   Changes in the fiscal posture or policies of state and local governments could have dramatic effects on
      their capacity to remain effective law enforcement partners, e.g., the ability and willingness of these
      governments to allow federal use of their jail space affects achievement of detention goals.

Globalization
    Issues of criminal and civil justice increasingly transcend national boundaries, requiring the
       cooperation of foreign governments and involving treaty obligations, multinational environment and
       trade agreements, and other foreign policy concerns.




                                                       - 28 -
Social-Demographic
    The numbers of adolescents and young adults, now the most crime-prone segment of the population,
       are expected to grow rapidly over the next several years.

American Recovery and Reinvestment Act
   The Department received $4.0 billion in funding for programs, under the American Recovery and
      Reinvestment Act of 2009. In addition, $2.0 million was provided for the Department’s Office of the
      Inspector General oversight activities related to Recovery Act funding. The Department is fully
      committed to ensuring that the funds received are expended responsibly and in a transparent manner to
      further job creation, economic recovery, and other purposes of the Act.
   Additional information regarding the Department’s Recovery Act activities can be found on:
      http://www.justice.gov/recovery/; government-wide Recovery Act information can also be found on:
      http://www.recovery.gov/Pages/home.aspx.

    	 The following table summarizes appropriations, obligations, and outlays by component, as of 

       September 30, 2011: 


                                          (Dollars in Thousands)
Component                    Appropriation Amount            Obligations                       Outlays
OJP                               $2,761,930                $2,761,197                        $2,285,487
OVW                                $225,564                   $223,067                          $162,043
COPS                              $1,002,506                  $996,367                          $422,188
ATF                                  $10,000                     $9,948                           $8,159
OIG                                   $2,000                       $900                             $900
DOJ Total                         $4,002,000                $3,991,479                        $2,878,777

Unpredictable
   Overseas Contingency Operations require continual adjustments to new conditions. The Department
      is determined to proactively confront new challenges in its efforts to protect the Nation.
   Responses to unanticipated natural disasters and their aftermath require the Department to divert
      resources to deter, investigate, and prosecute disaster-related federal crimes, such as charity fraud,
      insurance fraud and other crimes.
   Changes in federal laws may affect responsibilities and workload.
   Much of the litigation caseload is defensive. The Department has little control over the number, size,
      and complexity of the civil lawsuits it must defend.

                             Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations
of the Department of Justice, pursuant to the requirements of 31 U.S.C. § 3515(b).

While the statements have been prepared from the books and records of the Department in accordance with
U.S. generally accepted accounting principles for federal entities and the formats prescribed by the OMB, the
statements are in addition to the financial reports used to monitor and control budgetary resources, which are
prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States
Government, a sovereign entity.




                                                  - 29 -
This page intentionally left blank.




                                      - 30 -
Independent Auditors’ Reports





          - 31 -
This page intentionally left blank.





               - 32 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Acting Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice
(Department) as of September 30, 2011 and 2010, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of the Department’s management. Our
responsibility is to express an opinion on these consolidated financial statements based on our audits. We
did not audit the financial statements of the following components of the Department: the U.S. Marshals
Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF), which statements reflect total assets of $2.1 billion and $2.4 billion, and total net
costs of $2.8 billion and $2.8 billion, as of and for the years ended September 30, 2011 and 2010,
respectively. Those financial statements were audited by other auditors whose reports have been furnished
to us, and our opinion, insofar as it relates to the amounts included for those components, is based solely on
the reports of the other auditors.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the Department’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits and the reports of the other auditors provide a reasonable basis for our opinion.

In our opinion, based on our audits and the reports of the other auditors, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the
U.S. Department of Justice as of September 30, 2011 and 2010, and its net costs, changes in net position,
budgetary resources, and custodial activity for the years then ended in conformity with U.S. generally
accepted accounting principles.



                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.


                                                           - 33 -
Independent Auditors’ Report on Financial Statements
Page 2




The information in the Management’s Discussion and Analysis and Required Supplementary Stewardship
Information sections is not a required part of the consolidated financial statements, but is supplementary
information required by U.S. generally accepted accounting principles. We and the other auditors have
applied certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we and the other auditors did not
audit this information and, accordingly, we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The consolidating and combining information in the Consolidating and Combining
Financial Statements section is presented for purposes of additional analysis of the consolidated financial
statements rather than to present the financial position, net costs, changes in net position, budgetary
resources, and custodial activity of the Department’s components individually. The consolidating and
combining information has been subjected to the auditing procedures applied by us and the other auditors
in the audits of the consolidated financial statements and, in our opinion, based on our audits and the
reports of the other auditors, is fairly stated, in all material respects, in relation to the consolidated financial
statements taken as a whole.

In accordance with Government Auditing Standards, we have also issued our reports dated November 10,
2011, on our consideration of the Department’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 10, 2011




                                                  - 34 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Acting Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice (Department) as of
September 30, 2011 and 2010, and the related consolidated statements of net cost and changes in net
position and the combined statements of budgetary resources and custodial activity (hereinafter referred to
as “consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 10, 2011. We did not audit the financial statements of the following components of the
Department: the U.S. Marshals Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF) as of and for the years ended September 30, 2011
and 2010. Those financial statements were audited by other auditors whose reports have been furnished to
us, and our report, insofar as it relates to the amounts included for those components, is based solely on the
reports of the other auditors.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

As stated above, we did not audit the fiscal year 2011 financial statements of the USMS, FPI, and ATF.
Those financial statements were audited by other auditors whose reports thereon, including the other
auditors’ Independent Auditors’ Report on Internal Control over Financial Reporting, have been furnished
to us. Accordingly, our report on the Department’s internal control over financial reporting, insofar as it
relates to those components, is based solely on the reports and findings of the other auditors.

The Department’s management is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2011 audit, we considered the Department’s internal control
over financial reporting by obtaining an understanding of the Department’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the Department’s internal control over financial reporting. Accordingly, we do not express an opinion on
the effectiveness of the Department’s internal control over financial reporting. We did not test all internal




                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.


                                                           - 35 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
fourth paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

Exhibit I presents the status of the prior year’s finding and recommendations.

We noted certain additional matters that we have reported to management of the Department in a separate
letter dated November 10, 2011.

This report is intended solely for the information and use of the management of the U.S. Department of
Justice, the U.S. Department of Justice Office of the Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 10, 2011




                                                - 36 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3

                                                                                                                     EXHIBIT I


                    STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States, and
by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we have
reviewed the status of the prior year’s finding and recommendations. The following table provides our
assessment of the progress the Department has made in correcting the previously identified significant
deficiency. We also provide the Office of the Inspector General report number where the deficiency was
reported, our recommendations for improvement, and the status of the recommendations as of the end of fiscal
year 2011:

                      Significant
      Report                                                       Recommendation                                      Status
                      Deficiency
    Annual        Improvements are         Recommendation No. 1: Monitor the corrective actions                     Completed1
    Financial     needed in the            taken by the USMS to improve the condition of its funds
    Statements    components’              management controls, in response to the specific
    Fiscal Year   internal controls to     recommendations made in the component auditor’s
    2010          provide reasonable       Independent Auditors’ Report on Internal Control over
    Report        assurance that           Financial Reporting issued in connection with the audit
    No. 11-03     transactions are         of the USMS’s financial statements as of and for the year
                  properly recorded,       ended September 30, 2010.
                  processed, and           Recommendation No. 2: Assess the adequacy of the                         Completed1
                  summarized to            Department’s accounting, internal control, and financial
                  permit the               reporting policies in the areas of: (1) seized and forfeited
                  preparation of           property and (2) undelivered orders and accounts
                  financial                payable. Based on the results of this assessment,
                  statements in            determine the need to issue new guidance and/or reiterate
                  accordance with          to the AFF and ATF the existing policies for those areas
                  U.S. generally           in which the components’ auditors identified significant
                  accepted                 deficiencies related to the recording of transactions and
                  accounting               the preparation of financial statements in accordance with
                  principles               U.S. generally accepted accounting principles. Monitor
                                           the AFF’s and ATF’s adherence to the Department’s
                                           accounting and financial reporting policies and
                                           procedures throughout the year.
                                           Recommendation No. 3: Continue efforts to implement                      Completed1
                                           a Department-wide integrated financial management
                                           system that is in compliance with the United States
                                           Government Standard General Ledger, conforms to the
                                           financial management systems requirements established
                                           by the Financial Systems Integration Office (formerly the
                                           Joint Financial Management Improvement Program), and
                                           can accommodate the requirements of applicable Federal
                                           accounting standards.


1
  Sufficient progress has been made in addressing this finding and the related recommendation such that the remaining risk of
misstatement no longer merits the attention by those charged with governance. Therefore, the condition has been downgraded to a
deficiency in internal control.




                                                          - 37 -
This page intentionally left blank.





               - 38 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




                   Independent Auditors’ Report on Compliance and Other Matters


Acting Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice (Department) as of
September 30, 2011 and 2010, and the related consolidated statements of net cost and changes in net
position and the combined statements of budgetary resources and custodial activity (hereinafter referred to
as the “consolidated financial statements”) for the years then ended, and have issued our report thereon
dated November 10, 2011. We did not audit the financial statements of the following components of the
Department: the U.S. Marshals Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF) as of and for the years ended September 30, 2011
and 2010. Those financial statements were audited by other auditors whose reports have been furnished to
us, and our report, insofar as it relates to the amounts included for those components, is based solely on the
reports of the other auditors.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

As stated above, we did not audit the fiscal year 2011 financial statements of the USMS, FPI, and ATF.
Those financial statements were audited by other auditors whose reports thereon, including the other
auditors’ Independent Auditors’ Reports on Compliance and Other Matters, have been furnished to us.
Accordingly, our report on the Department’s compliance and other matters, insofar as it relates to those
components, is based solely on the reports and findings of the other auditors.

The management of the Department is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to the Department. As part of obtaining reasonable assurance about whether
the Department’s fiscal year 2011 consolidated financial statements are free of material misstatement, we
and the other auditors performed tests of the Department’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in
Section 803(a) of the Federal Financial Management Improvement Act of 1996 (FFMIA). We and the
other auditors limited our tests of compliance to the provisions described in the preceding sentence, and we
did not test compliance with all laws, regulations, contracts, and grant agreements applicable to the


                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.

                                                           - 39 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2




Department. However, providing an opinion on compliance with those provisions was not an objective of
our audit, and accordingly, we do not express such an opinion.

The results of our and the other auditors’ tests of compliance described in the preceding paragraph,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our and the other auditors’ tests of FFMIA disclosed no instances in which the Department’s
financial management systems did not substantially comply with the (1) Federal financial management
system requirements, (2) applicable Federal accounting standards, and (3) application of the United States
Government Standard General Ledger at the transaction level.

This report is intended solely for the information and use of the management of the U.S. Department of
Justice, the U.S. Department of Justice Office of the Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 10, 2011




                                             - 40 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 41 -
                                                    U. S. Department of Justice

                                                   Consolidated Balance Sheets

                                                As of September 30, 2011 and 2010


Dollars in Thousands                                                                                           2011             2010

ASSETS (Note 2)
      Intragovernmental
          Fund Balance with U.S. Treasury (Note 3)                                            $         23,354,452    $   23,596,587
          Investments, Net (Note 5)                                                                      6,919,799         4,061,733
          Accounts Receivable, Net (Note 6)                                                                380,431           302,310
          Other Assets (Note 10)                                                                           115,103           122,664
      Total Intragovernmental                                                                           30,769,785        28,083,294

      Cash and Monetary Assets (Note 4)                                                                    250,253           245,283
      Accounts Receivable, Net (Note 6)                                                                    125,898            87,260
      Inventory and Related Property, Net (Note 7)                                                         170,889           237,347
      Forfeited Property, Net (Note 8)                                                                     172,746           189,122
      General Property, Plant and Equipment, Net (Note 9)                                               10,217,770         9,741,154
      Advances and Prepayments                                                                           1,079,767         1,501,404
      Other Assets (Note 10)                                                                                 5,982             5,826
Total Assets                                                                                  $         42,793,090    $   40,090,690

LIABILITIES (Note 11)
      Intragovernmental
          Accounts Payable                                                                    $            366,027    $      273,619
          Accrued Federal Employees' Compensation Act Liabilities                                          250,625           243,446
          Custodial Liabilities (Note 21)                                                                  605,009           331,172
          Other Liabilities (Note 15)                                                                      389,522           951,367
      Total Intragovernmental                                                                            1,611,183         1,799,604

      Accounts Payable                                                                                   2,504,820         2,520,022
      Accrued Grant Liabilities                                                                            614,419           530,823
      Actuarial Federal Employees' Compensation Act Liabilities                                          1,359,360         1,314,105
      Accrued Payroll and Benefits                                                                         644,502           594,981
      Accrued Annual and Compensatory Leave Liabilities                                                    831,783           826,881
      Environmental and Disposal Liabilities (Note 12)                                                      72,709            71,657
      Deferred Revenue                                                                                     533,427           502,119
      Seized Cash and Monetary Instruments (Note 14)                                                     4,063,738         1,470,383
      Contingent Liabilities (Note 16)                                                                      68,652           101,760
      Capital Lease Liabilities (Note 13)                                                                   25,141            33,649
      Radiation Exposure Compensation Act Liabilities                                                      535,838           541,784
      Other Liabilities (Note 15)                                                                          403,905           267,369
Total Liabilities                                                                             $         13,269,477    $   10,575,137

NET POSITION
      Unexpended Appropriations - Earmarked Funds (Note 17)                                   $             21,727    $       19,585
      Unexpended Appropriations - All Other Funds                                                       11,952,581        13,791,272
      Cumulative Results of Operations - Earmarked Funds (Note 17)                                       9,066,816         7,636,045
      Cumulative Results of Operations - All Other Funds                                                 8,482,489         8,068,651
Total Net Position                                                                            $         29,523,613    $   29,515,553

Total Liabilities and Net Position                                                            $         42,793,090    $   40,090,690




                                  The accompanying notes are an integral part of these financial statements.




                                                                  - 42 -
                                                   U. S. Department of Justice

                                              Consolidated Statements of Net Cost

                                    For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands

                                       Gross Costs                                     Less: Earned Revenues                     Net Cost of
                       Intra-           With the                             Intra-          With the                            Operations
           FY      governmental           Public             Total       governmental          Public               Total           (Note 18)



Goal 1    2011     $ 1,486,363        $    4,239,731    $    5,726,094   $     446,831     $       37,178       $    484,009    $    5,242,085
          2010     $ 1,358,260        $    4,187,272    $    5,545,532   $     474,421     $       32,042       $    506,463    $    5,039,069



Goal 2    2011         3,663,829          13,563,302        17,227,131         758,583            789,114           1,547,697       15,679,434
          2010         3,464,016          13,201,427        16,665,443         751,806            736,287           1,488,093       15,177,350



Goal 3    2011         2,328,468          10,685,190        13,013,658         777,487            522,584           1,300,071       11,713,587
          2010         2,113,376          10,436,797        12,550,173         801,044            480,246           1,281,290       11,268,883



Total     2011     $ 7,478,660        $ 28,488,223      $ 35,966,883     $    1,982,901    $    1,348,876       $   3,331,777   $ 32,635,106
          2010     $ 6,935,652        $ 27,825,496      $ 34,761,148     $    2,027,271    $    1,248,575       $   3,275,846   $ 31,485,302



Goal 1: Prevent Terrorism and Promote the Nation's Security
Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
Goal 3: Ensure the Fair and Efficient Administration of Justice




                                   The accompanying notes are an integral part of these financial statements.




                                                                     - 43 -
                                                    U. S. Department of Justice

                                         Consolidated Statements of Changes in Net Position

                                           For the Fiscal Year Ended September 30, 2011


Dollars in Thousands

                                                                                                  2011
                                                        Earmarked                  All Other
                                                          Funds                     Funds                    Eliminations           Total
Unexpended Appropriations
  Beginning Balances                                $            19,585      $          13,791,272       $                  -   $     13,810,857

  Budgetary Financing Sources
     Appropriations Received                                     71,746                 27,408,088                          -         27,479,834
     Appropriations Transferred-In/Out                                -                    400,839                          -            400,839
     Other Adjustments                                             (326)                  (105,930)                         -           (106,256)
     Appropriations Used                                        (69,278)               (29,541,688)                         -        (29,610,966)

  Total Budgetary Financing Sources                               2,142                  (1,838,691)                        -         (1,836,549)

  Unexpended Appropriations                         $            21,727      $          11,952,581       $                  -   $     11,974,308



Cumulative Results of Operations
  Beginning Balances                                $         7,636,045      $           8,068,651       $                  -   $     15,704,696

  Budgetary Financing Sources
     Other Adjustments                                                -                    (26,000)                         -            (26,000)
     Appropriations Used                                         69,278                 29,541,688                          -         29,610,966
     Nonexchange Revenues                                     2,003,887                        508                          -          2,004,395
     Donations and Forfeitures of Cash and
        Cash Equivalents                                      1,580,584                          -                          -          1,580,584
     Transfers-In/Out Without Reimbursement                           -                    113,735                          -            113,735

  Other Financing Sources
     Donations and Forfeitures of Property                      157,381                         226                         -           157,607
     Transfers-In/Out Without Reimbursement                      (6,192)                     50,748                         -            44,556
     Imputed Financing from Costs Absorbed
        by Others (Note 19)                                      16,069                  1,007,880                 (25,464)              998,485
     Other Financing Sources                                          -                     (4,613)                      -                (4,613)
  Total Financing Sources                                     3,821,007                 30,684,172                 (25,464)           34,479,715

  Net Cost of Operations                                     (2,390,236)               (30,270,334)                 25,464           (32,635,106)

  Net Change                                                  1,430,771                    413,838                          -          1,844,609

  Cumulative Results of Operations                  $         9,066,816      $           8,482,489       $                  -   $     17,549,305

Net Position                                        $         9,088,543      $          20,435,070       $                  -   $     29,523,613




                                    The accompanying notes are an integral part of these financial statements.




                                                                   - 44 -
                                                    U. S. Department of Justice

                                         Consolidated Statements of Changes in Net Position

                                           For the Fiscal Year Ended September 30, 2010


Dollars in Thousands

                                                                                                  2010
                                                        Earmarked                  All Other
                                                          Funds                     Funds                    Eliminations           Total
Unexpended Appropriations
  Beginning Balances                                $            22,207      $          13,902,525       $                  -   $     13,924,732

  Budgetary Financing Sources
     Appropriations Received                                     90,312                 28,251,841                          -         28,342,153
     Appropriations Transferred-In/Out                                -                    510,516                          -            510,516
     Other Adjustments                                           (9,001)                  (144,750)                         -           (153,751)
     Appropriations Used                                        (83,933)               (28,728,860)                         -        (28,812,793)

  Total Budgetary Financing Sources                               (2,622)                 (111,253)                         -           (113,875)

  Unexpended Appropriations                         $            19,585      $          13,791,272       $                  -   $     13,810,857

Cumulative Results of Operations
  Beginning Balances                                $         5,631,023      $           7,828,974       $                  -   $     13,459,997

  Budgetary Financing Sources
     Appropriations Used                                         83,933                 28,728,860                          -         28,812,793
     Nonexchange Revenues                                     2,366,521                        932                          -          2,367,453
     Donations and Forfeitures of Cash and
        Cash Equivalents                                      1,502,466                           -                         -          1,502,466
     Transfers-In/Out Without Reimbursement                           -                      75,097                         -             75,097

  Other Financing Sources
     Donations and Forfeitures of Property                       70,864                         340                         -               71,204
     Transfers-In/Out Without Reimbursement                     (31,173)                     29,284                         -               (1,889)
     Imputed Financing from Costs Absorbed
        by Others (Note 19)                                      12,161                    918,164                 (27,448)             902,877
  Total Financing Sources                                     4,004,772                 29,752,677                 (27,448)           33,730,001

  Net Cost of Operations                                     (1,999,750)               (29,513,000)                 27,448           (31,485,302)

  Net Change                                                  2,005,022                    239,677                          -          2,244,699

  Cumulative Results of Operations                  $         7,636,045      $           8,068,651       $                  -   $     15,704,696

Net Position                                        $         7,655,630      $          21,859,923       $                  -   $     29,515,553




                                    The accompanying notes are an integral part of these financial statements.




                                                                   - 45 -
                                             U. S. Department of Justice

                                   Combined Statements of Budgetary Resources

                              For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                                                 2011              2010

Budgetary Resources

  Unobligated Balance, Net, Brought Forward, October 1                               $          4,039,298    $    4,046,852

  Recoveries of Prior Year Unpaid Obligations                                                     753,442          766,846

  Budget Authority
     Appropriations Received                                                                   36,902,262        32,769,570
     Spending Authority from Offsetting Collections
        Earned
            Collected                                                                           7,056,837         7,071,984
            Change in Receivables from Federal Sources                                             95,361          (133,650)
        Change in Unfilled Customer Orders
            Advance Received                                                                     (138,396)          (46,906)
            Without Advance from Federal Sources                                                  (57,799)          (31,324)
  Subtotal Budget Authority                                                                    43,858,265        39,629,674

  Nonexpenditure Transfers, Net, Anticipated and Actual                                           514,574          585,613

  Temporarily not Available Pursuant to Public Law                                             (6,595,224)       (2,041,625)

  Permanently not Available                                                                      (140,590)         (154,303)

Total Budgetary Resources (Note 20)                                                  $         42,429,765    $   42,833,057

Status of Budgetary Resources

  Obligations Incurred
    Direct                                                                           $         31,840,621    $   32,257,303
    Reimbursable                                                                                6,706,821         6,536,456
        Total Obligations Incurred (Note 20)                                                   38,547,442        38,793,759

  Unobligated Balance - Available
    Apportioned                                                                                 2,426,008         2,739,193
    Exempt from Apportionment                                                                     211,197           120,016
        Total Unobligated Balance - Available                                                   2,637,205         2,859,209

  Unobligated Balance not Available                                                             1,245,118         1,180,089

Total Status of Budgetary Resources                                                  $         42,429,765    $   42,833,057




                              The accompanying notes are an integral part of these financial statements.




                                                             - 46 -
                                              U. S. Department of Justice

                              Combined Statements of Budgetary Resources - Continued

                               For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                                                   2011             2010

Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
      Unpaid Obligations                                                              $         17,759,329     $   17,646,368
      Less: Uncollected Customer Payments from Federal Sources                                   1,753,098          1,918,071
          Total Unpaid Obligated Balance, Net - Brought Forward, October 1                      16,006,231         15,728,297

   Obligations Incurred                                                                         38,547,442         38,793,759

   Less: Gross Outlays                                                                          38,876,674         37,913,953

   Less: Recoveries of Prior Year Unpaid Obligations, Actual                                       753,442           766,846

   Change in Uncollected Customer Payments from Federal Sources                                     (37,562)         164,974

   Obligated Balance, Net - End of Period
      Unpaid Obligations                                                                        16,676,654         17,759,329
      Less: Uncollected Customer Payments from Federal Sources                                   1,790,659          1,753,098
          Total Unpaid Obligated Balance, Net - End of Period                         $         14,885,995     $   16,006,231


Net Outlays
   Gross Outlays                                                                      $         38,876,674     $   37,913,953
   Less: Offsetting Collections                                                                  6,918,445          7,025,077
   Less: Distributed Offsetting Receipts (Note 20)                                               1,025,644            941,368
Total Net Outlays (Note 20)                                                           $         30,932,585     $   29,947,508




                               The accompanying notes are an integral part of these financial statements.




                                                               - 47 -
                                                  U. S. Department of Justice

                                          Combined Statements of Custodial Activity

                                   For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                                                                  2011              2010

Revenue Activity
Sources of Cash Collections
    Delinquent Federal Civil Debts as Required by the Federal
        Debt Recovery Act of 1986                                                                      $        5,222,083     $   4,789,655
    Fees and Licenses                                                                                              32,437            28,985
    Fines, Penalties and Restitution Payments - Civil                                                              82,288             5,985
    Fines, Penalties and Restitution Payments - Criminal                                                           38,350            33,048
    Miscellaneous                                                                                                   3,951               704
        Total Cash Collections                                                                                  5,379,109         4,858,377
Accrual Adjustments                                                                                                 3,643               271
Total Custodial Revenue                                                                                         5,382,752         4,858,648

Disposition of Collections
    Transferred to Federal Agencies
         U.S. Department of Agriculture                                                                            (96,346)          (84,620)
         U.S. Department of Commerce                                                                                (5,103)           (1,725)
         U.S. Department of the Interior                                                                           (29,959)         (283,244)
         U.S. Department of Justice                                                                                (81,181)          (24,865)
         U.S. Department of Labor                                                                                     (736)           (3,537)
         U.S. Postal Service                                                                                        (4,362)           (6,762)
         U.S. Department of State                                                                                   (8,535)             (199)
         U.S. Department of the Treasury                                                                          (249,184)         (606,978)
         Office of Personnel Management                                                                            (58,144)          (46,636)
         Federal Communications Commission                                                                         (14,727)           (2,693)
         Social Security Administration                                                                             (2,726)           (3,558)
         Smithsonian Institution                                                                                      (190)             (209)
         U.S. Department of Veterans Affairs                                                                       (28,703)          (35,068)
         General Services Administration                                                                           (88,447)           (4,008)
         Securities and Exchange Commission                                                                             (3)               (2)
         Federal Deposit Insurance Corporation                                                                         (71)              (42)
         Railroad Retirement Board                                                                                    (100)             (143)
         Environmental Protection Agency                                                                          (341,267)         (720,010)
         U.S. Department of Transportation                                                                          (7,236)             (765)
         U.S. Department of Homeland Security                                                                      (66,843)          (30,872)
         Agency for International Development                                                                      (22,233)           (2,155)
         Small Business Administration                                                                             (10,447)           (5,360)
         U.S. Department of Health and Human Services                                                           (2,001,923)       (1,528,861)
         National Aeronautics and Space Administration                                                              (3,792)           (2,859)
         Export-Import Bank of the United States                                                                   (24,643)           (4,704)
         U.S. Department of Housing and Urban Development                                                          (11,099)          (25,985)
         U.S. Department of Energy                                                                                  (2,093)           (2,281)
         U.S. Department of Education                                                                              (55,431)          (63,002)
         Independent Agencies                                                                                      (67,264)          (54,493)
         Treasury General Fund                                                                                    (618,814)         (485,769)
         U.S. Department of Defense                                                                               (173,894)         (112,640)
    Transferred to the Public                                                                                     (516,597)         (391,304)
    (Increase)/Decrease in Amounts Yet to be Transferred                                                          (307,947)         (210,508)
    Refunds and Other Payments                                                                                    (364,644)          (11,016)
    Retained by the Reporting Entity                                                                              (118,068)         (101,775)
Net Custodial Activity (Note 21)                                                                       $                 -    $            -




                                   The accompanying notes are an integral part of these financial statements.




                                                                  - 48 -
                FY 2011 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

       The Department of Justice (Department) has a wide range of responsibilities which include: detecting,
       apprehending, prosecuting, and incarcerating criminal offenders; operating federal prison factories;
       upholding the civil rights of all Americans; enforcing laws to protect the environment; ensuring
       healthy competition of business in the United States’ free enterprise system; safeguarding the
       consumer from fraudulent activity; carrying out the immigration laws of the United States; and
       representing the American people in all legal matters involving the U.S. Government. Under the
       direction of the Attorney General, these responsibilities are discharged by the components of the
       Department.

       For purposes of these consolidated/combined financial statements, the following components comprise
       the Department’s reporting entity:

              Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF)
              Offices, Boards and Divisions (OBDs)
              U.S. Marshals Service (USMS)
              Office of Justice Programs (OJP)
              Drug Enforcement Administration (DEA)
              Federal Bureau of Investigation (FBI)
              Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
              Bureau of Prisons (BOP)
              Federal Prison Industries, Inc. (FPI)

       The American Recovery and Reinvestment Act of 2009 (ARRA) (Public Law 111-5) was signed into
       law by President Obama on February 17, 2009. As one of its many elements, the Recovery Act
       provides the Department with funding for grants to assist state, local, and tribal law enforcement
       (including support for hiring), to combat violence against women, to fight internet crimes against
       children, to improve the functioning of the criminal justice system, to assist victims of crime, and to
       support youth mentoring.




                              These notes are an integral part of the financial statements.




                                                    - 49 -
              FY 2011 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

B.   Basis of Presentation

     These financial statements have been prepared from the books and records of the Department in
     accordance with United States generally accepted accounting principles issued by the Federal Accounting
     Standards Advisory Board (FASAB) and presentation guidelines in the Office of Management and
     Budget (OMB) Circular A-136. These financial statements are different from the financial reports
     prepared pursuant to OMB directives which are used to monitor and control the use of the Department=s
     budgetary resources. The accompanying financial statements include the accounts of all funds under the
     Department’s control. To ensure that the Department financial statements are meaningful at the entity
     level and to enhance reporting consistency within the Department, Other Assets and Other Liabilities as
     defined by OMB Circular A-136 have been disaggregated on the balance sheet. These include Forfeited
     Property, Net; Advances and Prepayments; Accrued Grant Liabilities; Accrued Federal Employees’
     Compensation Act Liabilities; Custodial Liabilities; Accrued Payroll and Benefits; Accrued Annual and
     Compensatory Leave Liabilities; Deferred Revenue; Seized Cash and Monetary Instruments; Contingent
     Liabilities; Capital Lease Liabilities; and Radiation Exposure Compensation Act Liabilities.

C.   Basis of Consolidation

     The consolidated/combined financial statements of the Department include the accounts of the
     AFF/SADF, OBDs, USMS, OJP, DEA, FBI, ATF, BOP, and FPI. All significant proprietary
     intra-departmental transactions and balances have been eliminated in consolidation. The Statements of
     Budgetary Resources and Statements of Custodial Activity are combined statements for FYs 2011 and
     2010, and as such, intra-departmental transactions have not been eliminated.

D.   Basis of Accounting

     Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual basis,
     revenues are recorded when earned and expenses are recorded when incurred, regardless of when cash
     is exchanged. Under the budgetary basis, however, funds availability is recorded based upon legal
     considerations and constraints. As a result, certain line items on the proprietary financial statements
     may not equal similar line items on the budgetary financial statements. FPI is non-appropriated and
     self-sustaining. While FPI performs budgetary accounting in preparing its financial statements, FPI
     does not record budgetary information at the transaction level.

     Custodial activity reported on the Combined Statement of Custodial Activity is prepared on the
     modified cash basis. Civil and Criminal Debt Collections are recorded when the Department receives
     payment from debtors. Accrual adjustments are made related to collections of fees and licenses.




                             These notes are an integral part of the financial statements.




                                                         - 50 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

D. Basis of Accounting (continued)

   The financial statements should be read with the realization that they are for a component of the U.S.
   Government, a sovereign entity. One implication of this is that liabilities cannot be liquidated without
   legislation that provides resources and legal authority to do so.

E. Non-Entity Assets

   Non-entity assets are not available for use by the Department and consist primarily of restricted
   undisbursed civil and criminal debt collections, seized cash, accounts receivable, and other monetary
   assets.

F. Fund Balance with U.S. Treasury and Cash

   Funds with the Department of the Treasury (Treasury) represent primarily appropriated, revolving, and
   trust funds available to pay current liabilities and finance future authorized purchases. The Treasury, as
   directed by authorized certifying officers, processes cash receipts and disbursements. The Department does
   not, for the most part, maintain cash in commercial bank accounts. Certain receipts, however, are
   processed by commercial banks for deposit into individual accounts maintained at the Treasury. The
   Department’s cash and other monetary assets consist of undeposited collections, imprest funds, cash used
   in undercover operations, cash held as evidence, and seized cash.

G. Investments

   Investments are market-based Treasury securities issued by the Bureau of Public Debt. When securities
   are purchased, the investment is recorded at face value (the value at maturity). The Department’s intent is
   to hold investments to maturity, unless the invested funds are needed to sustain operations. No provision
   is made for unrealized gains or losses on these securities because, in the majority of cases, they are held to
   maturity. The market value of the investments is the current market value at the end of the reporting
   period. It is calculated by using the “End of Day” price listed in The FedInvest Price File which can be
   found on the Bureau of Public Debt website (http://www.fedinvest.gov/). Investments are reported on the
   Consolidated Balance Sheet at their net value, the face value plus or minus any unamortized premium or
   discount. Premiums and discounts are amortized over the life of the Treasury security. The interest
   method is used for the amortization of premium and discount of Treasury notes and the straight-line
   method is used for Treasury bills. Amortization is based on the straight-line method over the term of the
   securities.

   The AFF, the U.S. Trustee System Fund, and the Federal Prison Commissary Fund are three earmarked
   funds that invest in Treasury securities. The Treasury does not set aside assets to pay future expenditures
   associated with earmarked funds. Instead, the cash generated from earmarked funds is used by the
   Treasury for general Government purposes. When these earmarked funds redeem their Treasury securities
   to make expenditures, the Treasury will finance the expenditures in the same manner that it finances all
   other expenditures.



                               These notes are an integral part of the financial statements.




                                                     - 51 -
               FY 2011 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)

G.   Investments (continued)

     Treasury securities are issued to the earmarked funds as evidence of earmarked receipts and provide
     the funds with the authority to draw upon the U.S. Treasury for future authorized expenditures.
     Treasury securities held by an earmarked fund are an asset of the fund and a liability of the Treasury,
     so they are eliminated in consolidation for the U.S. Government-wide financial statements.

H.   Accounts Receivable

     Net accounts receivable includes reimbursement and refund receivables due from federal agencies and
     others, less the allowance for doubtful accounts. Generally, most intragovernmental accounts
     receivable are considered fully collectible. The allowance for doubtful accounts for public receivables
     is estimated based on past collection experience and analysis of outstanding receivable balances at
     year end.

I.   Inventory and Related Property

     Inventory is maintained primarily for the manufacture of goods for sale to customers. This inventory
     is composed of three categories: Raw Materials, Work in Process, and Finished Goods. Raw material
     inventory value is based upon moving average costs. Inventories are valued at the lower of average
     cost or market value (LCM) and include materials, labor and manufacturing overhead. Market value is
     calculated on the basis of the contractual or anticipated selling price, less allowance for administrative
     expenses. DOJ values its finished goods and sub-assembly items at a standard cost that is periodically
     adjusted to approximate actual cost. DOJ has established inventory allowances to account for LCM
     adjustments and obsolete items that may not be utilized in future periods.

     Additional inventories consist of new and rehabilitated office furniture, equipment and supplies used
     for the repair of airplanes, administrative supplies and materials, commissary sales to inmates (sundry
     items), metals, plastics, electronics, graphics, and optics.




                            These notes are an integral part of the financial statements.




                                                        - 52 -
               FY 2011 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

J.   General Property, Plant and Equipment

     With the exception of land, real property and leasehold improvements are capitalized when the cost of
     acquiring and/or improving the asset is $100 or more and the asset has a useful life of two or more
     years. Land is capitalized regardless of the acquisition cost. Real property is depreciated or
     amortized, based on historical cost, using the straight-line method over the estimated useful life of the
     asset.

     Except for BOP and FPI, Department acquisitions of personal property, excluding internal use
     software, costing $25 or more is capitalized if the asset has an estimated useful life of two or more
     years. Personal property is depreciated, based on historical cost, using the straight-line method over
     the estimated useful life of the asset. BOP and FPI capitalize personal property acquisitions over $5.

     Internal use software is capitalized when developmental phase costs or enhancement costs are $500 or
     more and the asset has an estimated useful life of two or more years. Except for FBI, aircraft are
     capitalized when the initial cost of acquiring those assets is $100 or more. FBI capitalized aircraft
     over $25. Internal use software and aircraft are depreciated, based on historical cost, using the
     straight-line method over the estimated useful life of the asset.

K.   Advances and Prepayments

     Advances and prepayments, classified as assets on the Consolidated Balance Sheets, consist primarily
     of funds disbursed to grantees in excess of total expenditures made by those grantees to third parties,
     funds advanced to state and local participants in the DEA Domestic Cannabis Eradication and
     Suppression Program, and travel advances issued to federal employees for official travel. Travel
     advances are limited to meals and incidental expenses expected to be incurred by the employees
     during official travel. Payments in advance of the receipt of goods and services are recorded as
     prepaid charges at the time of payment and are recognized as expenses when the goods and services
     are received.

L.   Forfeited and Seized Property

     Forfeited property is property for which the title has passed to the U.S. Government. This property is
     recorded at the estimated fair market value at the time of forfeiture and is not adjusted for any
     subsequent increases and decreases in estimated fair market value. The value of the property is
     reduced by the estimated liens of record.

     Property is seized in consequence of a violation of public law. Seized property can include monetary
     instruments, real property, and tangible personal property of others in the actual or constructive
     possession of the custodial agency. Most non-cash property is held by the USMS from the point of
     seizure until its disposition. This property is recorded at the estimated fair market value at the time of
     seizure and is not adjusted for any subsequent increases and decreases in estimated fair market value.




                             These notes are an integral part of the financial statements.




                                                   - 53 -
               FY 2011 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)

M.   Liabilities

     Liabilities represent the monies or other resources that are likely to be paid by the Department as the
     result of a transaction or event that has already occurred. However, no liability can be paid by the
     Department absent proper budget authority. Liabilities that are not funded by the current year
     appropriation are classified as liabilities not covered by budgetary resources in Note 11. Accrued
     payroll and benefits are accrued based on the number of days in a pay period earned but not paid to
     employees at the end of the quarter

     On October 15, 1990, Congress passed the Radiation Exposure Compensation Act (RECA), 42 U.S.C.
     § 2210 (1990), providing for compassionate payments to individuals who contracted certain cancers
     and other serious diseases as a result of their exposure to radiation released during above-ground
     nuclear weapons tests or as a result of their exposure to radiation during employment in underground
     uranium mines. The September 30, 2011 and 2010 estimated liabilities are based on activity between
     FYs 2006 - 2011, and management’s assumptions concerning receipt and approval of claims in the
     future.

     Key factors in determining liability are the number of claims filed, the number of claims approved,
     and estimates for these factors through FY 2022. These estimates are then discounted in accordance
     with the discount rates set by OMB.

N.   Accrued Grant Liabilities

     Disbursements of grant funds are recognized as expenses at the time of disbursement. However, some
     grant recipients incur expenditures prior to initiating a request for disbursement based on the nature of
     the expenditures. The OBDs and OJP accrue a liability for expenditures incurred by grantees prior to
     receiving grant funds for expenditures. The amount to be accrued is determined through an analysis of
     historic grant expenditures. These estimates are based on the most current information available at the
     time the financial statements are prepared.

     Estimates for the grant accrual contain assumptions that have an impact on the financial statements.
     The key assumptions used in the grant accrual are: grantees have consistent spending patterns
     throughout the life of the grant, grantees will drawdown throughout the life of the grant, and the grant
     has a determined end date. The primary elements of these assumptions include, but are not limited to,
     type of grant that has been awarded, grant period, accounting basis used by the grantees, and the grant
     expenditure rate.




                            These notes are an integral part of the financial statements.




                                                        - 54 -
               FY 2011 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)


O.   Contingencies and Commitments

     The Department is involved in various legal actions, including administrative proceedings, lawsuits,
     and claims. A liability is generally recognized on the Balance Sheet as an unfunded liability for those
     legal actions where unfavorable decisions are considered “probable” and an estimate for the liability
     can be made. Contingent liabilities that are considered “probable” or “reasonably possible” are
     disclosed in Note 16. However, there are cases where amounts have not been accrued or disclosed
     because the amounts of the potential loss cannot be estimated or the likelihood of an unfavorable
     outcome is considered “remote”.

P.   Annual, Sick, and Other Leave

     Annual and compensatory leave is expensed with an offsetting liability as it is earned and the liability
     is reduced as leave is taken. Each year, the balance in the accrued annual leave liability account is
     adjusted to reflect current pay rates. To the extent current or prior year appropriations are not
     available to fund annual and compensatory leave earned but not taken, funding will be obtained from
     future financing sources. Sick leave and other types of nonvested leave are expensed as taken.

Q.   Interest on Late Payments

     Pursuant to the Prompt Payment Act, 31 U.S.C. §3901-3907, the Department pays interest on
     payments for goods or services made to business concerns after the due date. The due date is
     generally 30 days after receipt of a proper invoice or acceptance of the goods or services, whichever is
     later.

R.   Retirement Plan

     With few exceptions, employees hired before January 1, 1984 are covered by the Civil Service
     Retirement System (CSRS) and employees hired on or after that date are covered by the Federal
     Employees Retirement System (FERS). For employees covered by CSRS, the Department contributes
     7% of the employees’ gross pay for regular and 7.5% for law enforcement officers’ retirement. For
     employees covered by FERS, the Department contributes 11.7% of employees’ gross pay for regular
     and 25.7% for law enforcement officers’ retirement. All employees are eligible to contribute to the
     Federal Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP account is
     automatically established to which the Department is required to contribute an additional 1% of gross
     pay and match employee contributions up to 4%. No contributions are made to the TSP accounts
     established by the CSRS employees. The Department does not report CSRS or FERS assets,
     accumulated plan benefits, or unfunded liabilities, if any, which may be applicable to its employees.
     Such reporting is the responsibility of the Office of Personnel Management (OPM). Statement of
     Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal
     Government, requires employing agencies to recognize the cost of pensions and other retirement
     benefits during their employees’ active years of service. Refer to Note 19, Imputed Financing from
     Costs Absorbed by Others, for additional details.


                            These notes are an integral part of the financial statements.




                                                  - 55 -
               FY 2011 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

S.   Federal Employee Compensation Benefits

     The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
     covered federal civilian employees injured on the job, employees who have incurred a work-related
     occupational disease, and beneficiaries of employees whose death is attributable to a job-related injury
     or occupational disease. The total FECA liability consists of an actuarial and an accrued portion as
     discussed below.

     Actuarial Liability: The Department of Labor (DOL) calculates the liability of the federal government
     for future compensation benefits, which includes the expected liability for death, disability, medical,
     and other approved costs. The liability is determined using the paid-losses extrapolation method
     calculated over the next 37-year period. This method utilizes historical benefit payment patterns
     related to a specific incurred period to predict the ultimate payments related to that period. The
     projected annual benefit payments are discounted to present value. The resulting federal government
     liability is then distributed by agency. The Department’s portion of this liability includes the
     estimated future cost of death benefits, workers' compensation, medical, and miscellaneous cost for
     approved compensation cases for the Department employees. The Department liability is further
     allocated to component reporting entities on the basis of actual payments made to the FECA Special
     Benefits Fund (SBF) for the three prior years as compared to the total Department payments made
     over the same period.

     The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an
     extended future estimate of cost, which will not be obligated against budgetary resources until the
     fiscal year in which the cost is actually billed to the Department. The cost associated with this liability
     cannot be met by the Department without further appropriation action.

     Accrued Liability: The accrued FECA liability is the amount owed to the DOL for the benefits paid
     from the FECA SBF directly to Department employees.

T.   Intragovernmental Activity

     Intragovernmental costs and exchange revenue represent transactions made between two reporting
     entities within the federal government. Costs and earned revenues with the public represent exchange
     transactions made between the reporting entity and a non-federal entity. The classification of revenue
     or cost as “intragovernmental” or “with the public” is defined on a transaction-by-transaction basis.
     The purpose of this classification is to enable the federal government to prepare consolidated financial
     statements, not to match public and intragovernmental revenue with the costs incurred to produce
     public and intragovernmental revenue.




                             These notes are an integral part of the financial statements.




                                                         - 56 -
               FY 2011 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)

U.   Revenues and Other Financing Sources

     The Department receives the majority of funding needed to support its programs through
     Congressional appropriations. The Department receives annual, multi-year, and no-year
     appropriations that may be used, within statutory limits, for operating and capital expenditures.
     Additional funding is obtained through exchange revenues, nonexchange revenues, and transfers-in.

     Appropriations Used are recognized as budgetary financing sources at the time the related program or
     administrative expenses are incurred. Exchange revenues are recognized when earned, for example,
     when goods have been delivered or services rendered. Nonexchange revenues are resources that the
     government demands or receives, for example, forfeiture revenue and fines and penalties.

     The Department’s exchange revenue consists of the following activities: licensing fees to manufacture
     and distribute controlled substances; services rendered for legal activities; space management; data
     processing services; sale of merchandise and telephone services to inmates; sale of manufactured
     goods and services to other federal agencies; and other services. Fees are set by law and are
     periodically evaluated in accordance with OMB guidance.

     The Department’s nonexchange revenue consists of forfeiture income resulting from the sale of
     forfeited property, penalties in lieu of forfeiture, recovery of returned asset management cost,
     judgment collections, and other miscellaneous income. Other nonexchange revenue includes the OJP
     Crime Victims Fund receipts, ATF fees from firearms and ammunition industries, and AFF/SADF
     interest on investments with the Treasury.

     The Department’s deferred revenue includes fees received for processing various applications and
     licenses with DEA for which the process was not completed at the end of fiscal year or for licenses
     that are valid for multiple years. These monies are recorded as liabilities in the financial statements.
     Deferred revenue also includes forfeited property held for sale. When the property is sold, deferred
     revenue is reversed and forfeiture revenue in the amount of the gross proceeds of the sale is recorded.

V.   Earmarked Funds

     SFFAS No. 27, Identifying and Reporting Earmarked Funds, defines ‘earmarked funds’ as being
     financed by specifically identified revenues, often supplemented by other financing sources, which
     remain available over time. These specifically identified revenues and other financing sources are
     required by statute to be used for designated activities, benefits or purposes, and must be accounted for
     separately from the government’s general revenues. The three required criteria for an Earmarked Fund
     are:

     1.	 A statute committing the federal government to use specifically identified revenues and other
         financing sources only for designated activities, benefits or purposes;




                            These notes are an integral part of the financial statements.




                                                  - 57 -
               FY 2011 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

V.   Earmarked Funds (continued)

     2. 	 Explicit authority for the earmarked fund to retain revenues and other financing sources not used
          in the current period for future use to finance the designated activities, benefits, or purposes; and
     3. 	 A requirement to account for and report on the receipt, use, and retention of the revenues and other
          financing sources that distinguishes the earmarked fund from the Government’s general revenues.

     The following funds meet the definition of an earmarked fund: AFF, UST System Fund, Antitrust
     Division, Crime Victims Fund, Diversion Control Fee Account, and Federal Prison Commissary Fund.

W.   Allocation Transfer of Appropriation

     The Department is a party to allocation transfers with other Federal agencies as a transferring (parent)
     entity and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of
     its authority to obligate budget authority and outlay funds to another department. Generally, all
     financial activity related to these allocation transfers (e.g., budget authority, obligations, outlays) is
     reported in the financial statements of the parent entity, from which the underlying legislative
     authority, appropriations, and budget apportionments are derived. An exception to this general rule
     affecting the Department includes the funds transferred from the Judicial Branch to the USMS, for
     whom the USMS is the child to the allocation transfer, but, per OMB guidance, will report all activity
     relative to these allocation transfers in the USMS financial statements.

     The activity related to these transfers, included as part of these financial statements, is highlighted
     below:

     OJP, as the parent, transfers funds from the Crime Victims Fund (CVF) to the Department of Health
     and Human Services (HHS). This transfer is required by 42 U.S.C. §10603a {Sec. 14-4A} for Child
     Abuse Prevention and Treatment Grants. Amounts made available by section §10601(d)(2) of this
     title, for the purposes of this section, are to be obligated and expended by the Secretary of HHS for
     grants under section §5106c of this title.

     The Department also allocated funds from BOP, as the parent, to the Public Health Service (PHS).
     PHS provides a portion of medical treatment for federal inmates. The money is designated and
     expended for current year obligation of PHS staff salaries, benefits, and applicable relocation
     expenses.

     USMS, as the child, receives allocation transfers of appropriation from the Administrative Office of
     U.S. Courts (AOUSC). The allocation transfers are used for costs associated with protective guard
     services - Court Security Officers at United States courthouses and other facilities housing federal
     court operations. These costs include their salaries (paid through contracts), equipment, and supplies.
     This transfer is performed on an annual basis.




                             These notes are an integral part of the financial statements.




                                                         - 58 -
                FY 2011 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

X.    Tax Exempt Status

      As an agency of the federal government, the Department is exempt from all taxes imposed by any
      governing body whether it be a federal, state, commonwealth, local or foreign government.

Y.    Use of Estimates

      The preparation of financial statements requires management to make certain estimates and
      assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
      revenue and expenses during the reporting period. Actual results could differ from those estimates.

Z.    Reclassifications

      The FY 2010 financial statements were reclassified to conform to the FY 2011 Departmental financial
      statement presentation requirements. The reclassifications had no material effect on total assets,
      liabilities, net position, change in net position or budgetary resources as previously reported.

AA.   Subsequent Events

      Subsequent events and transactions occurring after September 30, 2011 through the date of the
      auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
      statements. The date of the auditors’ opinion also represents the date that the financial statements were
      available to be issued.




                             These notes are an integral part of the financial statements.




                                                   - 59 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 2. Non-Entity Assets

As of September 30, 2011 and 2010
                                                                      2011                      2010

 Intragovernmental
    Fund Balance with U.S. Treasury                            $        727,647          $         908,929
    Investments, Net                                                  3,989,294                  1,379,942
      Total Intragovernmental                                         4,716,941                  2,288,871

 With the Public
   Cash and Monetary Assets                                            233,376                     228,085
   Accounts Receivable, Net                                              7,304                      15,257
      Total With the Public                                            240,680                     243,342
      Total Non-Entity Assets                                        4,957,621                   2,532,213
      Total Entity Assets                                           37,835,469                  37,558,477
      Total Assets                                             $    42,793,090           $      40,090,690




                                These notes are an integral part of the financial statements.




                                                            - 60 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 3. Fund Balance with U.S. Treasury

The Fund Balances with U.S. Treasury represent the unexpended balances on the Department’s books for all
the Department’s Treasury Symbols.

As of September 30, 2011 and 2010
                                                                      2011                      2010
 Fund Balances
   Trust Funds                                                 $       104,879           $          84,695
   Special Funds                                                     7,609,838                   6,248,505
   Revolving Funds                                                     473,319                     455,486
   General Funds                                                    15,105,225                  16,746,926
   Other Fund Types                                                     61,191                      60,975
     Total Fund Balances with U.S. Treasury                    $    23,354,452           $      23,596,587

 Status of Fund Balances
   Unobligated Balance - Available                             $     2,637,205           $       2,859,209
   Unobligated Balance - Unavailable                                 1,245,118                   1,180,089
   Obligated Balance not yet Disbursed                              14,885,995                  16,006,230
   Other Funds (With)/Without Budgetary Resources                    4,586,134                   3,551,059
      Total Status of Fund Balances                            $    23,354,452           $      23,596,587



Annual and multi-year budget authority expires at the end of its period of availability. During the first through
the fifth expired years, the unobligated balance is unavailable and may only be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or bona fide
need arising in the fiscal year for which the appropriation was made. The unobligated balance for no-year
budget authority may be used to incur obligations indefinitely for the purpose specified by the appropriation
act. No-year budget authority unobligated balances are still subject to the annual apportionment and allotment
process.

Unobligated Balance - Unavailable includes amounts appropriated in prior fiscal years that are no longer
available to fund new obligations, but can be used for upward and/or downward adjustments for existing
obligations. Additionally, this line includes amounts received that are restricted to future use and as a result
are not apportioned for current use. Other restricted funds include the collections of fees in excess of amounts
budgeted for administering the Diversion Control Program. These collections may not be used until
authorized by Congress.

Other Funds (With)/Without Budgetary Resources primarily represent the net of 1) investments in short-term
securities with budgetary resources, 2) resources temporarily not available pursuant to public law,
3) custodial liabilities, and 4) miscellaneous receipts.




                                These notes are an integral part of the financial statements.




                                                      - 61 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 4. Cash and Monetary Assets

As of September 30, 2011 and 2010
                                                                       2011                     2010
 Cash
   Undeposited Collections                                     $          2,813         $          3,132
   Imprest Funds                                                         14,071                   14,068
   Seized Cash Deposited                                                 87,243                  106,154
   Other Cash                                                            72,700                   51,476
      Total Cash                                                        176,827                  174,830
 Monetary Assets
   Seized Monetary Instruments                                            73,426                  70,453
      Total Cash and Monetary Assets                           $        250,253         $        245,283

The majority of Other Cash consists of project-generated proceeds from undercover operations.

Note 5. Investments, Net

                                                      Unamortized
                                      Face              Premium                Interest         Investments,    Market
                                      Value            (Discount)             Receivable            Net          Value
As of September 30, 2011
 Intragovernmental
    Non-Marketable Securities
      Market Based                $ 6,919,892         $        (137)      $            44       $ 6,919,799    $ 6,920,238




As of September 30, 2010
 Intragovernmental
    Non-Marketable Securities
      Market Based                $ 4,062,336         $        (798)      $           195       $ 4,061,733    $ 4,061,690




                                These notes are an integral part of the financial statements.




                                                            - 62 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 6. Accounts Receivable, Net

As of September 30, 2011 and 2010
                                                                     2011                      2010
 Intragovernmental
    Accounts Receivable                                       $        380,562         $        304,000
    Allowance for Uncollectible Accounts                                  (131)                  (1,690)
       Total Intragovernmental                                         380,431                  302,310

 With the Public
   Accounts Receivable                                                 141,934                   93,552
   Allowance for Uncollectible Accounts                                (16,036)                  (6,292)
      Total With the Public                                            125,898                   87,260
      Total Accounts Receivable, Net                          $        506,329         $        389,570

Intragovernmental accounts receivable consists mainly of amounts due under reimbursable agreements with
federal entities for services and goods provided.

The accounts receivable with the public primarily consists of OBDs U.S. Trustee Chapter 11 quarterly fees,
FBI Non-Federal User Fee Program, FBI National Name Check Program, court mandated restitution, and
refunds due from the public.

Note 7. Inventory and Related Property, Net

As of September 30, 2011 and 2010
                                                                     2011                      2010
 Inventory
   Raw Materials                                              $         42,832         $        116,826
   Work in Process                                                      30,583                   38,442
   Finished Goods                                                       60,697                   53,308
   Inventory Purchased for Resale                                       18,286                   16,580
   Excess, Obsolete, and Unserviceable                                  27,087                   43,494
   Inventory Allowance                                                 (27,265)                 (48,739)

 Operating Materials and Supplies
   Held for Current Use                                                 18,669                   17,436
     Total Inventory and Related Property, Net                $        170,889         $        237,347




                               These notes are an integral part of the financial statements.




                                                     - 63 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property

Equitable Sharing Payments:

The statute governing the use of the AFF (28 U.S.C. §524(c)) permits the payment of equitable shares of
forfeiture proceeds to participating foreign governments and state and local law enforcement agencies. The
statute does not require such sharing and permits the Attorney General wide discretion in determining those
transfers. Actual sharing is difficult to predict because many factors influence both the amount and timing of
disbursement of equitable sharing payments, such as the length of time required to move an asset through the
forfeiture process to disposition, the amount of net proceeds available for sharing, the elapse of time for
Departmental approval of equitable sharing requests for cases with asset values exceeding $1 million, and
appeal of forfeiture judgments. Because of uncertainties surrounding the timing and amount of any equitable
sharing payment, an obligation and expense are recorded only when the actual disbursement of the equitable
sharing payment is imminent. The anticipated equitable sharing allocation level for FY 2012 is $446 million.

Analysis of Change in Forfeited Property:

The number of items represents quantities calculated using many different units of measure. If necessary, the
adjustments column includes property status and valuation changes received after, but properly credited to the
appropriate fiscal years. The valuation changes include updates and corrections to an asset’s value recorded in
the prior year.




                               These notes are an integral part of the financial statements.




                                                           - 64 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                       Notes to the Financial Statements
                                       (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2011

  Forfeited                                                                                      Liens             Ending
  Property               Beginning      Adjust-                                    Ending         and             Balance,
  Category                Balance        ments Forfeitures Disposals               Balance       Claims          Net of Liens

 Financial      Number            97           -        155          (135)                 117               -             117
 Instruments    Value     $    2,219    $      -   $ 15,822     $ (16,311) $             1,730   $           -    $      1,730

 Real           Number         477             -        315          (340)                 452            -                452
 Property       Value     $ 89,018      $      -   $ 74,928     $ (65,938) $            98,008   $     (866) $          97,142

 Personal       Number        3,047            -      5,996         (5,659)              3,384            -              3,384
 Property       Value     $ 102,196     $      -   $ 93,813     $ (121,163) $           74,846   $     (972) $          73,874

 Non-Valued
   Firearms     Number        19,378           -      16,231        (12,016)            23,593               -          23,593

 Total          Number        22,999           -      22,697        (18,150)            27,546               -          27,546
                Value     $ 193,433     $      -   $ 184,563    $ (203,412) $          174,584   $ (1,838) $ 172,746

For the Fiscal Year Ended September 30, 2010

  Forfeited                                                                                          Liens            Ending
  Property               Beginning      Adjust-                                   Ending          and             Balance,
  Category                Balance        ments Forfeitures Disposals              Balance        Claims          Net of Liens

 Financial      Number          90             -        162          (155)                  97            -                 97
 Instruments    Value     $ 19,680      $      -   $ 10,043     $ (27,504) $             2,219   $     (155) $           2,064

 Real           Number          496            -        358          (377)                 477          -                  477
 Property       Value     $ 104,905     $      -   $ 60,739     $ (76,626) $            89,018   $ (3,468) $            85,550

 Personal       Number        3,496            -      5,264        (5,713)               3,047            -      3,047
 Property       Value     $ 105,038     $      -   $ 67,480     $ (70,322) $           102,196   $     (688) $ 101,508

 Non-Valued
   Firearms     Number        21,940           -       9,457        (12,019)            19,378               -          19,378

 Total          Number        26,022           -      15,241        (18,264)            22,999               -          22,999
                Value     $ 229,623     $      -   $ 138,262    $ (174,452) $          193,433   $ (4,311) $ 189,122




                                 These notes are an integral part of the financial statements.




                                                       - 65 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Method of Disposition of Forfeited Property:

During FYs 2011 and 2010, $165,406 and $103,678 of forfeited property were sold, $16,211 and $6,560 were
destroyed or donated, $9,262 and $17,045 were returned to owners, and $12,533 and $47,169 were disposed of
by other means, respectively. Other means of distribution include property transferred to other federal
agencies for official use or equitable sharing, or property distributed to a state or local agency.

Analysis of Change in Seized Property:

Property seized for any purpose other than forfeiture and held by the seizing agency or a custodial agency
should be disclosed by the seizing agency. All property seized for forfeiture, including property with
evidentiary value, will be reported by the AFF/SADF. The Department has established a reporting threshold
of $1 or more for Personal Property seized for evidentiary purposes.

A seizure is the act of taking possession of goods in consequence of a violation of public law. Seized property
consists of seized cash, monetary instruments, real property and tangible personal property in the actual or
constructive possession of the seizing and the custodial agencies. The Department, until judicially or
administratively forfeited, does not legally own such property. Seized evidence includes cash, financial
instruments, non-monetary valuables, firearms, and illegal drugs. The AFF/SADF reports property seized for
forfeiture and the FBI, DEA, and ATF report property seized for evidence.

The adjustments for FYs 2011 and 2010 include property status and valuation changes received after, but
properly credited to FYs 2010 and 2009, respectively. The valuation changes include updates and corrections
to an asset’s value recorded in a prior year. During FY 2011, the DEA had access to better information that
allowed the reporting of partial destructions of drugs held for evidence at the time of partial destruction rather
than at the time the exhibit was fully destroyed. Therefore, the DEA has recorded an adjustment in the
FY 2011 “Adjustment” column to primarily reflect the partial destruction of exhibits destroyed in prior years.
ATF’s adjustments for non-valued firearms are items determined to be seized for evidence that were not
included in the seized for evidence balances in prior years.

The DEA, FBI, and ATF have custody of illegal drugs taken as evidence for legal proceedings. In accordance
with Federal Financial Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued Seized
and Forfeited Property, the Department reports the total amount of seized drugs by quantity only, as illegal
drugs have no value and are destroyed upon resolution of legal proceedings.




                                These notes are an integral part of the financial statements.




                                                            - 66 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Analyzed drug evidence includes cocaine, heroin, marijuana and methamphetamine and represents actual
laboratory tested classification and weight in kilograms (KG). Since enforcing the controlled substances laws
and regulations of the United States is a primary mission of the DEA, the DEA reports all analyzed drug
evidence regardless of seizure weight. However, the enforcement of these laws and regulations is incidental to
the missions of the FBI and ATF and therefore they only report those individual seizures exceeding 1 KG in
weight.

“Other” primarily consist of illegal substances other than those discussed above. “Bulk Drug Evidence” is
comprised of controlled substances housed by the DEA in secured storage facilities of which only a sample is
taken for laboratory analysis. The actual bulk drug weight may vary from seizure weight due to changes in
moisture content over time.

Unanalyzed drug evidence is qualitatively different from analyzed and bulk drug evidence because unanalyzed
drug evidence includes the weight of packaging and drug categories are based on the determination of Special
Agents instead of laboratory chemists. For these reasons, unanalyzed drug evidence is not reported by the
Department. Seized drug evidence must be analyzed and confirmed through laboratory testing to be placed in
one of the five categories of drug above.

“Disposals” occur when seized property is forfeited, returned to parties with a bona fide interest, or destroyed
in accordance with federal guidelines.




                                These notes are an integral part of the financial statements.




                                                      - 67 -
                    FY 2011 U. S. Department of Justice Annual Financial Statements

                                         Notes to the Financial Statements
                                         (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2011

                                                                                                              Liens           Ending
      Seized Property                Beginning      Adjust-                                    Ending          and           Balance,
         Category                     Balance        ments      Seizures      Disposals        Balance        Claims        Net of Liens

Seized for Forfeiture

  Seized Cash              Value     $ 1,424,806    $      -   $ 3,844,026   $ (1,251,941) $ 4,016,891       $ (92,080) $       3,924,811
  Deposited and
  Seized Monetary
  Instruments

  Financial                Number             413        (109)         274           (101)             477          -                 477
  Instruments              Value     $     99,712   $ (66,438) $    24,101   $     (4,134) $        53,241   $ (3,236) $           50,005

  Real                     Number             183          -           153           (190)             146           -                146
  Property                 Value     $     61,270   $      -   $    49,431   $    (62,337) $        48,364   $ (16,030) $          32,334

  Personal                 Number           7,319          -       7,171         (7,013)           7,477             -              7,477
  Property                 Value     $    161,552   $      -   $ 124,371     $ (101,920) $       184,003     $ (16,209) $         167,794

  Non-Valued
    Firearms               Number          34,281          -        23,858        (21,224)          36,915             -           36,915


For the Fiscal Year Ended September 30, 2010

                                                                                                              Liens           Ending
      Seized Property                Beginning      Adjust-                                    Ending          and           Balance,
         Category                     Balance       ments       Seizures      Disposals        Balance        Claims        Net of Liens

Seized for Forfeiture

  Seized Cash              Value     $ 1,451,259    $      -   $ 1,588,064   $ (1,614,517) $ 1,424,806       $ (91,260) $       1,333,546
  Deposited and
  Seized Monetary
  Instruments

  Financial                Number             365           -          114            (66)             413          -                 413
  Instruments              Value     $    124,578   $ (37,259) $    28,692   $    (16,299) $        99,712   $ (9,045) $           90,667

  Real                     Number             210          -           162           (189)             183          -                 183
  Property                 Value     $     66,178   $ (5,699) $     56,409   $    (55,618) $        61,270   $ (9,675) $           51,595

  Personal                 Number           7,429          -         6,699         (6,809)         7,319             -              7,319
  Property                 Value     $    158,880   $      -   $    88,032   $    (85,360) $     161,552     $ (11,544) $         150,008

  Non-Valued
    Firearms               Number          39,569          -         9,459        (14,747)          34,281             -           34,281




                                    These notes are an integral part of the financial statements.




                                                                - 68 -
                        FY 2011 U. S. Department of Justice Annual Financial Statements

                                            Notes to the Financial Statements
                                            (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2011
                                                                                                                 Liens                  Ending
      Seized Property                Beginning       Adjust-                                       Ending         and                  Balance,
         Category                     Balance        ments         Seizures     Disposals          Balance       Claims               Net of Liens

Seized for Evidence

  Seized Monetary          Value     $      45,577   $ (4,903) $      45,419    $     (39,246) $      46,847 $            -       $            46,847
  Instruments

  Personal                 Number            1,602       (85)            412             (508)         1,421              -                     1,421
  Property                 Value  $         26,691   $ 8,649 $        13,946    $     (12,907) $      36,379 $            -       $            36,379

 Non-Valued
   Firearms                Number           44,465      7,405         14,268            (3,543)       62,595              -                    62,595
   Drug Evidence
     Cocaine               KG              278,449   (222,619)        27,429           (27,098)       56,161              -                    56,161
     Heroin                KG                3,450       (589)           812              (565)        3,108              -                     3,108
     Marijuana             KG               20,061     (1,521)         6,362            (7,095)       17,807              -                    17,807
     Bulk Drug Evidence    KG              227,564      1,043      1,058,390        (1,008,845)      278,152              -                   278,152
     Methamphetamine       KG                7,622     (1,928)         2,649            (1,386)        6,957              -                     6,957
     Other                 KG               46,663    (16,935)         3,563            (8,528)       24,763              -                    24,763
   Total Drug Evidence     KG              583,809   (242,549)     1,099,205        (1,053,517)      386,948              -                   386,948



For the Fiscal Year Ended September 30, 2010
                                                                                                                  Liens                     Ending
      Seized Property                Beginning        Adjust-                                        Ending        and                     Balance,
         Category                     Balance          ments       Seizures         Disposals        Balance      Claims                  Net of Liens

Seized for Evidence

  Seized Monetary          Value     $      40,401   $ (2,164) $       34,425   $       (27,085) $      45,577   $            -       $          45,577
  Instruments

  Personal                 Number            1,485         47             300              (230)         1,602                -                   1,602
  Property                 Value     $      27,943   $ (2,186) $       13,202   $       (12,268) $      26,691   $            -       $          26,691

  Non-Valued
    Firearms               Number           43,878        (230)         8,685            (7,868)        44,465                -                  44,465
    Drug Evidence
      Cocaine              KG              349,451     (34,698)        33,711           (70,015)       278,449                -                 278,449
      Heroin               KG                3,572         (20)           643              (745)         3,450                -                   3,450
      Marijuana            KG               19,913         (26)         5,400            (5,226)        20,061                -                  20,061
      Bulk Drug Evidence   KG              223,936       1,278      1,128,098        (1,125,748)       227,564                -                 227,564
      Methamphetamine      KG                6,791         (47)         2,154            (1,276)         7,622                -                   7,622
      Other                KG               47,180         386          5,359            (6,262)        46,663                -                  46,663
    Total Drug Evidence    KG              650,843     (33,127)     1,175,365        (1,209,272)       583,809                -                 583,809




                                         These notes are an integral part of the financial statements.




                                                                  - 69 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Method of Disposition of Seized Property:

During FYs 2011 and 2010, $1,297,764 and $1,628,886 of seized property were forfeited, $120,156 and
$155,022 of valued property seized for evidence were returned to parties with a bonafide interest, and $54,566
and $27,239 were either released to a designated party or transferred to the appropriate federal entity under
forfeiture or abandonment procedures. Non-valued property was primarily disposed of through destruction.

Note 9. General Property, Plant and Equipment, Net

As of September 30, 2011
                                         Acquisition          Accumulated            Net Book        Useful
                                           Cost               Depreciation            Value           Life
 Land and Land Rights                   $ 193,042             $          -          $ 193,042              N/A
 Improvements to Land                          4,584                 (866)                3,718         15 yrs
 Construction in Progress                   894,755                      -             894,755             N/A
 Buildings, Improvements and
   Renovations                           9,578,003              (4,001,606)            5,576,397      2-50 yrs
 Other Structures and Facilities           849,524                (433,515)              416,009     10-50 yrs
 Aircraft                                  450,418                (132,678)              317,740      5-30 yrs
 Boats                                      10,078                  (5,943)                4,135      5-25 yrs
 Vehicles                                  594,285                (368,856)              225,429      2-25 yrs
 Equipment                               1,676,992              (1,007,478)              669,514      2-25 yrs
 Assets Under Capital Lease                105,246                 (61,623)               43,623      5-30 yrs
 Leasehold Improvements                  1,338,886                (714,246)              624,640      2-20 yrs
 Internal Use Software                     773,237                (287,106)              486,131      3-10 yrs
 Internal Use Software in Development      762,637                       -               762,637          N/A
 Total                                $ 17,231,687            $ (7,013,917)         $ 10,217,770



                                                                  Federal               Public        Total
Sources of Capitalized Property, Plant and Equipment
  Purchases for FY 2011                                       $     229,207         $ 1,023,422    $ 1,252,629




                               These notes are an integral part of the financial statements.




                                                           - 70 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 9. General Property, Plant and Equipment, Net (continued)

As of September 30, 2010
                                         Acquisition          Accumulated            Net Book       Useful
                                           Cost               Depreciation            Value          Life
 Land and Land Rights                   $ 192,821             $          -          $ 192,821             N/A
 Improvements to Land                          4,518                 (552)                3,966        15 yrs
 Construction in Progress                   728,617                      -             728,617            N/A
 Buildings, Improvements and
   Renovations                           9,365,319              (3,679,717)           5,685,602      2-50 yrs
 Other Structures and Facilities           808,964                (395,986)             412,978     10-50 yrs
 Aircraft                                  377,329                (115,798)             261,531      5-30 yrs
 Boats                                       9,967                  (5,302)               4,665      5-25 yrs
 Vehicles                                  549,692                (335,338)             214,354      2-25 yrs
 Equipment                               1,612,309                (995,050)             617,259      2-25 yrs
 Assets Under Capital Lease                107,399                 (58,688)              48,711      5-30 yrs
 Leasehold Improvements                  1,129,117                (609,571)             519,546      2-20 yrs
 Internal Use Software                     408,472                (194,868)             213,604      3-10 yrs
 Internal Use Software in Development      837,500                       -              837,500          N/A
 Total                                $ 16,132,024            $ (6,390,870)         $ 9,741,154



                                                                  Federal               Public       Total
Sources of Capitalized Property, Plant and Equipment
  Purchases for FY 2010                                       $     235,776         $ 1,121,727   $ 1,357,503




                               These notes are an integral part of the financial statements.




                                                     - 71 -
                   FY 2011 U. S. Department of Justice Annual Financial Statements

                                     Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 10. Other Assets

As of September 30, 2011 and 2010
                                                              2011                    2010
 Intragovernmental
    Advances and Prepayments                             $      115,075         $       122,609
    Other Intragovernmental Assets                                   28                      55
      Total Intragovernmental                                   115,103                 122,664

   Other Assets With the Public                                    5,982                   5,826
      Total Other Assets                                 $      121,085         $       128,490



Other Assets With the Public primarily consist of farm livestock held by the BOP.

Note 11. Liabilities not Covered by Budgetary Resources

As of September 30, 2011 and 2010
                                                                               2011                    2010
 Intragovernmental
    Accrued FECA Liabilities                                            $        247,813           $    241,124
    Other Unfunded Employment Related Liabilities                                  2,178                  1,758
    Other                                                                          3,690                     58
      Total Intragovernmental                                                    253,681                242,940
 With the Public
   Actuarial FECA Liabilities                                                  1,359,360               1,314,105
   Accrued Annual and Compensatory Leave Liabilities                             822,891                 816,970
   Environmental and Disposal Liabilities (Note 12)                               72,709                  71,657
   Deferred Revenue                                                              358,742                 311,164
   Contingent Liabilities (Note 16)                                               68,652                 101,760
   Capital Lease Liabilities (Note 13)                                            23,941                  30,703
   RECA Liabilities                                                              535,838                 541,784
   Other                                                                         122,152                  47,300
      Total With the Public                                                    3,364,285               3,235,443
      Total Liabilities not Covered by Budgetary Resources                     3,617,966               3,478,383
      Total Liabilities Covered by Budgetary Resources                         9,651,511               7,096,754
      Total Liabilities                                                 $    13,269,477            $ 10,575,137




                               These notes are an integral part of the financial statements.




                                                             - 72 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 11. Liabilities not Covered by Budgetary Resources (continued)

Generally, liabilities not covered by budgetary resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. However, some liabilities do not require appropriations
and will be liquidated by the assets of the entities holding these liabilities. Such assets include civil and
criminal debt collections, seized cash and monetary instruments, and revolving fund operations.

Note 12. Environmental and Disposal Liabilities

Per SFFAS No. 5, Accounting for Liabilities of the Federal Government, SFFAS No. 6, Accounting for
Property, Plant, and Equipment, and Technical Release No. 2, Determining Probably and Reasonably
Estimable for Environmental Liabilities in the Federal Government, federal agencies are required to recognize
liabilities for environmental clean-up costs when the future outflow or sacrifice of resources is probable and
reasonably estimable.

Firing Ranges

The BOP operates firing ranges on 65 of the sites where its institutions are located. Use of these firing ranges
generates waste consisting primarily of lead shot and spent rounds from rifles, shotguns, pistols, and automatic
weapons. At operational firing ranges, lead-containing bullets are fired and eventually fall to the ground at or
near the range. As of September 30, 2010, BOP management determined their estimated clean-up liability to
be $25,069. In FY 2011, BOP management adjusted the estimated clean-up liability by the current U.S.
inflation rate as determined by the U.S. Treasury and as such determined that an estimated firing range clean-
up liability of $26,045, based on an inflation rate of 3.9 percent, should be recorded.

Asbestos

BOP conducted a review of 46 institutions that were built prior to 1980; the review provided an estimate of the
extent of friable and non-friable Asbestos Containing Materials (ACM) remaining in each of the institutions as
of October 30, 2009. As of September 30, 2010, BOP management determined their estimated clean-up
liability to be $36,833. As of September 30, 2011, BOP management adjusted the clean-up liability in the
amount of $156 for the removal of asbestos at 5 locations and by the U.S. inflation rate of 3.9 percent as
determined by the U.S. Treasury and as such determined that an estimated asbestos clean-up liability of
$36,677, should be recorded.

The FBI operates facilities in Quantico, Virginia that contain friable and non-friable ACM. The facilities have
a useful life of 50 years. The estimated total liability of $11,613 is based on the square footage of the facilities
that may be contaminated. This value, divided by the useful life and multiplied by the number of years in
service, is the estimated cleanup liability. As of September 30, 2011 and 2010, the FBI recognized the
estimated cleanup liability of $9,987 and $9,755. The estimated asbestos cleanup liability is increased each
quarter by recording future expenses for the asbestos clean-up costs. During FY 2011, future funded expense
for asbestos cleanup is $232. There are no other potentially responsible parties to the environmental liability
and there are no unrecognized amounts to disclose as of September 30, 2011.


                                These notes are an integral part of the financial statements.




                                                      - 73 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 13. Leases

Capital leases include a Federal Transfer Center (25 year lease term) in Oklahoma City, Oklahoma; an airplane
hangar (20 year lease term) in Oklahoma City, Oklahoma, which expired in FY 2011 and will not be renewed;
and other machinery and equipment that expire over future periods.

As of September 30, 2011 and 2010

 Capital Leases                                                   2011                   2010

 Summary of Assets Under Capital Lease
   Land and Buildings                                       $      100,352          $      100,352
   Machinery and Equipment                                           4,894                   7,047
   Accumulated Amortization                                        (61,623)                (58,688)
      Total Assets Under Capital Lease (Note 9)             $       43,623          $       48,711

 Future Capital Lease Payments Due
                                                                Land and           Machinery and
   Fiscal Year                                                  Buildings            Equipment            Total
      2012                                                  $         9,073        $        970       $     10,043
      2013                                                            9,073                 592              9,665
      2014                                                            9,073                  15              9,088
      2015                                                               32                  15                 47
      2016                                                               32                  14                 46
   After 2016                                                            96                    -                96
      Total Future Capital Lease Payments                   $       27,379         $      1,606       $     28,985
   Less: Imputed Interest                                            (3,438)                (41)            (3,479)
   Less: Executory Costs                                                  -                (365)              (365)
       FY 2011 Net Capital Lease Liabilities                $       23,941         $      1,200       $     25,141
       FY 2010 Net Capital Lease Liabilities                $       31,649         $      2,000       $     33,649

                                                                                         2011             2010

   Net Capital Lease Liabilities Covered by Budgetary Resources                     $        1,200    $      2,946
   Net Capital Lease Liabilities not Covered by Budgetary Resources                 $       23,941    $     30,703


The net capital lease liability not covered by budgetary resources primarily represents the capital lease of the
Federal Transfer Center for which the Department received Congressional authority to fund with annual
appropriations.


                                These notes are an integral part of the financial statements.




                                                            - 74 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 13. Leases (continued)

 Future Noncancelable Operating Lease Payments

                                                             Land and             Machinery and
   Fiscal Year                                               Buildings              Equipment                  Total
      2012                                                 $    223,236           $     10,505             $     233,741
      2013                                                      283,190                  9,543                   292,733
      2014                                                      314,601                  4,408                   319,009
      2015                                                      313,075                  4,386                   317,461
      2016                                                      313,609                       -                  313,609
   After 2016                                                 3,417,847                       -                3,417,847
       Total Future Noncancelable Operating
            Lease Payments                                 $ 4,865,558             $        28,842         $ 4,894,400



Note 14. Seized Cash and Monetary Instruments

The Seized Cash and Monetary Instruments represent liabilities for seized assets held by the Department
pending disposition.

As of September 30, 2011 and 2010
                                                                      2011                     2010

 Investments, Net                                                $    3,903,069         $      1,293,776
 Seized Cash Deposited                                                   87,243                  106,154
 Seized Monetary Instruments                                             73,426                   70,453
   Total Seized Cash and Monetary Instruments                    $    4,063,738         $      1,470,383




                               These notes are an integral part of the financial statements.




                                                     - 75 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 15. Other Liabilities

As of September 30, 2011 and 2010
                                                                       2011                     2010

 Intragovernmental
    Employer Contributions and Payroll Taxes Payable              $      197,871         $       176,303
    Other Post-Employment Benefits Due and Payable                            25                      37
    Other Unfunded Employment Related Liabilities                          2,178                   1,759
    Advances from Others                                                 169,108                 262,847
    Liability for Deposit Funds, Clearing
     Accounts and Undeposited Collections                                 13,138                   4,208
    Other Liabilities                                                      7,202                 506,213
       Total Intragovernmental                                           389,522                 951,367

With the Public
   Other Accrued Liabilities                                             122,184                  47,360
   Advances from Others                                                    6,992                   3,951
   Liability for Deposit Funds, Clearing
    Accounts and Undeposited Collections                                  49,022                   45,616
   Custodial Liabilities                                                 152,987                  118,879
   Other Liabilities                                                      72,720                   51,563
      Total With the Public                                              403,905                  267,369
      Total Other Liabilities                                     $      793,427         $      1,218,736

In prior years, the majority of Intragovernmental Other Liabilities were related to miscellaneous receipts of
civil and criminal debt collections where Treasury was designated as the recipient of either a portion of a
collection or the entire amount. As of September 30, 2010 this amount totaled $485,769. In FY 2011, OBDs
changed its method of reporting for these miscellaneous receipts. As outlined in Note 25, Changes in
Accounting Principle, these miscellaneous receipts will no longer be reported as Other Liabilities on the
Consolidated Balance Sheet.

Other Accrued Liabilities with the Public consists primarily of future funded energy savings performance
contracts and utilities.

The majority of Other Liabilities with the Public consists of project-generated proceeds from undercover
operations. The proceeds not subject to forfeiture will be returned to the Department of Treasury General
Fund at the conclusion of the project.

The majority of Liabilities are current with the exception of a portion that consists of capital leases and those
liabilities related to future employee related expenses, such as accrued retirement contributions, life insurance,
and retiree health benefits.


                                These notes are an integral part of the financial statements.




                                                            - 76 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 16. Contingencies and Commitments

                                           Accrued                      Estimated Range of Loss
                                           Liabilities                Lower                 Upper

   As of September 30, 2011

      Probable                         $        68,652            $        68,652              $   190,144
      Reasonably Possible                                                  86,576                  135,569

   As of September 30, 2010

      Probable                         $       101,760            $      101,760               $   214,237
      Reasonably Possible                                                 95,585                   124,326

Additionally, FPI has entered into firm purchase commitments for solar panel material totaling $36,801 of
which $13,129 is to be delivered in FY 2012 and $23,672 is to be delivered in FY 2015.




                               These notes are an integral part of the financial statements.




                                                     - 77 -
                          FY 2011 U. S. Department of Justice Annual Financial Statements

                                                  Notes to the Financial Statements
                                                  (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds

Earmarked funds are financed by specifically identified revenues and are required by statute to be used for
designated activities or purposes, and must be accounted for separately from the Government’s general
revenues. See SFFAS 27, Identifying and Reporting Earmarked Funds, for the required criteria for an
earmarked fund.

As of September 30, 2011

                                                                                                                  Diversion     Federal Prison        Total
                                          Assets Forfeiture   U.S. Trustee        Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                Fund          System Fund         Division         Fund           Account          Fund            Funds
Balance Sheet
 Assets
   Fund Balance with U. S. Treasury        $      229,030     $    14,532     $      33,106     $ 7,260,185      $ 104,565      $  80,240        $ 7,721,658
   Investments, Net                             2,443,702         216,029                 -               -              -              -          2,659,731
   Other Assets                                   180,020          58,406             3,152             275         46,184         27,572            315,609
      Total Assets                         $    2,852,752     $   288,967     $      36,258     $ 7,260,460      $ 150,749      $ 107,812        $10,696,998

Liabilities
   Accounts Payable                        $      918,358     $     8,236     $       5,949     $      9,664     $   6,923      $    11,131      $   960,261
   Other Liabilities                              173,850          21,594            15,090           48,548       375,988           13,124          648,194
      Total Liabilities                    $    1,092,208     $    29,830     $      21,039     $     58,212     $ 382,911      $    24,255      $ 1,608,455

Net Position
  Unexpended Appropriations                $            -     $         -     $      21,727     $         -      $        -     $       -        $    21,727
  Cumulative Results of Operations              1,760,544         259,137            (6,508)      7,202,248        (232,162)       83,557          9,066,816
     Total Net Position                    $    1,760,544     $   259,137     $      15,219     $ 7,202,248      $ (232,162)    $ 83,557         $ 9,088,543
     Total Liabilities and Net Position    $    2,852,752     $   288,967     $      36,258     $ 7,260,460      $ 150,749      $ 107,812        $10,696,998


For the Fiscal Year Ended September 30, 2011

                                                                                                                  Diversion     Federal Prison        Total
                                          Assets Forfeiture   U.S. Trustee        Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                Fund          System Fund         Division         Fund           Account          Fund            Funds
Statement of Net Cost
    Gross Cost of Operations               $    1,673,412     $   234,356     $ 162,760         $ 662,569        $ 277,514      $ 332,106        $ 3,342,717
    Less: Exchange Revenues                         9,513         314,921        91,636                 -          195,235        341,176            952,481
      Net Cost of Operations               $    1,663,899     $   (80,565)    $ 71,124          $ 662,569        $ 82,279       $  (9,070)       $ 2,390,236

Statement of Changes in Net Position
    Net Position Beginning of Period       $    1,687,400     $   176,675     $      14,385     $ 5,866,596      $ (159,279)    $    69,853      $ 7,655,630

   Budgetary Financing Sources                  1,585,180           1,070            71,420         1,998,221              -              -           3,655,891
   Other Financing Sources                        151,863             827               538                 -          9,396          4,634             167,258
      Total Financing Sources                   1,737,043           1,897            71,958         1,998,221          9,396          4,634           3,823,149
   Net Cost of Operations                      (1,663,899)         80,565           (71,124)         (662,569)       (82,279)         9,070          (2,390,236)
   Net Change                                      73,144          82,462               834         1,335,652        (72,883)        13,704           1,432,913
   Net Position End of Period              $    1,760,544     $   259,137     $      15,219     $ 7,202,248      $ (232,162)    $    83,557      $ 9,088,543




                                               These notes are an integral part of the financial statements.




                                                                             - 78 -
                          FY 2011 U. S. Department of Justice Annual Financial Statements

                                                  Notes to the Financial Statements
                                                  (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds (continued)

As of September 30, 2010

                                                                                                                 Diversion     Federal Prison     Total
                                          Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                Fund          System Fund        Division         Fund            Account         Fund            Funds
Balance Sheet
 Assets
   Fund Balance with U. S. Treasury        $      180,150     $     4,439    $      30,210     $ 5,938,699      $ 123,755      $    67,328      $ 6,344,581
   Investments, Net                             2,197,486         184,105                -               -              -                -        2,381,591
   Other Assets                                   197,403          20,704            4,894           3,380         52,534           27,560          306,475
      Total Assets                         $    2,575,039     $   209,248    $      35,104     $ 5,942,079      $ 176,289      $    94,888      $ 9,032,647

Liabilities
   Accounts Payable                        $      698,517     $    11,370    $       5,652     $     15,560     $   8,479      $    12,696      $   752,274
   Other Liabilities                              189,122          21,203           15,067           59,923       327,089           12,339          624,743
      Total Liabilities                    $      887,639     $    32,573    $      20,719     $     75,483     $ 335,568      $    25,035      $ 1,377,017

Net Position
  Unexpended Appropriations                $            -     $         -    $      19,585     $         -      $        -     $         -      $    19,585
  Cumulative Results of Operations              1,687,400         176,675           (5,200)      5,866,596        (159,279)         69,853        7,636,045
     Total Net Position                    $    1,687,400     $   176,675    $      14,385     $ 5,866,596      $ (159,279)    $    69,853      $ 7,655,630
     Total Liabilities and Net Position    $    2,575,039     $   209,248    $      35,104     $ 5,942,079      $ 176,289      $    94,888      $ 9,032,647


For the Fiscal Year Ended September 30, 2010

                                                                                                                 Diversion     Federal Prison         Total
                                          Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                Fund          System Fund        Division         Fund           Account          Fund            Funds
Statement of Net Cost
    Gross Cost of Operations               $    1,291,742     $   229,760    $ 166,135         $ 608,723        $ 255,152      $ 338,286        $ 2,889,798
   Less: Exchange Revenues                          7,324         289,191       72,958                 -          189,376        331,199            890,048
      Net Cost of Operations               $    1,284,418     $   (59,431)   $ 93,177          $ 608,723        $ 65,776       $   7,087        $ 1,999,750

Statement of Changes in Net Position
    Net Position Beginning of Period       $    1,425,883     $   116,141    $      25,734     $ 4,112,981      $ (100,558)    $    73,049      $ 5,653,230

   Budgetary Financing Sources                  1,506,330             319           81,311         2,362,338              -              -           3,950,298
   Other Financing Sources                         39,605             784              517                 -          7,055          3,891              51,852
     Total Financing Sources                    1,545,935           1,103           81,828         2,362,338          7,055          3,891           4,002,150
   Net Cost of Operations                      (1,284,418)         59,431          (93,177)         (608,723)       (65,776)        (7,087)         (1,999,750)
   Net Change                                     261,517          60,534          (11,349)        1,753,615        (58,721)        (3,196)          2,002,400
   Net Position End of Period              $    1,687,400     $   176,675    $      14,385     $ 5,866,596      $ (159,279)    $    69,853      $ 7,655,630




                                               These notes are an integral part of the financial statements.




                                                                      - 79 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds (continued)

The Comprehensive Crime Control Act of 1984 established the AFF to receive the proceeds of forfeiture and
to pay the costs associated with such forfeitures, including the costs of managing and disposing of property,
satisfying valid liens, mortgages, and other innocent owner claims, and costs associated with accomplishing
the legal forfeiture of the property. Authorities of the fund have been amended by various public laws enacted
since 1984. Under current law, authority to use the fund for certain investigative expenses shall be specified in
annual appropriation acts. Expenses necessary to seize, detain, inventory, safeguard, maintain, advertise or
sell property under seizure are funded through a permanent, indefinite appropriation. In addition, beginning in
FY 1993, other general expenses of managing and operating the Asset Forfeiture Program are paid from the
permanent, indefinite portion of the fund. Once all expenses are covered, the balance is maintained to meet
ongoing expenses of the program. Excess unobligated balances may also be allocated by the Attorney General
in accordance with 28 U.S.C. §524(c)(8)(E).

United States Trustees (UST) supervise the administration of bankruptcy cases and private trustees in the
Federal Bankruptcy Courts. The Bankruptcy Judges, UST, and Family Farmer Bankruptcy Act of 1986 (Public
Law 99–554) expanded the pilot trustee program to a 21 region, nationwide program encompassing 88 judicial
districts. The UST System Fund collects user fees assessed against debtors, which offset the annual
appropriation.

The Antitrust Division administers and enforces antitrust and related statutes. This program primarily involves
the investigation of suspected violations of the antitrust laws, the conduct of civil and criminal proceedings in
the federal courts, and the maintenance of competitive conditions. The Antitrust Division collects filing fees
for pre-merger notifications and retains these fees for expenditure in support of its programs.

The Crime Victims Fund is financed by collections of fines, penalty assessments, and bond forfeitures from
defendants convicted of federal crimes. This fund supports victim assistance and compensation programs
around the country and advocates, through policy development, for the fair treatment of crime victims. The
Office for Victims of Crime administers formula and discretionary grants for programs designed to benefit
victims, provides training for diverse professionals who work with victims, develops projects to enhance
victims' rights and services, and undertakes public education and awareness activities on behalf of crime
victims.

The Diversion Control Fee Account is established in the General Fund of the Treasury as a separate account.
Fees charged by the DEA under the Diversion Control Program are set at a level that ensures the recovery of
the full costs of operating this program. The program’s purpose is to prevent, detect, and investigate the
diversion of controlled substances from legitimate channels, while ensuring an adequate and uninterrupted
supply of controlled substances required to meet legitimate needs.

The Federal Prison Commissary Fund was created in the early 1930s to allow inmates a means to purchase
additional products and services above the necessities provided by appropriated federal funds, e.g., personal
grooming products, snacks, postage stamps, and telephone services. The Trust Fund is a self-sustaining trust
revolving fund account that is funded through sales of goods and services to inmates.


                                These notes are an integral part of the financial statements.




                                                            - 80 -
                              FY 2011 U. S. Department of Justice Annual Financial Statements

                                                           Notes to the Financial Statements
                                                           (Dollars in Thousands, Except as Noted)

Note 18. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2011

Dollars in Thousands                   AFF/SADF        OBDs         USMS         OJP           DEA          FBI        ATF          BOP           FPI       Eliminations Consolidated
Goal 1: Prevent Terrorism and Promote the Nation's Security
   Gross Cost                       $          - $ 378,325 $           6,484 $           - $   106,082 $ 5,326,383 $      5,649 $           - $         -   $     (96,829) $    5,726,094
   Less: Earned Revenue                        -      116,209              -             -         693     463,936            -             -           -         (96,829)        484,009
   Net Cost of Operations                      -      262,116          6,484             -     105,389   4,862,447        5,649             -           -               -       5,242,085

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
   Gross Cost                           1,673,412    5,858,718       30,396     2,680,635     2,929,005    3,903,753   1,268,049       6,613            -   $ (1,123,450)      17,227,131
   Less: Earned Revenue                     9,513    1,002,609             -       32,322       722,217      813,186      91,300           -            -     (1,123,450)       1,547,697
   Net Cost of Operations               1,663,899    4,856,109       30,396     2,648,313     2,206,788    3,090,567   1,176,749       6,613            -              -       15,679,434

Goal 3: Ensure the Fair and Efficient Administration of Justice
   Gross Cost                                    -      2,441,919   3,174,846    1,054,276           -             -           -    7,213,365     942,915       (1,813,663)    13,013,658
   Less: Earned Revenue                          -        203,511   1,583,960       10,440           -             -           -      385,676     904,683       (1,788,199)     1,300,071
   Net Cost of Operations                        -      2,238,408   1,590,886    1,043,836           -             -           -    6,827,689      38,232          (25,464)    11,713,587


Net Cost of Operations                 $ 1,663,899 $ 7,356,633 $ 1,627,766 $ 3,692,149 $ 2,312,177 $ 7,953,014 $ 1,182,398 $ 6,834,302 $           38,232 $       (25,464) $ 32,635,106



For the Fiscal Year Ended September 30, 2010

Dollars in Thousands                   AFF/SADF        OBDs         USMS         OJP           DEA          FBI        ATF          BOP           FPI       Eliminations Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security
   Gross Cost                       $          - $ 359,943 $           5,159 $           - $   100,315 $ 5,185,327 $      7,185 $           - $         - $ (112,397) $         5,545,532
   Less: Earned Revenue                        -      110,232              -             -         632     507,996            -             -           -   (112,397)             506,463
   Net Cost of Operations                      -      249,711          5,159             -      99,683   4,677,331        7,185             -           -          -            5,039,069

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
   Gross Cost                           1,291,742    5,763,437         4,872    2,757,971     2,801,202    3,846,770   1,265,934       6,860            -       (1,073,345)    16,665,443
   Less: Earned Revenue                     7,324      968,224             -       49,851       677,670      767,210      91,159           -            -       (1,073,345)     1,488,093
   Net Cost of Operations               1,284,418    4,795,213         4,872    2,708,120     2,123,532    3,079,560   1,174,775       6,860            -                -     15,177,350

Goal 3: Ensure the Fair and Efficient Administration of Justice
   Gross Cost                                    -      2,269,929   3,016,174     988,230            -             -           -    7,021,759     951,139       (1,697,058)    12,550,173
   Less: Earned Revenue                          -        180,804   1,514,103      26,252            -             -           -      372,199     857,542       (1,669,610)     1,281,290
   Net Cost of Operations                        -      2,089,125   1,502,071     961,978            -             -           -    6,649,560      93,597          (27,448)    11,268,883

Net Cost of Operations                 $ 1,284,418 $ 7,134,049 $ 1,512,102 $ 3,670,098 $ 2,223,215 $ 7,756,891 $ 1,181,960 $ 6,656,420 $           93,597 $       (27,448) $ 31,485,302




                                                      These notes are an integral part of the financial statements.




                                                                                  - 81 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 19. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the Department from a providing entity
that is not part of the Department. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
Departmental financing sources currently recognized by the Department include the cost of benefits for the
Federal Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life Insurance Program
(FEGLI), and the Federal Pension plans that are paid by other federal entities, and any un-reimbursed
payments made from the Treasury Judgment Fund on behalf of the Department. The Treasury Judgment Fund
was established by the Congress and funded at 31 U.S.C. §1304 to pay in whole or in part the court judgments
and settlement agreements negotiated by the Department on behalf of agencies, as well as certain types of
administrative awards. Interpretation of Federal Financial Accounting Standards Interpretation No. 2,
Accounting for Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and expenses
when unfavorable litigation outcomes are probable and the amount can be estimated and will be paid by the
Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing agencies
recognize the cost of pensions and other retirement benefits during their employees’ active years of service.
SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost. OPM actuaries calculate the
value of pension benefits expected to be paid in the future, and then determine the total funds to be contributed
by and for covered employees, such that the amount calculated would be sufficient to fund the projected
pension benefits. For employees covered by Civil Service Retirement System (CSRS), the cost factors are
30.1% of basic pay for regular, 51.1% law enforcement officers, 23.5% regular offset, and 45.6% law
enforcement officers offset. For employees covered by Federal Employees Retirement System (FERS), the
cost factors are 13.8% of basic pay for regular and 29.8% for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are paid by
other federal entities, must also be disclosed.

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                            2011                    2010
 Imputed Inter-Departmental Financing
   U.S. Treasury Judgment Fund                                        $         71,537          $    135,498
   Health Insurance                                                            594,476               553,366
   Life Insurance                                                                2,038                 1,969
   Pension                                                                     330,434               212,044
      Total Imputed Inter-Departmental                                $        998,485          $    902,877




                                These notes are an integral part of the financial statements.




                                                            - 82 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 19. Imputed Financing from Costs Absorbed by Others (continued)

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Standards and Concepts, are the unreimbursed portion of the full costs of goods and services received by a
Department component from a providing entity that is part of the Department. Recognition is required for
those transactions determined to be material to the receiving entity. The determination of whether the cost is
material requires considerable judgment based on the specific facts and circumstances of each type of good or
service provided. SFFAS No. 4 also states that costs for broad and general support need not be recognized by
the receiving entity, unless such services form a vital and integral part of the operations or output of the
receiving entity. Costs are considered broad and general if they are provided to many, if not all, reporting
components and not specifically related to the receiving entity’s output. The FPI imputed $25,464 and
$27,448 for FYs 2011 and 2010, respectively of unreimbursed costs for BOP warehouse space used in the
production of goods by the FPI and for managerial and operational services BOP provided to FPI. These
imputed costs have been eliminated from the consolidated financial statements.

Note 20. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:


                                                                                                   Total
                                                       Direct               Reimbursable        Obligations
                                                      Obligations            Obligations         Incurred
For the Fiscal Year Ended September 30, 2011
   Obligations Apportioned Under
      Category A                                    $ 28,235,878           $    5,835,181      $ 34,071,059
      Category B                                       3,604,743                   46,787         3,651,530
      Exempt from Apportionment                                -                  824,853           824,853
   Total                                            $ 31,840,621           $    6,706,821      $ 38,547,442

For the Fiscal Year Ended September 30, 2010
   Obligations Apportioned Under
      Category A                                    $ 29,509,630           $    5,664,568      $ 35,174,198
      Category B                                       2,747,673                   30,019         2,777,692
      Exempt from Apportionment                                -                  841,869           841,869
   Total                                            $ 32,257,303           $    6,536,456      $ 38,793,759


The apportionment categories are determined in accordance with the guidance provided in Part 4 “Instructions
on Budget Execution” of OMB Circular A-11, Preparation, Submission and Execution of the Budget.
Category A obligations represent resources apportioned for calendar quarters. Category B obligations
represent resources apportioned for other time periods; for activities, projects, and objectives or for a
combination thereof.
                               These notes are an integral part of the financial statements.




                                                     - 83 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not been
actually or constructively received. This amount includes any orders which may have been prepaid or
advanced but for which delivery or performance has not yet occurred.

As of September 30, 2011 and 2010
                                                               2011                     2010

 UDO Obligations Unpaid                                  $    11,606,422          $    12,835,522

 UDO Obligations Prepaid/Advanced                              1,344,717                1,824,439

   Total UDO                                             $    12,951,139          $    14,659,961




Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount of time the
agency has to spend the funds) and its amount. Following are the Department’s permanent indefinite
appropriations.

       28 U.S.C. §524(c)(4) authorized the Attorney General to retain AFF receipts to pay operations
        expenses, equitable sharing to state and local law enforcement agencies who assist in forfeiture cases,
        and lien holders.

       On October 5, 1990, Congress passed the Radiation Exposure Compensation Act ("RECA" or "the
        Act"), 42 U.S.C. §2210, providing for compassionate payments to individuals who contracted certain
        cancers and other serious diseases as a result of their exposure to radiation released during above-
        ground nuclear weapons tests or as a result of their exposure to radiation during employment in
        underground uranium mines. Implementing regulations were issued by the Department of Justice and
        published in the Federal Register on April 10, 1992. These regulations established procedures to
        resolve claims in a reliable, objective, and non-adversarial manner, with little administrative cost to the
        United States or to the person filing the claim. Revisions to the regulations, published in the Federal
        Register on March 22, 1999, served to greater assist claimants in establishing entitlement to an award.
        On July 10, 2000, P.L. 106-245, the Radiation Exposure Compensation Act Amendments of 2000
        ("the 2000 Amendments") were passed. On November 2, 2002, the President signed the "21st Century
        Department of Justice Appropriation Authorization Act" (P.L. 107-273). Contained in the law were
        several provisions relating to RECA. While most of these amendments were "technical" in nature,
        some affected eligibility criteria and revised claims adjudication procedures. The Consolidated
        Appropriations Act, 2005 provides a permanent indefinite appropriation for the OBDs’ Radiation
        Exposure Compensation Act program beginning FY 2006.


                                These notes are an integral part of the financial statements.




                                                             - 84 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Permanent Indefinite Appropriations (continued):

       Congress established the Federal Prison Commissary Fund (Trust Fund) in 1932 to allow inmates a
        means to purchase additional products and services above the necessities provided by appropriated
        federal funds. The BOP Trust Fund is now a self-sustaining revolving account that is funded through
        the sales of goods and services, rather than annual or no-year appropriations.

       The Public Safety Officers’ Benefits Act of 1976 (the “PSOB Act”) is generally codified at 42 U.S.C.
        §46 Subchapter XII.

        OJP’s PSOB appropriation supports one mandatory and two discretionary programs that provide
        benefits to public safety officers who are severely injured in the line of duty and to the families
        and survivors of public safety officers killed or mortally injured in the line of duty.
        The PSOB Program offers three types of benefits:

            1.	 Death Benefits, a one-time financial benefit to survivors of public safety officers whose
                deaths resulted from injuries sustained in the line of duty. Under the Hometown Heroes
                Survivors Benefit Act of 2003, survivors of public safety officers who die of a heart attack or
                stroke within 24 hours of stressful, non-routine public safety activities may also qualify for
                death benefits.

            2.	 Disability Benefits, a one-time financial benefit to public safety officers permanently disabled
                by catastrophic injuries sustained in the line of duty.

            3.	 Education Benefits, which provide financial support for higher education expenses (such as
                tuition and fees, books, supplies, and room and board) to the eligible spouses and children of
                public safety officers killed or permanently disabled in the line of duty.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and that
remains available for obligation under law, unless otherwise restricted. The use of unobligated balances is
restricted based on annual legislation requirements and other enabling authorities. Funds are appropriated on
an annual, multi-year, and no-year basis. Appropriated funds shall expire on the last day of availability and
are no longer available for new obligations. Unobligated balances in unexpired fund symbols are available in
the next fiscal year for new obligations unless some restrictions had been placed on those funds by law.
Amounts in expired fund symbols are unavailable for new obligations, but may be used to adjust previously
established obligations.




                                These notes are an integral part of the financial statements.




                                                      - 85 -
                      FY 2011 U. S. Department of Justice Annual Financial Statements

                                             Notes to the Financial Statements
                                             (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs Budget of the United States Government:

The reconciliation as of September 30, 2010 is presented below. The reconciliation as of September 30, 2011
is not presented, because the submission of the Budget of the United States (Budget) for FY 2013, which
presents the execution of the FY 2011 Budget, occurs after publication of these financial statements. The
Department of Justice Budget Appendix can be found on the OMB website
(http://www.whitehouse.gov/omb/budget) and will be available in early February 2012.

 For the Fiscal Year Ended September 30, 2010
   (Dollars in Millions)                                                                                      Distributed
                                                                           Budgetary     Obligations          Offsetting             Net
                                                                           Resources      Incurred             Receipts             Outlays

 Statement of Budgetary Resources (SBR)                                $       42,833    $    38,794      $             941     $      29,948

 Funds not Reported in the Budget
       Expired Funds: OBDs, USMS, DEA, OJP, FBI, ATF & BOP                       (786)          (211)                      -                -
       AFF/SADF Forfeiture Activity                                               (12)             -                       -                -
       OCDETF Adjustments                                                          (9)            15                       -                -
       USMS Court Security Funds                                                 (418)          (398)                      -             (380)
       Distributed Offsetting Receipts                                              -              -                    (368)             368
       Special and Trust Fund Receipts                                              -              -                       -              573
 Other                                                                             (4)             2                       1               (1)

 Budget of the United States Government                                $       41,604    $    38,202      $             574     $      30,508




Other differences represent financial statement adjustments, timing differences and other immaterial
differences between amounts reported in the Department SBR and the Budget of the United States
Government.




                                          These notes are an integral part of the financial statements.




                                                                      - 86 -
                  FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 21. Net Custodial Revenue Activity

Custodial revenue activity represents those collections of non-exchange revenue on behalf of other recipient
entities. These collections are not recorded as revenue by the Department but as activity on the Statement of
Custodial Activity. The custodial liabilities presented on the Consolidated Balance Sheet and Note 15
represent funds held by the Department that have yet to be disbursed to the appropriate Federal agency or
individual.

The primary source of the Department’s Office of Debt Collection Management (DCM) collections consists of
civil litigated matters i.e., student loan defaults, health care fraud, etc. The DCM also processes certain
payments on criminal debts as an accommodation for the BOP and the Clerks of the U.S. District Courts. The
BOP aggregates collections of inmate criminal debt by correction facility, and the DCM sorts the collections
by judicial district and disburses payments to the respective Clerks of the U.S. Court. The DCM also accepts
wire transfers or other payments on a criminal debt if a Clerk of the U.S. Court is unable or unwilling to do so.
 In addition, other negligible custodial collections occur for interest, fines, and penalties.

The OBDs collect civil fines, penalties, and restitution payments that are incidental to its mission. By court
order, the OBDs were given the investment authority and the settlement funds collected must be invested. The
OBDs invest these funds with the Treasury, Bureau of the Public Debt. As of September 30, 2011 and 2010,
the custodial assets and liabilities recorded by the OBDs on the Consolidated Balance Sheet are $752,797 and
$448,467, respectively. The OBDs custodial collections totaled $5,260,397 and $4,822,740 for the fiscal years
ended September 30, 2011 and 2010.

For the fiscal years ended September 30, 2011 and 2010, DEA collected $97,268 and $20,963, respectively.
DEA’s collections include $15 million of the total fees collected for the Diversion Control Program and civil
monetary penalties related to violations of the Controlled Substances Act that were incidental to DEA’s
mission. Since DEA has no statutory authority to use these excess funds, DEA transmits them to the Treasury
General Fund. The DEA has a custodial liability for funds that have not yet been transmitted to the Treasury
General Fund. As of September 30, 2011 and 2010 balances for custodial liabilities were $5,199 and $1,584,
respectively.

As an agent of the federal government and as authorized by 26 U.S.C. § 6301, ATF collects fees from firearms
and explosives industries, as well as import, permit and license fees. Special Occupational Taxes are collected
from certain firearms businesses. Miscellaneous collections include project-generated proceeds. As ATF is
unable to use these collections in its operations, ATF also has the authority to transfer these collections to the
Treasury General Fund. The ATF custodial collections totaled $21,444 and $14,674 for the fiscal years ended
September 30, 2011 and 2010, respectively.




                                These notes are an integral part of the financial statements.




                                                      - 87 -
                FY 2011 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 22. OMB Circular A-136 Consolidated Balance Sheet Presentation


                                           U.S. Department of Justice
                                          Consolidated Balance Sheets
                                       As of September 30, 2011 and 2010
       Dollars in Thousands                                                               2011             2010

       ASSETS
         Intragovernmental
           Fund Balance with U.S. Treasury                                   $    23,354,452     $   23,596,587
           Investments, Net                                                        6,919,799          4,061,733
           Accounts Receivable, Net                                                  380,431            302,310
           Other Assets                                                              115,103            122,664
         Total Intragovernmental                                                  30,769,785         28,083,294
         Cash and Other Monetary Assets                                              250,253            245,283
         Accounts Receivable, Net                                                    125,898             87,260
         Inventory and Related Property, Net                                         170,889            237,347
         General Property, Plant and Equipment, Net                               10,217,770          9,741,154
         Other Assets                                                              1,258,495          1,696,352
       Total Assets                                                          $    42,793,090     $   40,090,690
       LIABILITIES
         Intragovernmental
           Accounts Payable                                                  $       366,027     $      273,619
           Other Liabilities                                                       1,245,156          1,525,985
         Total Intragovernmental                                                   1,611,183          1,799,604
         Accounts Payable                                                          2,504,820          2,520,022
         Federal Employee and Veteran Benefits                                     1,359,360          1,314,105
         Environmental and Disposal Liabilities                                       72,709             71,657
         Other Liabilities                                                         7,721,405          4,869,749
       Total Liabilities                                                     $    13,269,477     $   10,575,137
       NET POSITION
         Unexpended Appropriations - Earmarked Funds                        $         21,727     $       19,585
         Unexpended Appropriations - All Other Funds                              11,952,581         13,791,272
         Cumulative Results of Operations - Earmarked Funds                        9,066,816          7,636,045
         Cumulative Results of Operations - All Other Funds                        8,482,489          8,068,651
       Total Net Position                                                    $    29,523,613     $   29,515,553
       Total Liabilities and Net Position                                    $    42,793,090     $   40,090,690



                               These notes are an integral part of the financial statements.




                                                           - 88 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 23. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)

For the Fiscal Years Ended September 30, 2011 and 2010

                                                                                                2011            2010
Resources Used to Finance Activities
   Budgetary Resources Obligated
      Obligations Incurred                                                                 $ 38,547,442      $ 38,793,759
      Less: Spending Authority from Offsetting Collections and Recoveries                     7,709,445         7,626,950
      Obligations Net of Offsetting Collections and Recoveries                               30,837,997        31,166,809
      Less: Offsetting Receipts                                                               1,025,644           941,368
      Net Obligations                                                                        29,812,353        30,225,441

   Other Resources
       Donations and Forfeitures of Property                                                      157,607         71,204
       Transfers-In/Out Without Reimbursement                                                      44,556         (3,433)
       Imputed Financing from Costs Absorbed by Others (Note 19)                                  998,485        902,877
       Other                                                                                       (4,613)             -
       Net Other Resources Used to Finance Activities                                           1,196,035        970,648
Total Resources Used to Finance Activities                                                     31,008,388     31,196,089

Resources Used to Finance Items not Part of the Net Cost of
   Operations
       Net Change in Budgetary Resources Obligated for Goods, Services
          and Benefits Ordered but not Yet Provided                                             1,608,057        139,965
       Resources That Fund Expenses Recognized in Prior Periods (Note 24)                         (45,816)       (77,146)
       Budgetary Offsetting Collections and Receipts That do not
          Affect Net Cost of Operations                                                           294,218        300,608
       Resources That Finance the Acquisition of Assets                                        (1,184,420)    (1,295,160)
       Other Resources or Adjustments to Net Obligated Resources
          That do not Affect Net Cost of Operations                                                14,296        (49,768)
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                                 686,335        (981,501)

Total Resources Used to Finance the Net Cost of Operations                                 $ 31,694,723      $ 30,214,588




                               These notes are an integral part of the financial statements.




                                                     - 89 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 23. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing) (continued)

For the Fiscal Years Ended September 30, 2011 and 2010                                        2011            2010

Components of Net Cost of Operations That Will not Require
  or Generate Resources in the Current Period

      Components That will Require or Generate Resources in
      Future Periods (Note 24)                                                            $   129,497    $    450,866

       Depreciation and Amortization                                                          826,899         727,012
       Revaluation of Assets or Liabilities                                                    23,586          29,772
       Other                                                                                  (39,599)         63,064
Total Components of Net Cost of Operations That Will not
   Require or Generate Resources in the Current Period                                        940,383        1,270,714

Net Cost of Operations                                                                    $ 32,635,106   $ 31,485,302




                              These notes are an integral part of the financial statements.




                                                          - 90 -
                   FY 2011 U. S. Department of Justice Annual Financial Statements

                                     Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)

Note 24. Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
         Components of Net Cost of Operations Requiring or Generating Resources in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not certainty that
budgetary authority will be realized, such as the enactment of an appropriation, are considered liabilities not
covered by budgetary resources. These liabilities totaling $3,617,966 and $3,478,383 on September 30, 2011
and 2010, respectively, are discussed in Note 11, Liabilities not Covered by Budgetary Resources. Decreases
in these liabilities result from current year budgetary resources that were used to fund expenses recognized in
prior periods. Increases in these liabilities represent unfunded expenses that were recognized in the current
period. These increases along with the change in the portion of exchange revenue receivables from the public,
which are not considered budgetary resources until collected, represent components of current period net cost
of operations that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are comprised of the
following:

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                                     2011           2010
 Resources that Fund Expenses Recognized in Prior Periods
   Other
      Decrease in Contingent Liabilities                                                         $   (33,108)   $   (70,893)
      Decrease in Unfunded Capital Lease Liabilities                                                  (6,762)        (6,253)
      Decrease in RECA Liabilities                                                                    (5,946)             -
         Total Resources that Fund Expenses Recognized in Prior Periods                          $   (45,816)   $   (77,146)

 Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
   Increase in Accrued Annual and Compensatory Leave Liabilities                           $      5,921         $    45,156
   Increase in Environmental and Disposal Liabilities                                             1,052              49,545
   (Increase)/Decrease in Exchange Revenue Receivable from the Public                           (51,628)             (1,671)
   Other
      Increase in Actuarial FECA Liabilities                                                     45,255              80,206
      Increase in Accrued FECA Liabilities                                                        6,689               6,951
      Increase in Deferred Revenue                                                               47,578              41,324
      Increase in RECA Liabilities                                                                    -             197,949
      Increase in Other Unfunded Employee Related Liabilities                                       420                 230
      Increase in Other Liabilities                                                              78,484              33,030
      (Increase)/Decrease in Nonexchange Receivables from the Public                                (94)                (63)
      (Increase)/Decrease in Surcharge Revenue Receivable
            from Other Federal Agencies                                                          (4,180)             (1,791)
         Total Other                                                                                 174,152        357,836
         Total Components of Net Cost of Operations That Will Require or
           Generate Resources in Future Periods                                                  $ 129,497      $ 450,866




                                 These notes are an integral part of the financial statements.




                                                       - 91 -
                 FY 2011 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 25. Changes in Accounting Principle

Based upon guidance received from the U.S. Department of Treasury in FY 2011, the OBDs has changed its
method of reporting for Debt Collection Management miscellaneous receipts, which as of September 30, 2011
totaled $618,814. This change in method of reporting results in a change in accounting principle, which OBDs
is applying prospectively beginning with FY 2011. The cumulative amount of miscellaneous receipts from
prior years that were reported as Other Liabilities (Note 15) will no longer be reported in the Consolidated
Balance Sheet, and will be reflected in the Statement of Custodial Activity as Transfers to the Treasury
General Fund.

Based upon guidance received from OMB regarding their interpretation of P.L. 112-10, Section 1101, OJP has
changed its method of accounting for previous years’ unobligated CVF collections, which as of October 1,
2010, totaled $4,801,473. As a result of this change in accounting principle, which OJP is applying
prospectively beginning with FY 2011 (subject to the annual appropriation language for the CVF fund), the
cumulative amount of unobligated CVF collections from prior years is included in the ‘Appropriations
Received’ and ‘Temporarily Not Available Pursuant to Public Law’ line items of the Combined Statement of
Budgetary Resources.




                              These notes are an integral part of the financial statements.




                                                          - 92 -
Consolidating and Combining 

   Financial Statements 





          - 93 -
                                                                                                                             U. S. Department of Justice

                                                                                                                             Consolidating Balance Sheet

                                                                                                                              As of September 30, 2011


         Dollars in Thousands                                           AFF/SADF             OBDs              USMS               OJP                DEA               FBI               ATF                BOP               FPI                 Eliminations           Consolidated

         ASSETS
              Intragovernmental
                  Fund Balance with U.S. Treasury                   $         229,030    $     5,223,163   $      562,246    $     11,287,838    $      702,470    $    3,618,458    $     241,768      $    1,468,669    $      20,810       $                - $            23,354,452
                  Investments, Net                                          6,346,771            302,328                 -                   -                 -                 -                -                   -         270,700                        -               6,919,799
                  Accounts Receivable, Net                                      4,869            350,778          168,560               6,970            43,655           181,271           27,803               3,347           34,360                 (441,182)                380,431
                  Other Assets                                                  1,766             95,294           15,506              78,034            47,061            27,867            7,643                    -                -                (158,068)                115,103
              Total Intragovernmental                                       6,582,436          5,971,563          746,312          11,372,842           793,186         3,827,596          277,214           1,472,016          325,870                 (599,250)             30,769,785

               Cash and Monetary Assets                                      113,822                 46                  -                   -           16,575            50,843           68,184                 783                 -                         -               250,253
               Accounts Receivable, Net                                             -            59,086                35               6,056             5,998            32,369              256               9,778           12,320                          -               125,898
               Inventory and Related Property, Net                                  -               106             3,060                    -            7,506             8,103                 -             18,180          133,934                          -               170,889
               Forfeited Property, Net                                       172,746                   -                 -                   -                 -                 -                -                   -                -                         -               172,746
               General Property, Plant and Equipment, Net                        633            280,102           264,246              12,526           401,220         2,558,525          210,262           6,387,481          102,775                          -            10,217,770
               Advances and Prepayments                                            6              1,978                 -           1,009,997            14,700            47,144              786               3,899            1,257                          -             1,079,767
               Other Assets                                                        -                  -               184                    -                -                  -               -               4,473            1,325                          -                 5,982
         Total Assets                                               $      6,869,643     $    6,312,881    $    1,013,837    $    12,401,421     $    1,239,185    $   6,524,580     $     556,702      $   7,896,610     $     577,481       $         (599,250) $          42,793,090

         LIABILITIES
               Intragovernmental
                   Accounts Payable                                 $          67,345    $       317,501   $       31,314    $         54,240    $       46,943    $     229,722     $         14,942   $      37,098     $       3,612       $         (436,690) $              366,027
                   Accrued FECA Liabilities                                         -              9,780           15,912                  86            27,222           30,829               20,074         144,780             1,942                        -                 250,625
                   Custodial Liabilities                                            -            599,810                -                   -             5,199                 -                   -                -                -                        -                 605,009
                   Other Liabilities                                              169             83,592           26,609             117,275            20,766          121,218               10,474          69,364           102,615                 (162,560)                389,522
               Total Intragovernmental                                         67 514          1 010 683           73 835             171 601           100 130          381 769               45 490         251 242           108 169                 (599 250)              1 611 183

               Accounts Payable                                               851,013           307,561           354,200              24,177            92,054          416,733            45,450            367,973               45,659                       -             2,504,820
               Accrued Grant Liabilities                                             -          245,174                  -            369,245                  -                -                 -                  -                    -                      -               614,419
               Actuarial FECA Liabilities                                            -           51,746            86,365                 680           149,846          182,426           110,697            761,197               16,403                       -             1,359,360
               Accrued Payroll and Benefits                                       767           137,132            33,239               8,182            63,094          208,273            34,276            151,321                8,218                       -               644,502
               Accrued Annual and Compensatory Leave Liabilities                  168           181,586            43,940               6,148            98,437          270,528            51,897            170,187                8,892                       -               831,783
               Environmental and Disposal Liabilities                                -                 -                -                   -                  -           9,987                  -            62,722                    -                       -                72,709
               Deferred Revenue                                               172,746                  -                -                   -           358,742                -                  -             1,939                    -                       -               533,427
               Seized Cash and Monetary Instruments                         4,016,891                  -                -                   -               440           42,880             3,527                   -                   -                       -             4,063,738




- 94 -
               Contingent Liabilities                                                -                 -                -                   -             7,754           52,335                  -             8,563                    -                       -                68,652
               Capital Lease Liabilities                                             -                 -                -                  14                 -                -             1,071             23,941                  115                       -                25,141
               Radiation Exposure Compensation Act Liabilities                       -          535,838                 -                   -                 -                -                 -                   -                   -                       -               535,838
               Other Liabilities                                                     -          152,987                 -                   -             9,720            4,687            59,905            176,606                    -                       -               403,905
         Total Liabilities                                          $      5,109,099 $        2,622,707    $     591,579     $       580,047     $     880,217     $   1,569,618     $     352,313      $   1,975,691     $     187,456       $         (599,250) $          13,269,477

         NET POSITION
               Unexpended Appropriations - Earmarked Funds          $                -   $        21,727 $               -   $               -   $             - $               -   $            -     $             -   $            -      $                  -   $            21,727
               Unexpended Appropriations - All Other Funds                           -         3,472,362          257,093           4,605,970           503,763         2,194,512          174,210             744,671                 -                         -            11,952,581
               Cumulative Results of Operations - Earmarked Funds           1,760,544            252,629                 -          7,202,248          (232,162)                 -               -              83,557                -                          -             9,066,816
               Cumulative Results of Operations - All Other Funds                    -           (56,544)         165,165              13,156            87,367         2,760,450           30,179           5,092,691          390,025                          -             8,482,489
         Total Net Position                                         $      1,760,544     $    3,690,174    $     422,258     $    11,821,374     $     358,968     $   4,954,962     $     204,389      $   5,920,919     $     390,025       $                  -   $       29,523,613

         Total Liabilities and Net Position                         $      6,869,643 $        6,312,881    $    1,013,837    $    12,401,421     $    1,239,185    $   6,524,580     $     556,702      $   7,896,610     $     577,481       $         (599,250) $          42,793,090




                                                                                                       -
                                                                                                                               U. S. Department of Justice

                                                                                                                               Consolidating Balance Sheet

                                                                                                                                As of September 30, 2010


                                                                        AFF/SADF            OBDs              USMS                 OJP                 DEA             FBI                 ATF            BOP              FPI                Eliminations           Consolidated

         ASSETS
               Intragovernmental
                   Fund Balance with U.S. Treasury                  $         180,150   $     5,825,079   $      684,686   $         10,519,156    $     809,035   $    3,694,239      $    261,136   $    1,600,858   $      22,248      $                - $              23,596,587
                   Investments, Net                                         3,491,262           270,271                -                      -                -                -                 -                -         300,200                       -                 4,061,733
                   Accounts Receivable, Net                                     4,245           291,193          149,713                  6,883           39,117          158,737            28,291            6,235          25,219                (407,323)                  302,310
                   Other Assets                                                 2,607           134,244           17,212                 76,831           51,090           30,638            14,349              407               -                (204,714)                  122,664
               Total Intragovernmental                                      3 678 264         6 520 787          851 611             10 602 870          899 242        3 883 614           303 776        1 607 500         347 667                (612 037)               28 083 294

               Cash and Monetary Assets                                      131,030                46                 -                      -           13,407           51,017            49,009              774               -                         -                 245,283
               Accounts Receivable, Net                                            -            19,769                47                  5,774            2,325           30,384               162           20,012           8,787                         -                  87,260
               Inventory and Related Property, Net                                 -               106             2,739                      -            6,770            7,927                 -           16,474         203,331                         -                 237,347
               Forfeited Property, Net                                       189,122                 -                 -                      -                -                -                 -                -               -                         -                 189,122
               General Property, Plant and Equipment, Net                      1,417           231,301           257,937                 12,032          382,137        2,197,590           207,118        6,334,726         116,896                         -               9,741,154
               Advances and Prepayments                                           12             8,225                17              1,428,298            9,929           46,698             1,669            3,845           2,711                         -               1,501,404
               Other Assets                                                        -                 -               184                      -                -                -                 -            4 662             980                         -                   5 826
         Total Assets                                               $      3,999,845 $       6,780,234    $    1,112,535   $        12,048,974     $   1,313,810   $    6,217,230      $    561,734   $    7,987,993   $    680,372       $         (612,037) $            40,090,690

         LIABILITIES
               Intragovernmental
                   Accounts Payable                                 $         69,170    $       306,300   $       26,177   $              18,928   $      42,007   $         162,573   $     14,803   $       33,303   $       4,621                (404,263) $                273,619
                   Accrued FECA Liabilities                                        -              9,265           15,725                     129          26,651              31,231         19,567          139,222           1,656                       -                   243,446
                   Custodial Liabilities                                           -            329,588                -                       -           1,584                   -              -                -               -                       -                   331,172
                   Other Liabilities                                               -            569,083           24,344                 147,914          18,726             114,588          9,393           73,926         201,167                (207,774)                  951,367
               Total Intragovernmental                                        69,170          1,214,236           66,246                 166,971          88,968             308,392         43,763          246,451         207,444                (612,037)                1,799,604

               Accounts Payable                                               629,347          363,569           406,268                  33,369         117,280             488,886         45,744          389,178             46,381                      -               2,520,022
               Accrued Grant Liabilities                                            -          147,652                 -                 383,171               -                   -              -                -                  -                      -                 530,823
               Actuarial FECA Liabilities                                           -           50,022            83,490                     657         144,858             176,353        107,012          735,856             15,857                      -               1,314,105
               Accrued Payroll and Benefits                                         -          128,797            30,525                   7,930          59,032             187,572         31,560          140,727              8,838                      -                 594,981
               Accrued Annual and Compensatory Leave Liabilities                    -          183,120            42,138                   6,068          98,608             265,775         52,408          168,853              9,911                      -                 826,881
               Environmental and Disposal Liabilities                               -                -                 -                       -               -               9,755              -           61,902                  -                      -                  71,657
               Deferred Revenue                                               189,122                -                 -                       -         311,164                   -              -            1,833                  -                      -                 502,119
               Seized Cash and Monetary Instruments                         1,424,806                -                 -                       -             447              42,120          3,010                -                  -                      -               1,470,383
               Contingent Liabilities                                               -            4,738            17,000                       -           4,928              66,762          3,505            4,827                  -                      -                 101,760




- 95 -
               Capital Lease Liabilities                                            -                -               946                      18               -                   -          1,875           30,703                107                      -                  33,649
               Radiation Exposure Compensation Act Liabilities                      -          541,784                 -                       -               -                   -              -                -                  -                      -                 541,784
               Other Liabilities                                                    -          118 879                 -                       -           7 639               3 297         41 416           96 138                  -                      -                 267 369
         Total Liabilities                                          $      2,312,445 $       2,752,797 $        646,613 $              598,184 $        832,924    $    1,548,912      $    330,293 $      1,876,468   $    288,538       $         (612,037) $            10,575,137

         NET POSITION
               Unexpended Appropriations - Earmarked Funds          $               -   $        19,585 $              -   $                  -    $           - $              -      $          -                    $           -      $                  -   $              19,585
               Unexpended Appropriations - All Other Funds                          -         3,979,216          328,900              5,571,977          559,167        2,255,206           202,183          894,623               -                         -              13,791,272
               Cumulative Results of Operations - Earmarked Funds           1,687,400           171,475                -              5,866,596         (159,279)               -                 -           69,853               -                         -               7,636,045
               Cumulative Results of Operations - All Other Funds                   -          (142,839)         137,022                 12,217           80,998        2,413,112            29,258        5,147,049         391,834                         -               8,068,651
         Total Net Position                                         $      1,687,400    $    4,027,437 $        465,922 $           11,450,790 $        480,886 $       4,668,318      $    231,441 $      6,111,525   $    391,834 $                        - $           29,515,553

         Total Liabilities and Net Position                         $      3,999,845 $       6,780,234 $       1,112,535 $          12,048,974 $       1,313,810 $      6,217,230      $    561,734 $      7,987,993   $    680,372       $         (612,037) $            40,090,690
                                                                                                                      U. S. Department of Justice

                                                                                                                  Consolidating Statement of Net Cost

                                                                                                             For the Fiscal Year Ended September 30, 2011


            Dollars in Thousands                               AFF/SADF             OBDs              USMS               OJP                DEA              FBI              ATF                BOP               FPI                Eliminations           Consolidated

         Goal 1: Prevent Terrorism and Promote the Nation's Security
            Gross Cost - Intragovernmental                 $                -   $      112,985    $          6,484   $              -   $      15,196    $    1,448,527   $              -   $             -   $              -   $          (96,829) $            1,486,363
            Gross Cost - With the Public                                    -          265,340                   -                  -          90,886         3,877,856              5,649                 -                  -                    -               4,239,731
               Subtotal Gross Costs                                         -          378,325               6,484                  -         106,082         5,326,383              5,649                 -                  -              (96,829)              5,726,094
            Earned Revenues - Intragovernmental                             -           93,776                   -                  -             687          449,197                   -                 -                  -               (96,829)              446,831
            Earned Revenues - With the Public                               -           22,433                   -                  -               6           14,739                   -                 -                  -                     -                37,178
                Subtotal Earned Revenues                                    -          116,209                   -                  -             693          463,936                   -                 -                  -               (96,829)              484,009
                Subtotal Net Cost of Operations            $                -   $      262,116    $          6,484   $              -   $     105,389    $    4,862,447   $          5,649   $             -   $              -   $                  -   $         5,242,085

         Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
            Gross Cost - Intragovernmental                 $          380,028   $     1,868,383   $       30,396     $      158,557     $      907,038   $    1,061,638   $      381,239     $             -   $              -   $        (1,123,450) $           3,663,829
            Gross Cost - With the Public                            1,293,384         3,990,335                -          2,522,078          2,021,967        2,842,115          886,810               6,613                  -                      -            13,563,302
               Subtotal Gross Costs                                 1,673,412         5,858,718           30,396          2,680,635          2,929,005        3,903,753        1,268,049               6,613                  -            (1,123,450)            17,227,131
            Earned Revenues - Intragovernmental                         9,513           575,651                  -             32,277         521,896          652,046              90,650                 -                  -            (1,123,450)               758,583
            Earned Revenues - With the Public                               -           426,958                  -                 45         200,321          161,140                 650                 -                  -                      -               789,114
                Subtotal Earned Revenues                                9,513         1,002,609                  -             32,322         722,217          813,186              91,300                 -                  -            (1,123,450)             1,547,697
                Subtotal Net Cost of Operations            $        1,663,899   $     4,856,109   $       30,396     $    2,648,313     $    2,206,788   $    3,090,567   $    1,176,749     $         6,613   $              -   $                  -   $        15,679,434

         Goal 3: Ensure the Fair and Efficient Administration of Justice
            Gross Cost - Intragovernmental                 $                -   $     1,736,875   $       546,964    $       65,346     $            -   $            -   $              -   $    1,629,744    $     163,202      $        (1,813,663) $           2,328,468
            Gross Cost - With the Public                                    -           705 044         2 627 882           988 930                  -                -                  -        5 583 621          779 713                         -            10 685 190
               Subtotal Gross Costs                                         -         2,441,919         3,174,846         1,054,276                  -                -                  -        7,213,365          942,915               (1,813,663)            13,013,658
            Earned Revenues - Intragovernmental                             -          158,055          1,581,441              10,440                -                -                  -          15,252           800,498      $        (1,788,199)               777,487
            Earned Revenues - With the Public                               -           45,456              2,519                   -                -                -                  -         370,424           104,185                         -               522,584
                Subtotal Earned Revenues                                    -          203,511          1,583,960              10,440                -                -                  -         385,676           904,683               (1,788,199)             1,300,071
                Subtotal Net Cost of Operations            $                -   $     2,238,408   $     1,590,886    $    1,043,836     $            -   $            -   $              -   $    6,827,689    $         38,232   $          (25,464) $           11,713,587



         Total Net Cost of Operations                      $        1,663,899   $     7,356,633   $     1,627,766    $    3,692,149     $    2,312,177   $    7,953,014   $    1,182,398     $    6,834,302    $         38,232   $           (25,464) $          32,635,106




- 96 -
                                                                                                                             U. S. Department of Justice

                                                                                                                         Consolidating Statement of Net Cost

                                                                                                                    For the Fiscal Year Ended September 30, 2010


         Dollars in Thousands                                       AFF/SADF               OBDs              USMS               OJP                DEA                FBI              ATF                BOP               FPI                Eliminations             Consolidated

         Goal 1: Prevent Terrorism and Promote the Nation's Security
            Gross Cost - Intragovernmental                     $                   -   $       82,443    $          5,159   $              -   $      24,424      $    1,358,631   $              -   $             -   $              -   $           (112,397) $            1,358,260
            Gross Cost - With the Public                                           -          277,500                   -                  -          75,891           3,826,696              7,185                 -                  -                      -               4,187,272
               Subtotal Gross Costs                                                -          359,943               5,159                  -         100,315           5,185,327              7,185                 -                  -               (112,397)              5,545,532
            Earned Revenues - Intragovernmental                                    -           90,793                   -                  -               632          495,393                   -                 -                  -                (112,397)              474,421
            Earned Revenues - With the Public                                      -           19,439                   -                  -                 -           12,603                   -                 -                  -                       -                32,042
               Subtotal Earned Revenues                                            -          110,232                   -                  -               632          507,996                   -                 -                  -                (112,397)              506,463
               Subtotal Net Cost of Operations                 $                   -   $      249,711    $          5,159   $              -   $         99,683   $    4,677,331   $          7,185   $             -   $              -   $                   -    $         5,039,069

         Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
            Gross Cost - Intragovernmental                      $            382,798   $     1,799,980   $          4,872   $      140,429     $      836,028     $    1,007,910   $      365,344     $             -   $              -   $          (1,073,345) $           3,464,016
            Gross Cost - With the Public                                     908,944         3,963,457                  -        2,617,542          1,965,174          2,838,860          900,590               6,860                  -                        -            13,201,427
               Subtotal Gross Costs                                        1,291,742         5,763,437              4,872        2,757,971          2,801,202          3,846,770        1,265,934               6,860                  -              (1,073,345)            16,665,443
            Earned Revenues - Intragovernmental                                7,324          563,603                   -             49,844         482,951            631,012              90,417                 -                  -              (1,073,345)               751,806
            Earned Revenues - With the Public                                      -          404,621                   -                  7         194,719            136,198                 742                 -                  -                        -               736,287
               Subtotal Earned Revenues                                        7,324          968,224                   -             49,851         677,670            767,210              91,159                 -                  -              (1,073,345)             1,488,093
               Subtotal Net Cost of Operations                 $           1,284,418   $     4,795,213   $          4,872   $    2,708,120     $    2,123,532     $    3,079,560   $    1,174,775     $         6,860   $              -   $                   -    $        15,177,350

         Goal 3: Ensure the Fair and Efficient Administration of Justice
               Gross Cost - Intragovernmental                  $                   -   $     1,535,834   $       523,823    $      56,647      $              -   $            -   $              -   $    1,513,891    $     180,239      $          (1,697,058) $           2,113,376
               Gross Cost - With the Public                                        -           734,095         2,492,351          931,583                     -                -                  -        5,507,868          770,900                           -            10,436,797
                  Subtotal Gross Costs                                             -         2 269 929         3 016 174          988 230                     -                -                  -        7 021 759          951 139                 (1 697 058)            12 550 173
               Earned Revenues - Intragovernmental                                 -          141,722          1,511,198              26,252                  -                -                  -          12,903           778,579                 (1,669,610)               801,044
               Earned Revenues - With the Public                                   -           39 082              2 905                   -                  -                -                  -         359 296            78 963                           -               480 246
                  Subtotal Earned Revenues                                         -          180,804          1,514,103              26,252                  -                -                  -         372,199           857,542                 (1,669,610)             1,281,290
                  Subtotal Net Cost of Operations              $                   -   $     2,089,125   $     1,502,071    $     961,978      $              -   $            -   $              -   $    6,649,560    $         93,597   $             (27,448) $          11,268,883


         Total Net Cost of Operations                          $           1,284,418   $     7,134,049   $     1,512,102    $    3,670,098     $    2,223,215     $    7,756,891   $    1,181,960     $    6,656,420    $         93,597   $             (27,448) $          31,485,302




- 97 -
                                                                                                       U. S. Department of Justice

                                                                                            Consolidating Statement of Changes in Net Position

                                                                                              For the Fiscal Year Ended September 30, 2011


         Dollars in Thousands                         AFF/SADF           OBDs                 USMS               OJP               DEA                 FBI               ATF                 BOP                 FPI           Eliminations           Consolidated

         Unexpended Appropriations
           Beginning Balances
              Earmarked Funds                     $              -   $       19,585     $              -     $            -    $            -      $            -    $            -      $            -      $         -   $                  -   $           19,585
              All Other Funds                                    -        3,979,216              328,900          5,571,977           559,167           2,255,206           202,183             894,623                -                      -           13,791,272

           Budgetary Financing Sources
              Appropriations Received
                 Earmarked Funds                                 -           71,746                     -                 -                 -                   -                 -                   -                -                      -               71,746
                 All Other Funds                                 -        6,901,999             1,142,388         1,893,160         2,019,682           7,941,932         1,114,772           6,394,155                -                      -           27,408,088
              Appropriations Transferred-In/Out
                 All Other Funds                                 -         (187,823)             388,191           200,344               71,029           (61,176)             (7,892)             (1,834)             -                      -              400,839
              Other Adjustments
                 Earmarked Funds                                 -             (326)                    -                 -                   -                 -                   -                 -                -                      -                 (326)
                 All Other Funds                                 -          (23,338)               (2,285)          (45,365)             (4,039)          (15,884)             (2,231)          (12,788)               -                      -             (105,930)
              Appropriations Used
                 Earmarked Funds                                 -           (69,278)                   -                 -                  -                  -                  -                   -               -                      -               (69,278)
                 All Other Funds                                 -        (7,197,692)          (1,600,101)       (3,014,146)        (2,142,076)        (7,925,566)        (1,132,622)         (6,529,485)              -                      -           (29,541,688)
           Total Financing Sources
              Earmarked Funds                                    -            2,142                     -                 -                 -                   -                 -                   -                -                      -                 2,142
              All Other Funds                                    -         (506,854)              (71,807)         (966,007)          (55,404)            (60,694)          (27,973)           (149,952)               -                      -            (1,838,691)

           Net Change
              Earmarked Funds                                    -            2,142                     -                 -                 -                   -                 -                   -                -                      -                 2,142
              All Other Funds                                    -         (506,854)              (71,807)         (966,007)          (55,404)            (60,694)          (27,973)           (149,952)               -                      -            (1,838,691)

           Ending Balances
              Earmarked Funds                                    -           21,727                    -                  -                 -                   -                 -                   -                -                      -               21,727
              All Other Funds                                    -        3,472,362              257,093          4,605,970           503,763           2,194,512           174,210             744,671                -                      -           11,952,581
           Total All Funds                        $              -   $    3,494,089     $        257,093     $    4,605,970    $      503,763      $    2,194,512    $      174,210      $      744,671      $         -   $                  -   $       11,974,308




- 98 -
                                                                                                                          U. S. Department of Justice

                                                                                                         Consolidating Statement of Changes in Net Position - Continued

                                                                                                                 For the Fiscal Year Ended September 30, 2011


         Dollars in Thousands                                              AFF/SADF             OBDs            USMS                OJP                DEA             FBI                 ATF                BOP                 FPI                  Eliminations           Consolidated

         Cumulative Results of Operations
           Beginning Balances
              Earmarked Funds                                          $      1,687,400     $      171,475 $              -     $    5,866,596     $     (159,279) $            -      $              -   $       69,853      $           -        $                  -   $        7,636,045
              All Other Funds                                                         -           (142,839)         137,022             12,217             80,998       2,413,112                29,258        5,147,049            391,834                           -            8,068,651

           Beginning Balances, as Adjusted
              Earmarked Funds                                                 1,687,400            171,475                 -         5,866,596           (159,279)                -                   -             69,853                    -                       -            7,636,045
              All Other Funds                                                          -          (142,839)         137,022               12,217             80,998     2,413,112                29,258        5,147,049            391,834                           -            8,068,651

           Budgetary Financing Source
              Other Ajustments
                 All Other Funds                                                       -           (26,000)                -                   -                  -               -                   -                  -                    -                       -               (26,000)
              Appropriations Used
                 Earmarked Funds                                                       -            69,278                 -                 -                  -               -                   -                  -                      -                       -               69,278
                 All Other Funds                                                       -         7,197,692         1,600,101         3,014,146          2,142,076       7,925,566           1,132,622          6,529,485                      -                       -           29,541,688
              Nonexchange Revenues
                 Earmarked Funds                                                  4,596                1,070               -         1,998,221                    -               -                   -                  -                    -                       -            2,003,887
                 All Other Funds                                                      -                    -               -               508                    -               -                   -                  -                    -                       -                  508
              Donations and Forfeitures of Cash and Cash Equivalents
                 Earmarked Funds                                              1,580,584                    -               -                   -                  -               -                   -                  -                    -                       -            1,580,584
              Transfers-In/Out Without Reimbursement
                 All Other Funds                                                       -           113,735                 -                   -                  -               -                   -                  -                    -                       -              113,735

           Other Financing Sources
              Donations and Forfeitures of Property
                 Earmarked Funds                                                157,381                    -               -                   -                  -               -                   -                 -                     -                       -              157,381
                 All Other Funds                                                      -                    -               -                   -                  -               -                   -               226                     -                       -                  226
              Transfers-In/Out Without Reimbursement
                 Earmarked Funds                                                  (6,120)                -                -                    -                  -               -                   -                (72)                  -                        -               (6,192)
                 All Other Funds                                                       -           (53,304)             162               10,600             14,358          74,270               3,153              1,485                  24                        -               50,748
              Imputed Financing from Costs Absorbed by Others
                 Earmarked Funds                                                    602              1,365                -                    -              9,396            -                      -            4,706                     -                      -                 16,069
                 All Other Funds                                                      -            220,246           55,646                5,265             79,833      305,129                 47,544          257,818                36,399                (25,464)               982,416
              Other Financing Sources




- 99 -
                 All Other Funds                                                       -                   -               -                   -                  -          (4 613)                  -                  -                    -                       -                (4 613)
           Total Financing Sources
              Earmarked Funds                                                 1,737,043             71,713                 -         1,998,221              9,396               -                   -              4,634                     -                      -              3,821,007
              All Other Funds                                                         -          7,452,369         1,655,909         3,030,519          2,236,267       8,300,352           1,183,319          6,789,014                36,423                (25,464)            30,658,708

           Net Cost of Operations
              Earmarked Funds                                                 (1,663,899)             9,441                -          (662,569)            (82,279)             -                    -              9,070                     -                     -              (2,390,236)
              All Other Funds                                                          -         (7,366,074)      (1,627,766)       (3,029,580)         (2,229,898)    (7,953,014)          (1,182,398)        (6,843,372)              (38,232)               25,464             (30,244,870)

           Net Change
              Earmarked Funds                                                    73,144             81,154                -          1,335,652            (72,883)             -                     -            13,704                      -                       -            1,430,771
              All Other Funds                                                         -             86,295           28,143                939              6,369        347,338                   921           (54,358)                (1,809)                      -              413,838

           Ending Balances
              Earmarked Funds                                                 1,760,544            252,629                -          7,202,248           (232,162)              -                     -           83,557                  -                           -            9,066,816
              All Other Funds                                                         -            (56,544)         165,165             13,156             87,367       2,760,450                30,179        5,092,691            390,025                           -            8,482,489
           Total All Funds                                             $      1,760,544     $      196,085 $        165,165     $    7,215,404     $     (144,795) $    2,760,450      $         30,179   $    5,176,248      $     390,025        $                  -   $       17,549,305
                                                                                                    U. S. Department of Justice

                                                                                         Consolidating Statement of Changes in Net Position

                                                                                           For the Fiscal Year Ended September 30, 2010

          Dollars in Thousands                         AFF/SADF           OBDs               USMS               OJP               DEA               FBI                ATF                 BOP               FPI           Eliminations           Consolidated

          Unexpended Appropriations
            Beginning Balances
               Earmarked Funds                     $              -   $       22,207     $            -     $            -    $           -     $            -     $           -       $            -    $         -   $                  -   $           22,207
               All Other Funds                                    -        3,782,236            222,502          5,951,999          540,670          2,114,589           183,607            1,106,922              -                      -           13,902,525
            Beginning Balances, as Adjusted
               Earmarked Funds                                    -           22,207                  -                  -                -                  -                 -                    -              -                      -               22,207
               All Other Funds                                    -        3,782,236            222,502          5,951,999          540,670          2,114,589           183,607            1,106,922              -                      -           13,902,525

            Budgetary Financing Sources
               Appropriations Received
                  Earmarked Funds                                 -           90,312                   -                 -                 -                 -                  -                   -              -                      -               90,312
                  All Other Funds                                 -        7,220,403           1,190,039         2,501,851         2,053,353         7,922,537          1,158,272           6,205,386              -                      -           28,251,841
               Appropriations Transferred-In/Out
                  All Other Funds                                 -         (209,609)           393,936           200,453            39,756               90,116             (3,318)             (818)             -                      -              510,516
               Other Adjustments
                  Earmarked Funds                                 -           (9,001)                  -                 -                 -                 -                    -                 -              -                      -               (9,001)
                  All Other Funds                                 -          (40,750)                  -           (54,000)                -           (50,000)                   -                 -              -                      -             (144,750)
               Appropriations Used
                  Earmarked Funds                                 -           (83,933)                 -                 -                 -                 -                  -                   -              -                      -               (83,933)
                  All Other Funds                                 -        (6 773 064)        (1 477 577)       (3 028 326)       (2 074 612)       (7 822 036)        (1 136 378)         (6 416 867)             -                      -           (28 728 860)
            Total Financing Sources
               Earmarked Funds                                    -           (2,622)                 -                 -                 -                 -                     -                -               -                      -               (2,622)
               All Other Funds                                    -          196,980            106,398          (380,022)           18,497           140,617                18,576         (212,299)              -                      -             (111,253)

            Net Change
               Earmarked Funds                                    -           (2,622)                 -                 -                 -                 -                     -                -               -                      -               (2,622)
               All Other Funds                                    -          196 980            106 398          (380 022)           18 497           140 617                18 576         (212 299)              -                      -             (111 253)

            Ending Balances
               Earmarked Funds                                    -           19,585                  -                  -                -                  -                 -                   -               -                      -               19,585
               All Other Funds                                    -        3,979,216            328,900          5,571,977          559,167          2,255,206           202,183             894,623               -                      -           13,791,272
            Total All Funds                        $              -   $    3,998,801     $      328,900     $    5,571,977    $     559,167     $    2,255,206     $     202,183       $     894,623     $         -   $                  -   $       13,810,857




- 100 -
                                                                                                                          U. S. Department of Justice

                                                                                                        Consolidating Statement of Changes in Net Position - Continued

                                                                                                                For the Fiscal Year Ended September 30, 2010

          Dollars in Thousands                                              AFF/SADF             OBDs               USMS               OJP                DEA            FBI                ATF                 BOP               FPI                 Eliminations           Consolidated

          Cumulative Results of Operations
            Beginning Balances
               Earmarked Funds                                          $      1,425,883     $      119,668     $            -     $    4,112,981     $    (100,558) $            -     $              -    $       73,049    $           -       $                  -   $        5,631,023
               All Other Funds                                                         -             29,192            132,920             15,014            85,653       1,923,897               33,169         5,160,967          448,162                          -            7,828,974

            Beginning Balances, as Adjusted
               Earmarked Funds                                                 1,425,883            119,668                  -          4,112,981          (100,558)              -                    -            73,049                -                          -            5,631,023
               All Other Funds                                                         -             29,192            132,920             15,014            85,653       1,923,897               33,169         5,160,967          448,162                          -            7,828,974

            Budgetary Financing Sources
               Appropriations Used
                  Earmarked Funds                                                       -            83,933                  -                  -                  -              -                  -                   -                   -                       -               83,933
                  All Other Funds                                                       -         6,773,064          1,477,577          3,028,326          2,074,612      7,822,036          1,136,378           6,416,867                   -                       -           28,728,860
               Nonexchange Revenues
                  Earmarked Funds                                                  3,864                 319                   -        2,362,338                   -               -                  -                  -                  -                       -            2,366,521
                  All Other Funds                                                      -                   -                   -              932                   -               -                  -                  -                  -                       -                  932
               Donations and Forfeitures of Cash and Cash Equivalents
                  Earmarked Funds                                              1,502,466                   -                   -                  -                 -               -                  -                  -                  -                       -            1,502,466
               Transfers-In/Out Without Reimbursement
                  All Other Funds                                                       -            75,097                    -                                    -               -                  -                  -                  -                       -               75,097

            Other Financing Sources
               Donations and Forfeitures of Property
                  Earmarked Funds                                                 70,864                   -                   -                  -                 -               -                  -                 -                   -                       -               70,864
                  All Other Funds                                                      -                   -                   -                  -                 -               -                  -               340                   -                       -                  340
               Transfers-In/Out Without Reimbursement
                  Earmarked Funds                                                (31,259)                 -                   -                   -                86               -                  -                  -                  -                       -               (31,173)
                  All Other Funds                                                      -            (81,783)                186              24,608             9,432          69,206              2,407              5,394               (166)                      -                29,284
               Imputed Financing from Costs Absorbed by Others
                  Earmarked Funds                                                       -             1,301                  -                    -           6,969              -                     -            3,891                    -                     -                 12,161
                  All Other Funds                                                       -           161 894             38 441                4 712          68 740        354 864                39 264          212 814               37 435               (27 448)               890 716

            Total Financing Sources
               Earmarked Funds                                                 1,545,935             85,553                  -          2,362,338              7,055              -                  -               3,891                   -                     -              4,004,772
               All Other Funds                                                         -          6,928,272          1,516,204          3,058,578          2,152,784      8,246,106          1,178,049           6,635,415              37,269               (27,448)            29,725,229

            Net Cost of Operations
               Earmarked Funds                                                 (1,284,418)           (33,746)                 -          (608,723)           (65,776)             -                  -              (7,087)               -                        -              (1,999,750)
               All Other Funds                                                          -         (7 100 303)        (1 512 102)       (3 061 375)        (2 157 439)    (7 756 891)        (1 181 960)         (6 649 333)         (93 597)                  27 448             (29 485 552)




- 101 -
            Net Change
               Earmarked Funds                                                   261,517             51,807                    -        1,753,615            (58,721)            -                     -            (3,196)               -                          -            2,005,022
               All Other Funds                                                         -           (172,031)               4,102           (2,797)            (4,655)      489,215                (3,911)          (13,918)         (56,328)                         -              239,677

            Ending Balances
               Earmarked Funds                                                 1,687,400            171,475                  -          5,866,596          (159,279)              -                    -            69,853                -                          -            7,636,045
               All Other Funds                                                         -           (142,839)           137,022             12,217            80,998       2,413,112               29,258         5,147,049          391,834                          -            8,068,651
            Total All Funds                                             $      1,687,400     $       28,636 $          137,022     $    5,878,813     $     (78,281) $    2,413,112     $         29,258    $    5,216,902    $     391,834       $                  -   $       15,704,696
                                                                                                     U. S. Department of Justice

                                                                                            Combining Statement of Budgetary Resources

                                                                                            For the Fiscal Year Ended September 30, 2011


          Dollars in Thousands                                          AFF/SADF            OBDs               USMS                 OJP                DEA               FBI                  ATF                 BOP                 FPI             Combined


          Budgetary Resources

            Unobligated Balance, Net, Brought Forward, October 1    $      1,010,179    $       929,953    $      133,375       $      232,500     $     223,391     $      946,877       $     110,131       $     377,906       $     74,986    $        4,039,298

            Recoveries of Prior Year Unpaid Obligations                       83,669            206,483            64,819                 54,156         102,053            216,564              21,159                  4,539               -              753,442

            Budget Authority
                Appropriations Received                                    2,097,810          7,255,995          1,142,388           8,692,854          2,262,356         7,941,932            1,114,772           6,394,155                 -            36,902,262
                Spending Authority from Offsetting Collections
                    Earned
                       Collected                                              11,665          2,095,196          1,576,541                62,049         529,938          1,307,280              95,965             384,112            994,091             7,056,837
                       Change in Receivables from Federal Sources                624             43,636             16,620                    87           4,563             19,410                (488)              1,768              9,141                95,361
                    Change in Unfilled Customer Orders
                       Advance Received                                            -             (8,150)            (3,869)            (28,370)               (28)              771                    -                (201)          (98,549)             (138,396)
                       Without Advance from Federal Sources                       20            (21,863)             6,998                (517)           (29,182)           (5,967)             (10,057)              2,769                 -               (57,799)
            Subtotal Budget Authority                                      2,110,119          9,364,814          2,738,678           8,726,103          2,767,647         9,263,426            1,200,192           6,782,603           904,683            43,858,265

            Nonexpenditure Transfers, Net, Anticipated and Actual                  -            (74,088)          388,191              200,344            71,029               (61,176)             (7,892)             (1,834)              -              514,574

            Temporarily not Available Pursuant to Public Law                (495,042)              (439)                   -         (6,099,743)                -                    -                   -                   -               -            (6,595,224)

            Permanently not Available                                              -            (57,709)              (2,285)          (45,654)            (4,039)             (15,884)             (2,231)          (12,788)                -              (140,590)
          Total Budgetary Resources                                 $      2,708,925    $    10,369,014    $    3,322,778       $   3,067,706      $   3,160,081     $   10,349,807       $   1,321,359       $   7,150,426       $    979,669    $      42,429,765

          Status of Budgetary Resources

            Obligations Incurred
                Direct                                              $      1,615,962    $     7,259,310    $     1,622,322      $    2,848,111     $    2,492,777    $    8,101,889       $    1,174,282      $    6,725,968      $          -    $       31,840,621
                Reimbursable                                                   4,244          2,295,381          1,610,059              32,133            509,012         1,300,384               86,110              44,645           824,853             6,706,821
                       Total Obligations Incurred                          1,620,206          9,554,691          3,232,381           2,880,244          3,001,789         9,402,273            1,260,392           6,770,613           824,853            38,547,442

            Unobligated Balance - Available




- 102 -
               Apportioned                                                   635,227            554,020            57,730              169,067           118,503            594,313              38,931             258,217                  -             2,426,008
               Exempt from Apportionment                                           -                  -                 -                    -                 -                  -                   -              56,381            154,816               211,197
                      Total Unobligated Balance - Available                  635,227            554,020            57,730              169,067           118,503            594,313              38,931             314,598            154,816             2,637,205

            Unobligated Balance not Available                                453,492            260,303            32,667                 18,395          39,789            353,221              22,036                 65,215               -             1,245,118

          Total Status of Budgetary Resources                       $      2,708,925    $    10,369,014    $    3,322,778       $   3,067,706      $   3,160,081     $   10,349,807       $   1,321,359       $   7,150,426       $    979,669    $      42,429,765
                                                                                                                       U. S. Department of Justice

                                                                                                         Combining Statement of Budgetary Resources - Continued

                                                                                                             For the Fiscal Year Ended September 30, 2011


          Dollars in Thousands                                                            AFF/SADF            OBDs                USMS               OJP                DEA              FBI                  ATF              BOP                 FPI             Combined


          Change in Obligated Balance

            Obligated Balance, Net - Brought Forward, October 1
                Unpaid Obligations                                                    $        982,679    $      4,874,461    $      708,551     $    5,510,847     $     777,043    $    3,221,811       $     226,043    $    1,185,212      $    272,682    $       17,759,329
                Less Uncollected Customer Payments from Federal Sources                          4 245             794 774           165 214             25 666           181 976           479 261              70 398             6 345            25 219             1 753 098
                   Total Unpaid Obligated Balance, Net - Brought Forward, October 1            978,434           4,079,687           543,337          5,485,181           595,067         2,742,550             155,645         1,178,867           247,463            16,006,231

            Obligations Incurred                                                             1,620,206           9,554,691          3,232,381         2,880,244          3,001,789        9,402,273            1,260,392        6,770,613           824,853            38,547,442

            Less Gross Outlays                                                               1,426,916           9,658,520          3,227,503         3,311,068          2,964,749        9,242,252            1,219,844        6,899,342           926,480            38,876,674

            Less Recoveries of Prior Year Unpaid Obligations, Actual                            83,669            206,483             64,819               54,156         102,053          216,564               21,159              4,539                -              753,442

            Change in Uncollected Customer Payments from
                Federal Sources                                                                   (644)            (21,773)           (23,618)               430           24,619              (13,443)          10,545              (4,537)         (9,141)              (37,562)

            Obligated Balance, Net - End of Period
                Unpaid Obligations                                                           1,092,300           4,564,149           648,610          5,025,867           712,030         3,165,268             245,431         1,051,944           171,055            16,676,654
                Less Uncollected Customer Payments from Federal Sources                          4,889             816,547           188,832             25,236           157,357           492,704              59,852            10,882            34,360             1,790,659
                       Total Unpaid Obligated Balance, Net - End of Period            $      1 087 411    $      3 747 602    $      459 778     $    5 000 631     $     554 673    $    2 672 564       $     185 579    $    1 041 062      $    136 695    $       14 885 995

          Outlays
            Gross Outlays                                                             $      1,426,916    $      9,658,520    $     3,227,503    $    3,311,068     $    2,964,749   $    9,242,252 $          1,219,844   $    6,899,342      $    926,480    $       38,876,674
            Less Offsetting Collections                                                         11,665           2,087,046          1,572,672            33,683            529,910        1,308,051               95,965          383,911           895,542             6,918,445
            Less Distributed Offsetting Receipts                                                 4 596             777 312                  -               206            243 616           (7 284)               3 892            3 306                 -             1 025 644

          Total Net Outlays                                                           $      1,410,655    $      6,794,162    $     1,654,831    $    3,277,179     $    2,191,223   $    7,941,485       $    1,119,987   $    6,512,125      $     30,938    $       30,932,585




- 103 -
                                                                                                       U. S. Department of Justice

                                                                                              Combining Statement of Budgetary Resources

                                                                                              For the Fiscal Year Ended September 30, 2010


          Dollars in Thousands                                          AFF/SADF            OBDs               USMS               OJP                DEA                FBI                  ATF                 BOP                 FPI             Combined


          Budgetary Resources

            Unobligated Balance, Net, Brought Forward, October 1           1,195,445           653,984             75,661            224,290            323,879          1,060,034                 82,195           372,051            59,313    $       4,046,852

            Recoveries of Prior Year Unpaid Obligations                       67,328           225,639             66,898               66,225          129,127            166,563                 38,221               6,845               -              766,846


            Budget Authority
               Appropriations Received                                     1,554,993          7,589,965          1,190,039         4,864,189          2,284,189          7,922,537             1,158,272          6,205,386                 -           32,769,570
               Spending Authority from Offsetting Collections
                  Earned
                      Collected                                               10,073          2,135,632          1,592,758           129,382            537,802          1,338,006                 81,707           374,407           872,217            7,071,984
                      Change in Receivables from Federal Sources                 223            (44,709)           (39,937)           (3,489)           (33,532)             1,699                  9,679            (2,005)          (21,579)            (133,650)
                  Change in Unfilled Customer Orders
                      Advance Received                                             -              7,520              4,475           (83,090)                25             17,463                     -               (203)            6,904              (46,906)
                      Without Advance from Federal Sources                         -             92,950            (18,314)            4,745             (5,407)          (106,807)                1,509                  -                 -              (31,324)
            Subtotal Budget Authority                                      1,565,289          9,781,358          2,729,021         4,911,737          2,783,077          9,172,898             1,251,167          6,577,585           857,542           39,629,674

            Nonexpenditure Transfers, Net, Anticipated and Actual                  -          (134,512)           393,936            200,453               39,756             90,116               (3,318)               (818)              -              585,613

            Temporarily not Available Pursuant to Public Law                (387,200)                 -                  -         (1,654,425)                  -                   -                   -                   -               -            (2,041,625)

            Permanently not Available                                              -            (50,303)                 -           (54,000)                   -             (50,000)                  -                   -               -             (154,303)
          Total Budgetary Resources                                 $      2,440,862    $   10,476,166     $    3,265,516     $   3,694,280      $    3,275,839     $   10,439,611       $    1,368,265      $    6,955,663      $    916,855    $      42,833,057

          Status of Budgetary Resources

            Obligations Incurred
              Direct                                                $      1,423,309    $     7,327,826    $     1,569,307    $    3,434,149     $    2,532,674     $    8,278,414       $     1,155,484     $    6,536,140      $          -    $      32,257,303
              Reimbursable                                                     7 374          2 218 387          1 562 834            27 631            519 774          1 214 320               102 650             41 617           841 869            6 536 456
                     Total Obligations Incurred                            1,430,683          9,546,213          3,132,141         3,461,780          3,052,448          9,492,734             1,258,134          6,577,757           841,869           38,793,759




- 104 -
            Unobligated Balance - Available
              Apportioned                                                    669,036           667,416             97,391            208,972            195,008            547,896                 53,461           300,013                 -            2,739,193
              Exempt from Apportionment                                            -                 -                  -                  -                  -                  -                      -            45,030            74,986              120,016
                     Total Unobligated Balance - Available                   669,036           667,416             97,391            208,972            195,008            547,896                 53,461           345,043            74,986            2,859,209

            Unobligated Balance not Available                                341,143           262,537             35,984               23,528             28,383          398,981                 56,670              32,863               -            1,180,089

          Total Status of Budgetary Resources                       $      2,440,862    $   10,476,166     $    3,265,516     $   3,694,280      $    3,275,839     $   10,439,611       $    1,368,265      $    6,955,663      $    916,855    $      42,833,057
                                                                                                                           U. S. Department of Justice

                                                                                                             Combining Statement of Budgetary Resources - Continued

                                                                                                                 For the Fiscal Year Ended September 30, 2010


          Dollars in Thousands                                                           AFF/SADF              OBDs               USMS              OJP                 DEA                FBI              ATF                  BOP               FPI            Combined


          Change in Obligated Balance

            Obligated Balance, Net - Brought Forward, October 1
              Unpaid Obligations                                                              919,387            4,771,602           634,587         5,959,947             687,246          2,810,122             238,351         1,352,082         273,044   $      17,646,368
              Less Uncollected Customer Payments from Federal Sources                           4,022              746,533           223,465            24,410             220,915            584,369              59,209             8,350          46,798           1,918,071
                  Total Unpaid Obligated Balance, Net - Brought Forward, October 1            915,365            4,025,069           411,122         5,935,537             466,331          2,225,753             179,142         1,343,732         226,246          15,728,297

            Obligations Incurred                                                            1,430,683            9,546,213          3,132,141        3,461,780           3,052,448          9,492,734         1,258,134           6,577,757         841,869          38,793,759

            Less Gross Outlays                                                              1,300,063            9,217,715          2,991,279        3,844,655           2,833,524          8,914,482         1,232,222           6,737,782         842,231          37,913,953


            Less Recoveries of Prior Year Unpaid Obligations, Actual                           67,328              225,639            66,898              66,225           129,127           166,563               38,221              6,845              -             766,846

            Change in Uncollected Customer Payments from
              Federal Sources                                                                    (223)             (48,241)           58,251              (1,256)             38,939         105,108              (11,188)             2,005         21,579             164,974

            Obligated Balance, Net - End of Period
              Unpaid Obligations                                                              982,679            4,874,461           708,551         5,510,847             777,043          3,221,811             226,043         1,185,212         272,682          17,759,329
              Less Uncollected Customer Payments from Federal Sources                           4 245              794 774           165 214            25 666             181 976            479 261              70 398             6 345          25 219           1 753 098
                     Total Unpaid Obligated Balance, Net - End of Period             $        978,434    $       4,079,687    $      543,337    $    5,485,181      $      595,067     $    2,742,550   $         155,645    $    1,178,867    $    247,463   $      16,006,231

          Outlays
            Gross Outlays                                                            $      1,300,063    $       9,217,715    $     2,991,279   $    3,844,655      $    2,833,524     $    8,914,482   $     1,232,222      $    6,737,782    $    842,231   $      37,913,953
            Less Offsetting Collections                                                        10,073            2,143,152          1,597,233           46,292             537,827          1,355,469            81,707             374,204         879,120           7,025,077
            Less Distributed Offsetting Receipts                                                3,864              691,754                  -              242             231,967                253               622              12,666               -             941,368
          Total Net Outlays                                                          $      1,286,126    $       6,382,809    $    1,394,046    $   3,798,121       $    2,063,730     $   7,558,760    $    1,149,893       $    6,350,912    $    (36,889) $       29,947,508




- 105 -
                                                                                                                   U. S. Department of Justice

                                                                                                           Combining Statement of Custodial Activity

                                                                                                          For the Fiscal Year Ended September 30, 2011


          Dollars in Thousands                                               AFF/SADF           OBDs               USMS           OJP           DEA                FBI           ATF                BOP           FPI           Combined


          Revenue Activity

          Sources of Cash Collections
             Delinquent Federal Civil Debts as Required by the Federal
                Debt Recovery Act of 1986                                $              -   $     5,222,083    $          -   $         -   $              -   $         -   $              -   $         -   $         -   $       5,222,083
             Fees and Licenses                                                          -                  -              -             -             15,000             -             17,437             -             -              32,437
             Fines, Penalties and Restitution Payments - Civil                          -                  -              -             -             82,268             -                 20             -             -              82,288
             Fines, Penalties and Restitution Payments - Criminal                       -            38,255               -             -                  -             -                 95             -             -              38,350
             Miscellaneous                                                              -                59               -             -                  -             -              3,892             -             -               3,951

                Total Cash Collections                                   $              -   $     5,260,397    $          -   $         -   $         97,268   $         -   $         21,444   $         -   $         -   $       5,379,109

          Accrual Adjustments                                                           -                  -              -             -              3,617             -                26              -             -               3,643

          Total Custodial Revenue                                        $              -   $     5,260,397    $          -   $         -   $     100,885      $         -   $         21,470   $         -   $         -   $       5,382,752

          Disposition of Collections
             Transferred to Federal Agencies
                 U.S. Department of Agriculture                                         -           (96,346)              -             -               -                -               -                -             -             (96,346)
                 U.S. Department of Commerce                                            -            (5,103)              -             -               -                -               -                -             -               (5,103)
                 U.S. Department of the Interior                                        -           (29,959)              -             -               -                -               -                -             -             (29,959)
                 U.S. Department of Justice                                             -           (81,181)              -             -               -                -               -                -             -             (81,181)
                 U.S. Department of Labor                                               -              (736)              -             -                -               -               -                -             -                 (736)
                 U.S. Postal Service                                                    -            (4,362)              -             -                -               -               -                -             -               (4,362)
                 U.S. Department of State                                               -            (8,535)              -             -                -               -               -                -             -               (8,535)
                 U.S. Department of the Treasury                                        -          (130,778)              -             -         (97,268)               -         (21,138)               -             -            (249,184)
                 Office of Personnel Management                                         -           (58,144)              -             -                -               -                -               -             -              (58,144)
                 Federal Communications Commission                                      -           (14,727)              -             -               -                -               -                -             -             (14,727)
                 Social Security Administration                                         -            (2,726)              -             -               -                -               -                -             -               (2,726)
                 Smithsonian Institution                                                -              (190)              -             -               -                -               -                -             -                 (190)
                 U.S. Department of Veterans Affairs                                    -           (28,703)              -             -               -                -               -                -             -             (28,703)




- 106 -
                 General Services Administration                                        -           (88,447)              -             -               -                -               -                -             -             (88,447)
                 Securities and Exchange Commission                                     -                (3)              -             -               -                -               -                -             -                   (3)
                 Federal Deposit Insurance Corporation                                  -               (71)              -             -               -                -               -                -             -                  (71)
                 Railroad Retirement Board                                              -              (100)              -             -               -                -               -                -             -                 (100)
                 Environmental Protection Agency                                        -          (341,267)              -             -               -                -               -                -             -            (341,267)
                 U.S. Department of Transportation                                      -            (7,236)              -             -               -                -               -                -             -               (7,236)
                 U.S. Department of Homeland Security                                   -           (66,843)              -             -               -                -               -                -             -             (66,843)
                 Agency for International Development                                   -           (22,233)              -             -               -                -               -                -             -             (22,233)
                 Small Business Administration                                          -           (10,447)              -             -               -                -               -                -             -             (10,447)
                 U.S. Department of Health and Human Services                           -        (2,001,923)              -             -               -                -               -                -             -          (2,001,923)
                 National Aeronautics and Space Administration                          -            (3,792)              -             -               -                -               -                -             -               (3,792)
                 Export-Import Bank of the United States                                -           (24,643)              -             -               -                -               -                -             -             (24,643)
                 U.S. Department of Housing and Urban Development                       -           (11,099)              -             -               -                -               -                -             -             (11,099)
                 U.S. Department of Energy                                              -            (2,093)              -             -               -                -               -                -             -               (2,093)
                 U.S. Department of Education                                           -           (55,431)              -             -               -                -               -                -             -             (55,431)
                 Independent Agencies                                                   -           (67,264)              -             -               -                -               -                -             -             (67,264)
                 Treasury General Fund                                                  -          (618,814)              -             -               -                -               -                -             -            (618,814)
                 U.S. Department of Defense                                             -          (173,894)              -             -               -                -               -                -             -            (173,894)
             Transferred to the Public                                                  -          (516,597)              -             -               -                -               -                -             -            (516,597)
             (Increase)/Decrease in Amounts Yet to be Transferred                       -          (304,330)              -             -          (3,617)               -               -                -             -            (307,947)
             Refunds and Other Payments                                                 -          (364,312)              -             -               -                -            (332)               -             -            (364,644)
             Retained by the Reporting Entity                                           -          (118,068)              -             -               -                -               -                -             -            (118,068)

          Net Custodial Activity                                         $              -   $              -   $          -   $         -   $              -   $         -   $              -   $         -   $         -   $                -
                                                                                                                   U. S. Department of Justice

                                                                                                           Combining Statement of Custodial Activity

                                                                                                          For the Fiscal Year Ended September 30, 2010


          Dollars in Thousands                                               AFF/SADF           OBDs                USMS           OJP           DEA                FBI           ATF                BOP           FPI           Combined


          Revenue Activity

          Sources of Cash Collections
             Delinquent Federal Civil Debts as Required by the Federal
                Debt Recovery Act of 1986                                $              -   $     4,789,655     $          -   $         -   $              -   $         -   $              -   $         -   $         -   $       4,789,655
             Fees and Licenses                                                          -                  -               -             -             15,000             -             13,985             -             -              28,985
             Fines, Penalties and Restitution Payments - Civil                          -                  -               -             -              5,963             -                 22             -             -               5,985
             Fines, Penalties and Restitution Payments - Criminal                       -            33,004                -             -                  -             -                 44             -             -              33,048
             Miscellaneous                                                              -                81                -             -                  -             -                623             -             -                 704

                Total Cash Collections                                   $              -   $     4,822,740     $          -   $         -   $         20,963   $         -   $         14,674   $         -   $         -   $       4,858,377

          Accrual Adjustments                                                           -                  -               -             -               211              -                60              -             -                  271

          Total Custodial Revenue                                        $              -   $     4,822,740     $          -   $         -   $         21,174   $         -   $         14,734   $         -   $         -   $       4,858,648

          Disposition of Collections
             Transferred to Federal Agencies
                 U.S. Department of Agriculture                                         -           (84,620)               -             -               -                -               -                -             -             (84,620)
                 U.S. Department of Commerce                                            -            (1,725)               -             -               -                -               -                -             -               (1,725)
                 U.S. Department of the Interior                                        -          (283,244)               -             -               -                -               -                -             -            (283,244)
                 U.S. Department of Justice                                             -           (24,865)               -             -               -                -               -                -             -             (24,865)
                 U.S. Department of Labor                                               -            (3,537)               -             -               -                -               -                -             -               (3,537)
                 U.S. Postal Service                                                    -            (6,762)               -             -               -                -               -                -             -               (6,762)
                 U.S. Department of State                                               -               (199)              -             -               -                -               -                -             -                 (199)
                 U.S. Department of the Treasury                                        -          (571,742)               -             -         (20,891)               -         (14,345)               -             -            (606,978)
                 Office of Personnel Management                                         -           (46,636)               -             -                -               -                -               -             -              (46,636)
                 Federal Communications Commission                                      -             (2,693)              -             -               -                -               -                -             -               (2,693)
                 Social Security Administration                                         -            (3,558)               -             -               -                -               -                -             -               (3,558)
                 Smithsonian Institution                                                -               (209)              -             -               -                -               -                -             -                 (209)
                 U.S. Department of Veterans Affairs                                    -           (35,068)               -             -               -                -               -                -             -             (35,068)




- 107 -
                 General Services Administration                                        -            (4,008)               -             -               -                -               -                -             -               (4,008)
                 Securities and Exchange Commission                                     -                 (2)              -             -               -                -               -                -             -                    (2)
                 Federal Deposit Insurance Corporation                                  -                (42)              -             -               -                -               -                -             -                   (42)
                 Railroad Retirement Board                                              -               (143)              -             -               -                -                -               -             -                 (143)
                 Environmental Protection Agency                                        -          (720,010)               -             -               -                -                -               -             -            (720,010)
                 U.S. Department of Transportation                                      -               (765)              -             -               -                -               -                -             -                 (765)
                 U.S. Department of Homeland Security                                   -           (30,872)               -             -               -                -               -                -             -             (30,872)
                 Agency for International Development                                   -            (2,155)               -             -               -                -               -                -             -               (2,155)
                 Small Business Administration                                          -            (5,360)               -             -               -                -               -                -             -               (5,360)
                 U.S. Department of Health and Human Services                           -        (1,528,861)               -             -               -                -               -                -             -          (1,528,861)
                 National Aeronautics and Space Administration                          -            (2,859)               -             -               -                -               -                -             -               (2,859)
                 Export-Import Bank of the United States                                -            (4,704)               -             -               -                -               -                -             -               (4,704)
                 U.S. Department of Housing and Urban Development                       -           (25,985)               -             -               -                -               -                -             -             (25,985)
                 U.S. Department of Energy                                              -            (2,281)               -             -               -                -               -                -             -               (2,281)
                 U.S. Department of Education                                           -           (63,002)               -             -               -                -               -                -             -             (63,002)
                 Independent Agencies                                                   -           (54,493)               -             -               -                -               -                -             -             (54,493)
                 Treasury General Fund                                                  -          (485,769)               -             -               -                -               -                -             -            (485,769)
                 U.S. Department of Defense                                             -          (112,640)               -             -               -                -               -                -             -            (112,640)
             Transferred to the Public                                                  -          (391,304)               -             -               -                -               -                -             -            (391,304)
             (Increase)/Decrease in Amounts Yet to be Transferred                       -          (210,225)               -             -            (283)               -               -                -             -            (210,508)
             Refunds and Other Payments                                                 -           (10,627)               -             -               -                -            (389)               -             -             (11,016)
             Retained by the Reporting Entity                                           -          (101,775)               -             -               -                -               -                -             -            (101,775)

          Net Custodial Activity                                         $              -   $              -    $          -   $         -   $              -   $         -   $              -   $         -   $         -   $                 -
This page intentionally left blank.





               - 108 -
Required Supplementary Stewardship Information


                   Unaudited





                 - 109 -
This page intentionally left blank.





               - 110 -
                                   U.S. Department of Justice 

                        Required Supplementary Stewardship Information 

                              Consolidated Stewardship Investments

            For the Fiscal Years Ended September 30, 2011, 2010, 2009, 2008 and 2007 



The Violent Offender Incarceration and Truth-In Sentencing (VOI/TIS) and the Correctional Grants
for Tribal Programs are administered by OJP’s Bureau of Justice Assistance (BJA). The VOI/TIS
and Correctional Grants for Tribal Land programs provide grants to all states as well as the District
of Columbia, Puerto Rico, Virgin Islands, American Samoa, Guam, the Northern Mariana Islands,
and Tribes for the purposes of building or expanding correctional facilities and jails to increase
secure confinement space for violent offenders. The facilities built or expanded with these funds
constitute non-federal physical property.

VOI/TIS and CSCATL funds are available for the following purposes:

     Build or expand correctional facilities to increase the bed capacity for the confinement of
      persons convicted of a Part 1 violent crime or adjudicated delinquent for an act that, if
      committed by an adult, would be a Part 1 violent crime. NOTE: Part 1 violent crime included
      murder and non-negligent manslaughter, forcible rape, robbery, and aggravated assault as
      reported to the Federal Bureau of Investigation for purposes of the Uniform Crime Reports.

     Build or expand temporary or permanent correctional facilities, including facilities on military
      bases, prison barges, and boot camps, for the confinement of convicted offenders and
      criminal aliens, for the purpose of freeing suitable existing prison space for the confinement of
      persons convicted of a Part 1 violent crime.

     Build or expand jails.

     Additionally, since fiscal year (FY) 1999, up to 10.0 percent of a state's VOI/TIS award may be
      applied to the costs of offender drug testing or intervention programs during periods of
      incarceration and post-incarceration criminal justice supervision and/or pay the costs of
      providing the required reports on prison drug use.

VOI/TIS and CSCATL funds expended from FY 2007 through FY 2011 are as follows:

    Dollars in Thousands              2011          2010           2009            2008            2007
    Cooperative Agreement Program
                                             $0             $0             $0             $1,140      $2,839
    Administered by USMS
    Discretionary Grants to Indian
                                         52,339         24,768          14,320             5,094      11,334
    Tribes
    Formula Grants to States             -1,139         11,389          41,561            59,011     188,171
    Total                               $51,200        $36,157         $55,881         $65,245      $202,344




                                             - 111 -
